<html>
<title> - DECISIONS ON THE FUTURE DIRECTION AND FUNDING FOR NASA: WHAT WILL THEY MEAN FOR THE U.S. AEROSPACE WORKFORCE AND INDUSTRIAL BASE?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   DECISIONS ON THE FUTURE DIRECTION
                    AND FUNDING FOR NASA: WHAT WILL
                    THEY MEAN FOR THE U.S. AEROSPACE
                     WORKFORCE AND INDUSTRIAL BASE?

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2009

                               __________

                           Serial No. 111-69

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
54-449                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6a7d624d6e787e796568617d236e626023">[email&#160;protected]</a>  

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
JOHN GARAMENDI, California           MARIO DIAZ-BALART, Florida
STEVEN R. ROTHMAN, New Jersey        BRIAN P. BILBRAY, California
JIM MATHESON, Utah                   ADRIAN SMITH, Nebraska
LINCOLN DAVIS, Tennessee             PAUL C. BROUN, Georgia
BEN CHANDLER, Kentucky               PETE OLSON, Texas
RUSS CARNAHAN, Missouri
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY


                            C O N T E N T S

                           December 10, 2009

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    15

Statement by Representative Gabrielle Giffords, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    17

Statement by Representative Pete Olson, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    19
    Written Statement............................................    20

                               Witnesses:

Mr. David Thompson, President, American Institute of Aeronautics 
  and Astronautics
    Oral Statement...............................................    22
    Written Statement............................................    24

Ms. Marion C. Blakey, President and Chief Executive Officer, 
  Aerospace Industries Association
    Oral Statement...............................................    26
    Written Statement............................................    28

Mr. A. Thomas Young, Executive Vice President (Ret.), Lockheed 
  Martin Corporation
    Oral Statement...............................................    32
    Written Statement............................................    33

Dr. Richard Aubrecht, Vice Chairman of the Board, Vice President, 
  Strategy and Technology, Moog, Inc.
    Oral Statement...............................................    35
    Written Statement............................................    37

Discussion
  Opinion of the Panel: Impact of Decision To Augment or Flat-
    Fund Human Spaceflight and Exploration Programs..............    39
  Augustine Report: Budget and Funding Issues....................    39
  Stimulus Funds and Human Spaceflight Funding for NASA..........    41
  Cooperation with Foreign Nations...............................    41
  Effects of Post-Shuttle Gap of U.S. Access to Space on 
    Maintaining Inspiration; and Gap in U.S. Industrial 
    Production of Heavy Lift Vehicle.............................    42
  Inspiring the Next Generation for Space Exploration............    44
  The Metric System..............................................    45
  Revitalizing and Improving the Aerospace Workforce.............    45
  Education Programs in Elementary Schools/Advocating Math and 
    Science......................................................    47
  Aircraft Propulsion Systems....................................    48
  Educational Initiatives Focused on Math and Science Teachers...    49
  Effect of Delaying or Indecision on Constellation Project......    51
  Impact of Previous Decisions on Current Status of Human 
    Spaceflight and Loss of Jobs.................................    52
  Importance of Science R&D and Education........................    54

              Appendix: Answers to Post-Hearing Questions

Mr. David Thompson, President, American Institute of Aeronautics 
  and Astronautics...............................................    58

Ms. Marion C. Blakey, President and Chief Executive Officer, 
  Aerospace Industries Association...............................    65

Mr. A. Thomas Young, Executive Vice President (Ret.), Lockheed 
  Martin Corporation.............................................    68

Dr. Richard Aubrecht, Vice Chairman of the Board, Vice President, 
  Strategy and Technology, Moog, Inc.............................    71


DECISIONS ON THE FUTURE DIRECTION AND FUNDING FOR NASA: WHAT WILL THEY 
       MEAN FOR THE U.S. AEROSPACE WORKFORCE AND INDUSTRIAL BASE?

                              ----------                              


                      THURSDAY, DECEMBER 10, 2009

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:06 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.


                            HEARING CHARTER

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

             Decisions on the Future Direction and Funding

               for NASA: What Will They Mean for the U.S.

                Aerospace Workforce and Industrial Base?

                      thursday, december 10, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

I. Witnesses

Mr. David Thompson, President
American Institute of Aeronautics and Astronautics

Ms. Marion C. Blakey, President and Chief Executive Officer
Aerospace Industries Association

Mr. A. Thomas Young, Executive Vice President (ret.)
Lockheed Martin Corporation

Dr. Richard Aubrecht, Vice Chairman, Vice President, Strategy and 
Technology,
Moog Inc.

II. Overview

    A series of recent Committee and Space and Aeronautics Subcommittee 
hearings have examined key issues related to upcoming decisions on the 
future direction and funding for the National Aeronautics and Space 
Administration (NASA), particularly as they relate to human 
spaceflight. The subcommittee has examined the results of the Review of 
U.S. Human Spaceflight Plans Committee, the state of advanced 
technology development at NASA, the growth of global space capabilities 
and what they mean for our space program, and human spaceflight safety. 
This hearing, convened by the Science and Technology Committee, looks 
at the health of the U.S. aerospace workforce and industrial base and 
how decisions on NASA's direction and funding would affect them, 
including decisions on human spaceflight plans.
    The aerospace workforce and the industrial base are at the core of 
the space enterprise, whether for NASA's programs and other civil space 
activities, commercial space, or national security space activities. 
The United States would not have achieved its leadership position in 
space without the dedication, expertise and skills resident in the 
aerospace workforce and industrial infrastructure that supports the 
nation's space program. As the nation looks forward, it will continue 
to depend on these talents and capabilities to support America's future 
goals and objectives for its space activities.
    Jobs in the aerospace workforce are highly-skilled and command good 
salaries. For example, according, to a report of the Space Foundation, 
The Space Report 2009, ``in 2007, the average annual wage of a U.S. 
aerospace engineer was $92,700, an increase of nearly $3,500 compared 
to 2006.'' The Space Report further states that ``For the first time on 
record, professionals in the federal space research and space vehicle 
manufacturing sectors earned an average salary above six figures . . . 
or 2.3 times that of the average U.S. private sector worker.'' In 
addition the aerospace industry is a significant contributor to the 
nation's economy, and the industry invests in research and development. 
Aerospace Facts & Figures 56th edition, a 2009 report of the Aerospace 
Industries Association (AIA), notes that ``Total sales for the 
aerospace industry grew by 7.2 percent to $200.3 billion in 2007.'' In 
his prepared statement for a Space and Aeronautics Subcommittee hearing 
on ``External Perspectives on the FY 2010 NASA Budget Request and 
Related Issues'' held on June 18, 2009, Mr. J.P. Stevens, Vice 
President, Space Systems of the Aerospace Industries Association (AIA) 
stated: ``Our member companies export 40 percent of their total output, 
and we routinely post the nation's largest manufacturing trade surplus, 
which was over $57 billion in 2008 . . . . The aerospace industry 
continues to look to the future, investing heavily in research and 
development, spending more than $100 billion over the last 15 years.''
    According to a series of advisory reports, however, the U.S. 
aerospace workforce and space industrial base face growing challenges. 
In 2001, the Bush Administration chartered The Commission on the Future 
of the United States Aerospace Industry to ``study the issues 
associated with the future of the United States aerospace industry in 
the global economy, particularly in relationship to United States 
national security; and assess the future importance of the domestic 
aerospace industry for the economic and national security of the United 
States.'' In its report, the Commission identified several critical 
issues including the aging of the aerospace workforce, consolidation in 
the industry, and ``the failure of the U.S. K-12 education system to 
properly equip U.S. students with the math, science, and technological 
skills needed to advance the U.S. aerospace industry''. Subsequent 
reports that are discussed in the sections that follow reiterate many 
of the pressing concerns that the Commission identified. Those concerns 
are particularly relevant during a period in which NASA is moving 
toward a planned retirement of the Space Shuttle, is developing the 
next human spaceflight system, will be relying on non-U.S. means of 
access to space during for a period of at least 5 years, and is 
preparing for key decisions about the space program and NASA's plans 
for human spaceflight in low-Earth orbit and beyond that will have 
significant implications for the aerospace workforce and industrial 
base.
    Will the nation pursue the current, congressionally-authorized 
course to return humans to the Moon as a stepping-stone to other 
destinations using the Constellation architecture, or will the 
Administration propose an alternative path or architecture that 
Congress will need to examine? Will the Administration and Congress 
support the increased funding for NASA and its human space flight 
activities that the Augustine committee has said is needed to carry out 
any meaningful exploration program? Will the International Space 
Station (ISS) be extended to at least 2020? What will be the interplay 
of scientific robotic and human endeavors in space? How are the 
knowledge and expertise gathered through our experience with the first 
fifty years of space activities, including the ability to design, 
develop, and operate a human lunar program and a space transportation 
system, being passed on to the next generation of aerospace 
professionals? What are the critical skills that the nation will need 
to preserve if it is to undertake future space activities? How can the 
nation retain and apply the critical skills and experience developed 
through decades of Space Shuttle operations to the next human space 
transportation system? I-low will the space program contribute to 
meeting national needs and advancing international goals and 
objectives? The impact of potential decisions on these questions will 
affect the types of skills and capabilities that are required, the size 
and distribution of the workforce, and the geographical concentrations 
of the workforce and institutions (government, industry, and academic) 
that have grown up to support NASA's programs over the past decades 
will also need to be considered.
    Some of these questions on NASA's future have come to the fore with 
the Presidentially-charged independent review of U.S. human spaceflight 
plans that was carried out by a committee led by Mr. Norman Augustine, 
former Chairman and Chief Executive Officer of Lockheed Martin 
Corporation. The Committee, in its report, Seeking a Human Spaceflight 
Program Worthy of a Great Nation, reviewed current spaceflight plans 
and proposed potential alternatives. Other actions for the future of 
the space program have been recommended in such reports as the National 
Research Council's (NRC) America's Future in Space: Aligning the Civil 
Space Program with National Needs. These and other reports refer to the 
importance of a healthy aerospace workforce and industrial base for the 
future of the space program. As noted in the NRC report, ``A competent 
technical workforce--sufficient in size, talent, and experience to 
address difficult and pressing challenges'' is one of four foundational 
elements that are critical to the ability of America's space activities 
to contribute to key national objectives.
    Several reports, including the National Academies report, Rising 
Above the Gathering Storm, refer to the urgent need to improve science, 
technology, engineering, and mathematics (STEM) education and promote 
careers in science and technology if the nation is to maintain its 
leadership in science and engineering. As the National Research 
Council's America's Future in Space report noted, ``Aerospace 
engineering requirements compete nationally for much of the same 
technically trained talent needed across the broad research and 
engineering sectors of our country.'' Because expectations often weigh 
heavily on those pursuing careers in STEM fields, including aerospace, 
it will be important for Congress and the White House to understand the 
extent to which the future direction and stability of funding for NASA 
and the nation's space program will be a significant factor in building 
and maintaining the pipeline of talent and experience for the aerospace 
workforce of the future. It is clear from a variety of independent 
assessments that adequate funding and stability of funding are critical 
ingredients in attracting and maintaining the skilled workforce needed 
to carry out NASA's missions, including especially its human space 
flight and exploration activities, which can require multi-decadal 
commitments.

III. Issues

        <bullet>  How do the aerospace workforce and industrial base 
        contribute to the nation's economic strength, technological 
        capabilities, competitiveness, and capacity for innovation?

        <bullet>  What are the critical issues and trends related to 
        the U.S. aerospace workforce and space industrial base that 
        Congress and the White House need to understand as decisions 
        are made on the future direction and funding for NASA?

        <bullet>  How important is the adequacy and stability of 
        funding and stability of NASA's program to the health of the 
        aerospace workforce and space industrial base?

        <bullet>  What does the ``gap'' in U.S. human spaceflight 
        capability mean for the aerospace workforce and industrial 
        base, and how would any lengthening or shortening of the gap 
        affect the workforce and industrial base?

        <bullet>  What, if any, lessons learned from our experience 
        with the gap between the end of the Apollo program and the 
        first flight of the Space Shuttle, and its effects on the 
        workforce and industrial base, have application to the current 
        plans for retiring the Shuttle and transitioning to a new U.S. 
        human spaceflight system?

        <bullet>  What are the critical workforce skills and industrial 
        capabilities that need to be preserved as national assets, and 
        what are the most effective ways to preserve those assets?

        <bullet>  What would any significant cutback or change in 
        direction from the current Constellation Program mean for the 
        aerospace workforce and space industrial base?

        <bullet>  What is the implication of continuing ISS operations 
        and utilization through at least 2020 for the workforce and 
        industrial base?

        <bullet>  What are the most significant impediments to ensuring 
        the strength and capabilities of the aerospace workforce and 
        industrial base, especially for human spaceflight?

        <bullet>  How do emerging space companies affect the aerospace 
        workforce and industrial base and what is the outlook for the 
        future?

IV. Background

The U.S. Aerospace Workforce and Its Contribution to the Economy
    The aerospace workforce includes NASA civil servants and its 
grantees and contractor space workforce; the broader aerospace 
workforce that support space, aviation, and defense programs; as well 
as a chain of suppliers, businesses and service organizations that also 
support the aerospace sector.

<bullet>  NASA Civil Servant and Contractor Space Workforce

    The President's FY 2010 budget request for NASA describes the 
estimated level of full-time equivalents for NASA, including 
headquarters and ten centers for FY 2010 as 17,900. The budget request 
states that: ``In order to ensure that the necessary skills are 
available to meet the work demand of current and future programs and 
projects, maintaining a total workforce level of 17,900 FTE, while 
reshaping the skills, is vitally important to meeting the challenges of 
NASA's current and future commitments,'' although it does not indicate 
why or whether that workforce level, as opposed to higher or lower 
levels, is considered to be optimal.
    The relevant workforce also includes tens of thousands of 
contractors working at or near NASA centers that support NASA's space 
and aeronautics activities. The main occupations for NASA's workforce 
are science and engineering professionals, technicians, program 
managers, administrative professionals, and clerical staff

<bullet>  Aerospace Industry Workforce

    According to testimony by Mr. J.P. Stevens, Vice President, Space 
Systems for the AIA, to the Space and Aeronautics Subcommittee in June 
2009, AIA ``represents nearly 300 manufacturing companies with over 
660,000 high-wage, highly skilled aerospace employees across the three 
sectors: civil aviation, space systems and national defense. This 
includes over 140,000 workers who make the satellites, space sensors, 
spacecraft, launch vehicles and ground support systems employed by 
NASA, DoD, [Department of Defense] NOAA, [National Oceanic and 
Atmospheric Administration] NRO [National Reconnaissance Office] and 
other civil, military and intelligence space efforts . . . . Aerospace 
indirectly supports 2 million middle class jobs and 30,000 suppliers 
from all 50 states.''
    The Space Report 2009, a report of the Space Foundation, used 
workforce data from six North American Industry Classification System 
codes and the U.S. Bureau of Labor Statistics to calculate that, during 
2007, a total of 262,741 Americans worked in the following areas of the 
space industry--search, detection, and navigation instruments; guided 
missile and space vehicle manufacturing; guided missile and space 
vehicle propulsion unit and propulsion unit parts manufacturing; other 
guided missile and space vehicle parts and auxiliary equipment 
manufacturing; satellite telecommunications; space research and 
technology. [The space research and technology code is defined as 
including ``government establishments primarily engaged in the 
administration of operations of space flights, space research, and 
space exploration. Included in this industry are government 
establishments operating space flight centers.'']
    In addition, there is an emerging commercial space industry that 
plans to offer various commercial space and launch services and one 
issue for the hearing is to understand the relevant aerospace workforce 
and industrial base issues for this segment of the space industry.

<bullet>  Space Industry Wages

    Space industry jobs are high paying jobs. According to the 
Aerospace Facts & Figures, a publication of the AIA, ``On average, the 
aerospace workforce is highly-skilled, specialized, and productive. 
Although aerospace workers comprised only 4.7 percent of the total 
manufacturing workforce, their compensation represented 7.1 percent of 
the total annual payroll for all manufacturing.''
    The Space Report 2009 states that ``the combined average annual 
salary across the six core U.S. space industry sectors analyzed was 
$88,092 in 2007, nearly double the average salary of U.S. professionals 
in the average private sector overall. For the first time on record, 
professionals in the federal space research and space vehicle 
manufacturing sectors earned an average salary above six figures, more 
than $101,000, or 2.3 times that of the average U.S. private sector 
worker.''
    In addition, The Space Report 2009 notes ``Growth in space industry 
employment delivers a disproportionately large boost to the economy 
compared to economic growth in other sectors due to high wage levels in 
the space industry.'' The report also state that, ``Not only are U.S. 
space industry salaries high, they are growing. In 2003, the average 
U.S. space industry salary, adjusted for inflation to 2007 dollars, was 
$81,991. In real terms, U.S. space professionals made nearly S7,000 
more on average in 2007 than they had five years prior, a real wage 
increase of 7.4%.''

General Issues Related to the Aerospace Workforce
    The overall U.S. aerospace workforce faces a number of challenges, 
as identified by several reports and analyses on the topic. Those 
issues include the aging of the aerospace workforce, the stability of 
space-related programs, the skills required for major programs, and the 
status of the pipeline for future workers.
    According to the Commission on the Future of the United States 
Aerospace Industry's 2002 report, ``The contributions of aerospace to 
our global leadership have been so successful that it is assumed U.S. 
preeminence in aerospace remains assured. Yet the evidence would 
indicate this to be far from the case. The U.S. aerospace industry has 
consolidated to a handful of players from what was once over 70 
suppliers in 1980 down to 5 prime contractors today. Only one U.S. 
commercial prime aircraft manufacturer remains. Not all of these 
surviving companies are in strong business health. The U.S. airlines 
that rely upon aerospace products find their very existence is 
threatened. They absorbed historical losses of over $7 billion in 2001 
and potentially more this year.
    The industry is confronted with a graying workforce in science, 
engineering and manufacturing, with an estimated 26 percent available 
for retirement within the next five years. New entrants to the industry 
have dropped precipitously to historical lows as the number of layoffs 
in the industry mount. Compounding the workforce crisis is the failure 
of the U.S. K-12 education . . . .''

<bullet>  Aging Workforce and Pipeline

    The employee ranks within both NASA and the aerospace industry are 
aging and the number of employees eligible for retirement is 
increasing. According to the 2009 NRC report, America's Future in 
Space: Aligning the Civil Space Program With National Needs, ``As of 
February 2009, more than 60 percent of NASA's full-time permanent 
employees were at least 45 years old, and nearly one quarter of 
employees were above 55.'' According to the AIA, ``Only 15.7% of the 
aerospace workforce is composed of 25-34 year olds. Nearly 60% of the 
workforce is 45 years and older.'' The 2009 NRC report also notes that 
``the experienced aerospace workforce that pioneered the exploration of 
space and engineered notable past accomplishments is quickly 
retiring''. A 2007 NRC report, Building a Better NASA Workforce: 
Meeting the Workforce Needs for the National Vision for Space 
Exploration, states that ``NASA has determined that 12 percent of its 
engineers and 21 percent of its scientists are now eligible to retire, 
and it projects that in 2011, 28 percent of its engineers and 45 
percent of its scientists will be eligible to retire.'' As a result of 
low annual rates of attrition at NASA (3.5 percent overall, annually), 
according to the NRC report, the authoring committee did not foresee a 
sudden large exodus from the NASA ranks.
    To address the aging workforce situation, NASA and the aerospace 
industry have taken concrete steps to encourage and create 
opportunities for students to pursue education and then careers in STEM 
fields and to gain experience on space projects. Even with these 
ongoing efforts, NASA and the industry face challenges in building the 
pipeline to replace retiring workers.
    The Aviation Week 2009 Workforce Study raises the issue that among 
those that do enter the aerospace workforce, the attrition rate has 
increased for employees in the early stages of their careers: ``The 
voluntary attrition rate among young professionals (those with 0-5 
years of experience) rose to 15.7% from 14% a year ago. This data point 
was added to the survey in 2008 so there is no further longitudinal 
analysis available. Also note a voluntary attrition rate of 19.4% for 
the manufacturing/production workforce within those first five years of 
service . . . .''

<bullet>  Workforce Needs and Priority Skills

    Among the skills in highest demand for aerospace programs, both 
civil and national security, are engineering capabilities--in 
particular systems engineering--and program management. A 2008 report 
by the Center for Strategic and International Studies (CSIS), Briefing 
of the Working Group on the Health of the U.S. Space Industrial Base 
and the Impact of Export Controls, states ``The issue of program 
management and systems engineering skills shortages in government and 
industry have been well identified in numerous studies over the last 
five years.'' At the same time, these skills are not easily acquired, 
as the study notes: ``it takes up to 10 years to `grow' systems 
engineers and multiple program experiences are critical'', as described 
in the CSIS report.
    The overall economic climate and the instability of the nation's 
aerospace activities appear to be factors affecting hiring projections 
for the aerospace workforce, even for the most sought-after 
capabilities. According to the Aviation Week 2009 Workforce Study, 
which was prepared in partnership with the Aerospace Industries 
Association, the American Institute of Aeronautics and Astronautics, 
and the National Defense Industries Association, ``Hiring for the top 
four skills [systems engineering, aerospace engineering, mechanical 
engineering, program/software engineering] is predicted by these same 
companies to plummet by 38-80% in 2010, while other categories hold 
relatively steady. Only the fifth skill noted in the rankings, program 
management, projects a hiring increase (4%) in 2010. The economic 
hangover, then, is expected to last through 2010 or until new programs/
contracts develop.''
    In addition, The Space Report 2009 identified a complement of 
engineering occupations as well as various science occupations that, 
according to the report, form a set of diversified skills and human 
capital that are needed for future space activities. Those occupations 
are: Aerospace engineering and operations technicians; Aerospace 
engineers; Astronomers; Atmospheric and space scientists; Avionics 
technicians; Chemical engineers; Materials engineers; Materials 
scientists; and Postsecondary atmospheric, Earth, marine, and space 
sciences teachers.

<bullet>  Growth

    In terms of space industry employment, The Space Report 2009 states 
that ``After declining slightly between 2001 and 2003 with the bursting 
of the telecommunications market bubble, U.S. space industry employment 
has rebounded to 2001 levels. Between 2003 and 2007, the most recent 
five-year period for which official data is available, the number of 
space industry jobs grew by 5.1%.'' This growth occurred in every 
sector of the U.S. space industry, except satellite telecommunications.
    The Aviation Week 2009 Workforce Study, which was issued in July 
2009, reports that ``What began as a full court press to hire and bring 
specific skills into the A&D [aerospace and defense] industry a year 
ago adjusted downward as the year progressed and economic concerns grew 
worse. A year ago, the projection was that 2008 hiring would hold at 
5%, reflecting the industry's overall growth. This year, that number 
falls to 3% job growth and layoffs among 50% [of] the organizations 
responding to the survey.''

<bullet>  Science and Aeronautics Workforce

    NASA conducts a broad portfolio of aeronautics and space and Earth 
science programs that will require a workforce pipeline with the skills 
and capabilities to implement those programs. Several National Research 
Council reports and assessments focused on NASA's science and 
aeronautics programs have commented on the need for a skilled workforce 
related to those areas. A sample of the findings and recommendations of 
those reviews include:

                  ``Recommendation: To ensure that the NASA 
                aeronautics program has and will continue to have an 
                adequate supply of trained employees, the Aeronautics 
                Research Mission Directorate [ARMD] should develop a 
                vision describing the role of its research staff as 
                well as a comprehensive, centralized strategic plan for 
                workforce integration and implementation specific to 
                ARMD. The plan should be based on an ARMD-wide survey 
                of staffing requirements by skill level, coupled with 
                an availability analysis of NASA civil servants to 
                support the NASA aeronautics program. The plan should 
                identify specific gaps and the time frame in which they 
                should be addressed.'' NRC, NASA Aeronautics Research: 
                An Assessment, 2008.

                  ``A successful Earth information system should be 
                planned and implemented around long-term strategies 
                that encompass the life cycle from research to 
                operations to applications. The strategy must include 
                nurturing an effective workforce, informing the public, 
                sharing in the development of a robust professional 
                community, . . . and much more.'' NRC, Earth Science 
                and Applications from Space, 2007.

                  Finding. ``Due to reductions in the scope of NASA's 
                Radiation Protection Plan, the current pool of 
                intellectual capital will shrink as researchers retire 
                and are not replaced.''
                   Recommendation: ``NASA should try, perhaps as part 
                of an interagency effort, to attract and engage young 
                researchers and the broader radiation community at a 
                level sufficient to supply the demands for radiation 
                protection of astronauts in lunar mission operations 
                and martian mission planning.'' NRC, Managing Space 
                Radiation Risk in the New Era of Space Exploration, 
                2008.

                  ``Recommendation. The Exploration Systems Mission 
                Directorate should implement cooperative research 
                programs that support the Exploration Technology 
                Development Program (ETDP) mission with qualified 
                university, industry, or national laboratory 
                researchers, particularly in low-technology-readiness-
                level projects. These programs should both support the 
                ETDP mission and develop a pipeline of qualified and 
                inspired future NASA personnel to ensure the long-term 
                sustainability of U.S. leadership in space 
                exploration.'' NRC, A Constrained Space Exploration 
                Technology Program, 2008.

    The strength of the scientific and technical base, including for 
space and Earth science, has also been recognized as a critical aspect 
of the nation's economic engine, and its competitiveness and innovation 
infrastructure.

         ``The visible products of research . . . are made possible by 
        a large enterprise mostly hidden from public view--fundamental 
        and applied research, an intensively trained workforce, and a 
        national infrastructure that provides risk capital to support 
        the nation's science and engineering innovation enterprise. All 
        that activity, and its sustaining public support, fuels the 
        steady flow of knowledge and provides the mechanism for 
        converting information into the products and services that 
        create jobs and improve the quality of modern life. Maintaining 
        that vast and complex enterprise during an age of competition 
        and globalization is challenging, but it is essential to the 
        future of the United States.'' The National Academies, Rising 
        Above the Gathering Storm, 2007.

<bullet>  Diversity

    The number of women and under-represented minorities involved in 
the U.S. aerospace workforce is not changing, according to recent 
studies. The Aviation Week 2009 Workforce Study notes that ``As in past 
years and despite significant effort, there has been no measurable 
change in the participation of women and under-represented minorities 
in the technical workforce for A&D.'' The report also states that 
``Under-represented minorities are defined as non Anglo or Asian 
American, as self-identified by members of the workforce. Women 
continue to make up 12% of the engineering workforce and under-
represented minorities 18% of the job function. There has been no 
change in either in the past three years, despite hiring and retention 
efforts by participating companies.''
    According to the Report of the Interagency Aeropsace Revitalization 
Task Force, February 2008, ``A 2007 Aviation Week survey notes that 
while women comprise 26 percent of the aerospace workforce, they only 
comprise 10 percent of engineers and 17 percent of program managers. 
Meanwhile, minorities comprise 25 percent of the aerospace workforce, 
but only constitute 18 percent of engineers and 10 percent of program 
managers.''

Workforce and Industrial Base Issues Related to Human Spaceflight

<bullet>  Workforce Issues and the Constellation Program

    The NASA Authorization Acts of 2005 and 2008 authorized a national 
human and robotic exploration initiative, including the development of 
a new human space transportation system and a return of Americans to 
the Moon as a stepping stone to the exploration of other destinations 
in the solar system.
    In addition, NASA studied and analyzed various architectures, 
requirements, and implementation approaches based on the Vision for 
Space Exploration articulated by President Bush in 2004. In 2005 NASA 
issued the Final Report of NASA's Exploration Systems Architecture 
Study (ESAS) and recommended an architecture that is now being 
developed as NASA's Constellation Program. In terms of workforce, the 
ESAS report states that ``The Shuttle-derived approach provides a 
relatively smooth transition of existing facilities and workforce to 
ensure lower schedule, cost, and programmatic risk.'' Thus, the 
implications for the workforce were considered at the outset of 
planning for a future human spaceflight system.
    In addition to easing the transition of the current workforce from 
the Space Shuttle program to the development of the next human 
spaceflight system, NASA also needs to ensure that the necessary 
technical skills will be in place to support a long-term human 
spaceflight and exploration program. The NRC's Building a Better NASA 
Workforce report studied the workforce needs that would have to be met 
to implement the exploration initiative and found that ``the agency now 
has a relatively low number of younger workers to assume future 
leadership roles in NASA as older workers retire. If it does nothing to 
achieve a better age distribution across its overall internal 
workforce, NASA will suffer a gap not only in technical leadership, but 
also in overall technical experience, especially if the development 
dates for key VSE [Vision for Space Exploration] components slip and 
highly skilled workers with experience in the Space Shuttle program 
retire.''
    The NRC report also found that ``There is a longstanding, widely 
recognized requirement for more highly skilled program/project managers 
and systems engineers who have acquired substantial experience in space 
systems development. Although the need exists across all of NASA and 
the aerospace industry, it seems particularly acute for human 
spaceflight systems because of the long periods between initiation of 
new programs (i.e., the Space Shuttle Program in the 1970s and the 
Constellation Program 30 years later).
    Finally, workforce challenges in the Constellation Program are 
exacerbated by the funding instability that the program has 
encountered. As Dr. Kenneth Ford, chair of the NASA Advisory Council, 
testified to the Space and Aeronautics Subcommittee on June 18th of 
this year:

         ``When a program such as Constellation has to re-plan, due to 
        significant budget cuts, it means that schedules are shifted 
        and contracts must be changed and renegotiated to a new 
        baseline, inevitably at higher cost. The schedule delays also 
        impact the ability to retain the highly skilled workforce 
        currently working in support of the Shuttle and ISS systems. As 
        the schedule slips, workers are first impacted in the hardware 
        manufacturing facilities, and then as launch and orbit 
        operations are delayed, workers are impacted in launch 
        processing and operations. These workers have unique skills, 
        and it is important to retain much of this workforce for the 
        new systems. This unstable funding scenario is reminiscent of 
        the instability in the Space Station Freedom yearly budgets in 
        the late '80s and early '90s that resulted in annual re-
        planning, cost overruns, and delays. Largescale engineering 
        development programs and the associated contracts cannot be 
        stopped and started without the inefficiency of replanning, 
        loss of critical skills, additional significant costs, and loss 
        of schedule. I hope that this is a `lesson learned,' and that 
        it will not have to be relearned at great cost. The current 
        budget environment is jeopardizing the future of U.S. human 
        space flight at a time when NASA has made significant progress 
        toward development of the new Space Transportation 
        Architecture.''

<bullet>  Workforce Issues and Transition from Shuttle to Constellation

    NASA's currently operating human space flight programs include the 
Space Shuttle and the International Space Station (ISS) programs. It 
should be noted that some of the Shuttle and ISS workforce also 
contribute to the Constellation Program, which includes the Ares I 
launch vehicle and the Orion crew exploration vehicle, among other 
development activities. NASA's estimates of the Shuttle and 
Constellation workforce are presented as a combined number in the NASA 
Space Shuttle Workforce Transition Strategy of July 2009, which NASA 
prepared and updates pursuant to the FY 2008 Consolidated 
Appropriations Act (P.L. 110-161).
    NASA has taken several steps to prepare for the transition from the 
Space Shuttle to follow-on systems while also assessing the key skills 
needed for the human space flight program. The NASA Space Shuttle 
Workforce Transition Strategy also reports on actions that NASA has 
taken regarding the workforce transition. The March 2008 NASA Workforce 
Transition Strategy Initial Report, Space Shuttle and Constellation 
Workforce, states that ``NASA has made a concerted effort to share 
civil servant and contractor workforce across the programs (especially 
between Space Shuttle, ISS, and Constellation). This workforce synergy 
enables the Constellation Program to make steady progress towards its 
development and operational goals while ensuring the continuing 
availability of the critical skills necessary to safely and efficiently 
execute the remaining Space Shuttle Missions.'' In addition, as 
described in the July 2009 Transition Strategy update, NASA has worked 
with Federal, state, and local organizations, including in Florida, to 
share information related to retaining the technical workforce needed 
to implement the exploration initiative; established a Space Shuttle 
Transition Liaison Office; completed Phase III of a NASA Workforce 
Skills Mapping activity and awarded contracts for mission operations 
services that provide the workforce with opportunities following the 
retirement of the Shuttle; among other actions.
    Some of the abovementioned NASA actions regarding workforce 
transition are also discussed in the Aerospace Skills Retention and 
Investment Reutilization Report, which was prepared pursuant to Section 
614 of the NASA Authorization Act of 2008 (P.L. 110-422) and the 
Explanatory Statement accompanying FY 2009 Omnibus Appropriations Act 
(P.L. 111-8), and was transmitted in July 2009. According to the 
report, NASA is providing assistance to Shuttle workers with career 
development plans following the planned retirement of the Shuttle. The 
agency has conducted a series of workforce mapping processes ``to 
understand how people will migrate from Shuttle to Constellation and 
other NASA programs'' and is working with industry contractors on 
mapping of contractor workforce skills and levels. The Constellation 
workforce size and skills, the report notes, will depend on the 
program's requirements. ``NASA believes that the highly skilled, 
experienced, and dedicated human spaceflight workforce of the Space 
Shuttle and ISS programs will be employed by successful bidders for 
future Constellation development work, but the geographic distribution 
and quantity of each type of work continues to be determined as NASA 
competes and selects contractors to design and develop Constellation 
systems. As Constellation contractors further define their vehicles 
through successful design reviews, suppliers and vendors will be 
selected, and the opportunities for maintaining continuity of critical 
workforce experience will become clear.'' What the report does not 
discuss in detail, but what is critically important, is that the 
ability to transition the Shuttle workforce and ISS development 
workforce to the Constellation program is predicated on an adequately 
funded and sustained human space flight and exploration program.
    In its Annual Report for 2008, the Congressionally-charted 
Aerospace Safety Advisory Panel (ASAP) refers to workforce development 
and sustainment in the transition from the Space Shuttle to 
Constellation program. Specifically, the report states:

                 ``1. Workforce Transition Planning. NASA currently is 
                managing the transition from the Space Shuttle program 
                to the new flagship Constellation program as well as 
                continuing the development of specific science 
                missions. The ASAP has several observations.

                <bullet>  The morale of Shuttle personnel is still high 
                and represents a fundamental and professional 
                dedication to crew safety and mission assurance.

                <bullet>  The Constellation program is implementing a 
                workforce strategy that includes an integrated design 
                process, development of needed workforce skill sets, an 
                inclusive team approach, and knowledge transfer from 
                one generation of scientists, engineers, and managers 
                to the next.

                <bullet>  NASA still must develop an Agency-wide 
                personnel skills matrix to identify missing skill sets 
                and to match needed skills with available personnel, 
                including transferring or relocating Center and program 
                personnel from declining-demand projects to new or 
                expanding projects.

                 2. Workforce Retention and Development.  Both the ASAP 
                and the Agency recognize that the aging of the NASA 
                workforce requires not only retention of experienced 
                Shuttle engineers and leaders with Apollo expertise, 
                but also the recruitment and task-specific training of 
                the next generation.

                <bullet>  Retention of Key Technical, Engineering, and 
                Management Leaders. ASAP concerns include (1) retention 
                of experienced personnel for late-stage programs; (2) 
                unique local workforce retention issues, such as post-
                Katrina housing expenses or a large influx of new 
                Department of Defense Base Realignment and Closure 
                (BRAC) positions (e.g., at Marshall Space Flight Center 
                and the U.S. Army Redstone Arsenal); and (3) the need 
                for the Office of Personnel Management to approve 
                reemployment of retired Federal civil service 
                annuitants without financial penalty to better enable 
                NASA to retain needed expertise.

                <bullet>  Educational Outreach. The ASAP suggests that 
                NASA continue focusing on its well developed 
                Cooperative Education (Co-op) program, but expand its 
                reach and also recruit experienced candidates from 
                industry or academia.''

    The Government Accountability Office (GAO) commented on the funding 
for Constellation and implications for the workforce. In its August 
2009 report, Constellation Program Cost and Schedule Will Remain 
Uncertain Until a Strong Business Case is Established, GAO noted that, 
``a poorly phased funding plan that runs the risk offending shortfalls 
in fiscal years 2009 through 2012, resulting in planned work not being 
completed to support schedules and milestones. This approach has 
limited NASA's ability to mitigate technical risks early in development 
and precludes the orderly ramp up of workforce and developmental 
activities.''

<bullet>  Impact of ``the Gap'' on the Workforce and Knowledge Base

    The nation previously experienced a gap in human spaceflight 
systems following the end of the Apollo program and when the Space 
Shuttle flew for the first time. One of the issues for the hearing is 
to understand how NASA addressed the Apollo-Shuttle gap and what can be 
learned from that experience.
    One recurring theme regarding the Shuttle-Constellation gap is the 
issue of retaining knowledge and skills. The Review of U.S. Human 
Spaceflight Plans Committee's report noted that ``The Committee is 
concerned about the retention of critical knowledge and skills and the 
availability of that unique portion of the workforce necessary to 
conduct the next set of human spaceflight missions--which, as of now, 
cannot be expected until late in the next decade.''
    As mentioned in National Research Council reports and by the 
Aerospace Commission, and the Review of U.S. Human Spaceflight Plans 
Committee, systems engineering is one of the critical skills that must 
be retained and developed in the pipeline. In its report, the Human 
Spaceflight Plans Committee comments that ``If NASA is to successfully 
execute the complex undertakings to which it aspires, it must maintain 
a world-class systems engineering capability, a capability that this 
and other reviews have deemed to be marginal in its current 
embodiment.''

<bullet>  Potential Alternative Human Spaceflight Architectures and 
Issues and Implications for the Aerospace Workforce and Industrial Base

          Testimony by Mr. Norman Augustine before the Senate 
        Committee on Commerce, Science and Transportation Subcommittee 
        on Science and Space, September 16, 2009

         ``And unless one makes a major shift in how one conducts 
        business, the overall NASA employment should stay about the 
        same. However, the mix of that employment will certainly 
        change. We'll need different talents. For example, if we 
        terminate the shuttle in 2010 or early 2011, the people who 
        have been focusing on launching shuttles are very different 
        people probably than some that will be needed to build an Ares 
        or Ares I or an Ares V or whatever, a shuttle drive [derived] 
        vehicle. So there will be changes in skill . . . . The other we 
        looked at are those critical skills that only people at NASA or 
        in the industry are likely to have. Those we think it's very 
        important to preserve. And we need to consciously go out and do 
        that . . .. an example would be the large solid segmented solid 
        rocket motors. It's an art as well as a science to build those 
        things safely. And if we lose that capability it will very hard 
        to get back. Ability to work with liquid hydrogen, liquid 
        oxygen--we would like to see us learn how to do that in space 
        as well as here on earth. So those special skills we have to 
        find a way to preserve, for sure.''

    The Review of U.S. Human Spaceflight Plans Committee Statement of 
Task specifies that the evaluation parameters for the review should 
include, ``Implications for transition from current human space flight 
operations'' and ``Impact on the nation's industrial base and 
competitiveness internationally'', among several other parameters. To 
that end, the Committee's presentation of options for human spaceflight 
plans and architectures included discussion of the workforce. With the 
Committee's report, consideration of workforce issues is apparent in 
the analysis of options for potential heavy-lift launch vehicles.

<bullet>  Impact of Alternative Launch Vehicles on Workforce

          Shuttle Extension
           ``Extending the Shuttle would have a beneficial impact on 
        the near-term workforce issues. Some workforce reductions would 
        be indicated by the reduced flight rate proposed, but there 
        would be several years in which to manage these reductions. In 
        2015, when the Shuttle finally retires, no NASA crew launch 
        system would be available for several more years, and then the 
        problem of maintaining key workforce skills would resurface. If 
        however, the commercial crew option were to be ready by 2016 or 
        so, some national competence in crew launch would be nearly 
        continuous.''

          Ares V (with Ares I) vs. Ares V Lite dual launch
           ``Programmatically, the choice of the Ares V (together with 
        Ares I) unquestionably has less impact on current workflow or 
        contracts. However, the. Ares V Lite preserves some of the 
        investment already made for Ares I, and would possibly allow 
        some of the contract structure to stay in place.''

          NASA heritage vs EELV [Evolved Expendable Launch Vehicle]-
        heritage super-heavy vehicles
           ``The EELV-heritage super heavy would represent a new way of 
        doing business for NASA, which would have the benefit of 
        potentially lowering development and operational costs . . . . 
        However, this efficiency of operations would require 
        significant near-term realignment of NASA. Substantial 
        reductions in workforce, facilities closures, and mothballing 
        would be required. When the Committee asked NASA to assess the 
        cost of this process, the estimates ranged from $3 billion to 
        $11 billion over five years . . . . The transition to this way 
        of doing business would come at the cost of cutting deeply into 
        a the internal NASA capability to develop and operate 
        launchers, both in terms of skills and facilities.''

          Ares V versus Shuttle-derived family
           ``The Committee viewed the decision between the Ares V 
        family and the Shuttle-derived family as one driven by cost and 
        capability. The development cost of the more Shuttle-derived 
        system would be lower, but it would be less capable than the 
        Ares V family and have higher recurring costs. There are 
        potential workforce and skill advantages associated with the 
        use of the more-directly Shuttle-derived system, but the long 
        gap between when the Shuttle is retired in 2011, or even 2015, 
        and when the Shuttle-derived heavy-lift launcher becomes 
        available in the early to mid-2020s would diminish the 
        potential value of the workforce continuity associated with 
        Shuttle derivatives.''

    In the Subcommittee on Space and Aeronautics' September 15, 2009 
hearing on Options and Issues for NASA's Human Space Flight Program: 
Report of ``Review of U.S. Human Space Flight Plans'' Committee, Dr. 
Edward Crawley, a member of the Committee, provided technical 
commentary in support of testimony by the Committee chair, Mr. Norman 
Augustine:

         ``And they are the problem is that the--the options--the 
        differing of the options tend to do different things. So, for 
        example, the ones that continue to use the solid rocket 
        boosters like Ares 1 and Ares 5 preserve that aspect of our 
        national capability and workforce skills. Some of the other 
        options tend to preserve other aspects of workforce skills. 
        The--the one piece of--that--that does come through, however, 
        is the options that have some variant or another that--that 
        preserve--that extend the shuttle, or shuttle heritage systems 
        do tend to preserve the workforce capabilities 
        preferentially.''

U.S. Space Industrial Base
    The U.S. space industrial base is closely coupled to the aerospace 
workforce because the capabilities of the industrial base and the 
business opportunities pursued by the aerospace industry must be 
coordinated with and supported by the skills and talent of the U.S. 
aerospace workforce.
    The Aerospace Commission recognized the importance of these 
elements to U.S. leadership in space: ``Global U.S. aerospace 
leadership can only be achieved through investments in our future, 
including our industrial base, workforce, longterm research and 
national infrastructure.''
    The space industrial base includes a diverse set of sectors. One 
accounting of the various sectors is provided in the Report of the 
Interagency Aerospace Revitalization Task Force, February 2008:

<bullet>  ``Civil

<bullet>  Air (e.g., air traffic management system, safety regulation, 
accident investigation, environmental permitting, noise and emission 
standards)

<bullet>  Space (e.g., weather satellites, air and space-based Earth 
monitoring, International Space Station, Space Shuttle, Hubble Space 
Telescope, robotic missions to the planets

<bullet>  Commercial

<bullet>  Air (e.g., aircraft manufacturing, air carriers, general 
aviation, airport operations)

<bullet>  Space (e.g., space launch, launch vehicles and satellite 
manufacturing, telecommunications, remote sensing)''

    In addition, a broader range of associated businesses and suppliers 
support the aerospace industry and also rely on its technical workforce 
and technologies. It is important to note that for every prime 
aerospace contractor, there are several subcontractors and suppliers 
that support aerospace programs.

<bullet>  Status of the U.S. Space Industrial Base

    The 2002 report of the Aerospace Commission concluded that 
``aerospace capabilities and the supporting defense industrial base are 
fundamental to U.S. economic and national security. While the nation's 
defense industrial base is strong today, the nation is at risk in the 
future if the United States continues to proceed without a policy that 
supports essential aerospace capabilities.'' The Commission recommended 
several elements of a policy, among them were some that related to the 
aerospace industrial base:

          ``Removing barriers to international sales of defense 
        products;

          Sustaining critical technologies that are not likely to be 
        sustained by the commercial sector, e.g. space launch, solid 
        boosters, etc.; and

          Stable funding for core capabilities, without which the best 
        and brightest will not enter the defense industry.''

    In 2008, the Center for Strategic and International Studies (CSIS) 
conducted a study that involved reviewing studies on export controls 
and the U.S. space industrial base, examining the results of a survey 
on the U.S. space industrial base that was performed by the Department 
of Commerce and analyzed by the Air Force Research Laboratory, and 
assessing the health of the space industrial base and whether export 
controls are having any adverse impacts, especially on lower-tier 
contractors. The report, Briefing of the Working Group on the Health of 
the U.S. Space Industrial Base and the Impact of Export Controls, found 
that:

        1.  ``Overall financial health of the top tier manufacturers in 
        the space industrial base is ``good'', but there are areas of 
        concern within the broader health of the industry''

        2.  ``As earlier studies have documented, the ability of the 
        government and industry to meet program execution commitments 
        remains inadequate'', and

        3.  ``The space industrial base is largely dependent on U.S. 
        defense/national security budgets''.

<bullet>  Critical Space Industrial Base Space Capabilities

    The Aerospace Commission comments on the need to ``maintain and 
enhance critical national infrastructure.'' As stated in the 
Commission's report, ``The federal government must assume 
responsibility for sustaining, modernizing, and providing critical, 
often high-risk, defense related technologies and infrastructure when 
it is in the nation's interest. This includes critical design 
capabilities, solid rocket boosters, radiation hardening, space launch 
facilities, critical research, development, test and evaluation (RDT&E) 
infrastructure, Global Positioning System (GPS), and frequency 
spectrum.''
    The report of the Review of U.S. Human Spaceflight Plans Committee 
also notes the importance of the industrial base and workforce for 
solid-rocket motors: ``Special attention needs to be devoted to 
assuring the vitality of those portions of the workforce that represent 
critical and perishable skills that are unique to the space program. 
One example is the design and manufacturing of very large, solid-
propellant motors.''
    The production of solid rocket motors has been a critical element 
of the space industrial base that supports the Space Shuttle program; 
however the Department of Defense has counted on that industrial base 
for its programs, such as the Navy's Trident D-5 missile program. One 
issue for the hearing is what are the full ramifications of decisions 
on human spaceflight for associated defense and national security 
programs that use the same industrial base? In addition, what are the 
implications for other Federal government users of that industrial base 
if NASA's human spaceflight plans no longer require the capabilities 
that have established elements of the space industrial base, and would 
other agencies be willing to carry that industrial base to support 
their programs?

<bullet>  Health of Lower-Tier Suppliers

    According to the CSIS report, the space industry over the last 
decade has been fraught with ``high volatility, high risk, market 
bubbles and financial losses''. The industry is recovering from that 
period, especially in the national security space sector, and although 
the space manufacturers are experiencing improved financial health, 
``margins remain thin and below the average for the general aerospace/
defense industry particularly the 2nd and 3rd tier'', according to the 
report. The 2nd and 3rd tier of the industry is also weak in depth. In 
some areas there might be ``only one domestic supplier'' or a 
``financially weak supplier''. The health of these lower-tiers is 
important to monitor, because the 2nd and 3rd tier of the industry are 
an important source of innovation.

<bullet>  Dependence of Space Industrial Base on Defense

    Overall, the CSIS report states that the dependence of the U.S. 
space industrial base on the U.S. defense/national security budgets 
``implies that the national security community `owns' the U.S. space 
industrial base, and must either provide for the health of the industry 
(`arsenal strategy') or encourage it (and enable it) to participate 
more in the global market place to broaden its economic base''.

<bullet>  Export Controls

    The CSIS report discusses several factors that affect the health of 
the U.S. space industrial base, including the rapid pace of growing 
space capabilities in foreign nations and the ability of foreign 
companies to compete in the global marketplace, a situation that U.S. 
export control policies may have encouraged. The report found that 
``Export controls are adversely affecting U.S. companies' ability to 
compete for foreign space business--particularly the 2nd and 3rd 
tier.''
    A January 2009 Special Report of the Aerospace Industries 
Association, The Role of Space in Addressing America's National 
Priorities, echoes the CSIS findings, especially the influence of 
export control policies on the industrial base. In addition, the report 
states that: ``Many U.S. companies, particularly second- and third-tier 
suppliers, increasingly rely exclusively on sales to the U.S. 
government or are considering exiting the space business altogether. 
Absent a healthy, cutting edge, U.S. space industrial base, our 
government could be forced to rely on foreign suppliers for key 
components.''

<bullet>  Coordination for Space Industrial Base

    The importance of the industrial base for the nation's future in 
space was also raised in the NRC's 2009 report, America's Future in 
Space: Aligning the Civil Space Program With National Needs. The report 
recommends that the President task senior executive-branch officials to 
coordinate space-related budgetary, policy, infrastructure and other 
issues across Federal agencies, including ``responsibility and 
accountability for stimulating, nurturing, and sustaining a robust 
space industrial base, including the commercial space industry.''

<bullet>  Human Spaceflight

    The report of the Review of U.S. Human Spaceflight Plans Committee 
discussed potential alternatives for a human spaceflight architecture 
to transport humans to low-Earth orbit and to destinations beyond low-
Earth orbit. In considering those potential alternatives, especially 
for a heavy-lift launch vehicle that would be needed for human 
exploration beyond low-Earth orbit, the Committee discussed some of the 
potential implications for the industrial base. A sample of those 
comments include:

        <bullet>  ``If a decision is made to human-rate the EELV 
        systems and NASA were to abandon the Ares I system but retain 
        the Ares V heavy-launch capability, the solid rocket motor 
        industrial base would need to be sustained until the Ares V 
        generated demand. The DoD may have to consider support to the 
        solid rocket motor industrial base in recognition of both civil 
        and NSS needs. If both the Ares I and Ares V programs were 
        abandoned, a detailed civil and military analysis would need to 
        be accomplished to ascertain the interdependence of technical 
        and production capabilities between large solid rocket motors 
        that are needed to support the nation's strategic strike 
        arsenals and the large segmented solid-rocket motors supporting 
        human-rated systems for NASA.''

        <bullet>  ``The Committee considered as an issue the 
        commonality with the national space industrial base. The Ares V 
        uses engines from the RS-68 family, with commonality in the 
        industrial base with those used on the EELVs by National 
        Security Space. Both the Ares V and the more-directly Shuttle-
        derived vehicle have commonality in the solid-rocket motors 
        with vehicles used in National Security Space.''

        <bullet>  ``The Committee viewed the decision between the Ares 
        V family and the Shuttle-derived family as one driven by cost 
        and capability. The development cost of the more Shuttle-
        derived system would be lower, but it would be less capable 
        than the Ares V family and have higher recurring costs. There 
        are potential workforce and skill advantages associated with 
        the use of the more-directly Shuttle-derived system, but the 
        long gap between when the Shuttle is retired in 2011, or even 
        2015, and when the Shuttle-derived heavy-lift launcher becomes 
        available in the early to mid-2020s would diminish the 
        potential value of the workforce continuity associated with 
        Shuttle derivatives.''
    Chairman Gordon. Indulge us for about three or four 
minutes. We have some business to take care of.
    On November the 19th, Mr. John Garamendi from California 
was appointed to fill the final vacancy on this Committee. Mr. 
Garamendi was most recently the Lieutenant Governor of 
California and I am sure will be a great contributor to the 
Committee as we move forward. So we all want to welcome him.
    This past week, Mr. Lipinski and Ms. Edwards graciously 
resigned their seats on the Technology and Innovation and 
Energy and Environment Subcommittees to make room for Mr. 
Garamendi. Members should have an updated subcommittee roster 
in front of them reflecting the addition of Mr. Garamendi to 
those subcommittees.
    And at this time, I would ask unanimous consent that the 
Committee approve the rosters. All in favor say aye. Opposed?
    Before we conclude this, let me just give you a little 
overview of John Garamendi. He has really 34 years' public 
service before he comes to us in the House of Representatives. 
He started off not like me but like many of you in the state 
legislature. In 1974, he was elected to the Tennessee General 
Assembly, and in 1976, he was elected to the State Senate, 
later becoming the Senate Majority Leader and while there, 
among other things, he chaired the Joint Committee on Science 
Technology. And Ralph, I am afraid you and I are the only 
ones--this is sort of scary--but that person with the sweater 
on back there, Mr. George Brown, we are the only ones that 
remember him I am afraid, that are still members.
    Mr. Hall. I remember Tiger T.
    Chairman Gordon. Well, you remember Herbert Hoover, too. So 
interestingly, John served with George Brown in the California 
State Legislature on their Science and Technology Committee and 
worked together in a lot of areas. Later John was the State 
Insurance Commissioner from 1991 to 1995, and then in 1995, 
President Clinton appointed him to be the Undersecretary of 
Interior where he served in 1998. Then he went back to 
California, was reelected the Insurance Commissioner and most 
recently was Lieutenant Governor. As you can see, he has had a 
hard time holding onto a job, and we hope we will have him here 
a little bit longer.
    But interestingly, he is not the only public servant in 
their family. He and his wife married and then went into the 
Peace Corps, and Mrs. Garamendi, for eight years, was in the 
Clinton Administration as the Assistant Director of the U.S. 
Peace Corps, and she continues her public service as the Deputy 
Secretary of California, Business, Transportation and Housing 
Agency, and is now the Assistant Manager at the California 
Exposition and State Fair. And as most all of us here know that 
serving in Congress is a team sport and that John, we are glad 
that you have a good teammate with you.
    And so with that, we will now begin the hearing, and the 
Chair will yield to our very able Chair of the Aviation and 
Space Subcommittee. And let me thank you, Gabrielle, and your 
staff for really the good work that you have been doing 
reviewing NASA in so many ways here. So I will yield to you for 
an opening statement.
    Ms. Giffords. Thank you, Mr. Chairman, and to members of 
the Committee. First of all, I would like to----
    Chairman Gordon. Gabrielle, I am sorry, if you don't mind. 
John, would you like to say anything before we yield to 
Gabrielle?
    Mr. Garamendi. Yes. Thank you for the privilege of serving 
on the Committee, and I look forward to working with all of the 
members of this Committee on the issues that are terribly 
important to this entire Nation, and in fact, the entire earth 
on which we live. Thank you for the privilege.
    Chairman Gordon. Gabrielle, I yield again.
    Ms. Giffords. Thank you, Mr. Chairman. And again, I would 
like to welcome our panelists for being here today. Thank you 
so much. I know that we have had 69 hearings so far this year. 
This is the last of our Subcommittee, and it is really a 
testament to the hard work of our staff for being able to make 
sure that we are able to provide such quality information to 
the United States Congress and to the American people.
    This hearing is the latest in a series that the Committee 
and the Space and Aeronautics Subcommittee have convened over 
the past several months on the critical factors that both the 
Administration and the Congress will need to consider when we 
make our decisions on the future direction and funding for NASA 
and in particular for NASA's human space flight and exploration 
activities.
    We decided to hold those hearings, including last week's 
hearing on human space flight safety, because it is so 
important for the White House and for Congress to understand 
truly what is at stake. I personally believe that a great deal 
is at stake, not just in the near term, but certainly for 
decades to come. And I believe that we need to keep the long-
term perspective front and center when we look at the potential 
impact on the workforce and the space industrial base on 
pending decisions for NASA's future. Because it is not just a 
question of jobs, although each and every one of us who serves 
in the Congress and are responsive to our constituents, know 
that jobs are vitally important, but it is truly the quality of 
jobs that we need to be paying attention to as well.
    As we will hear today, aerospace jobs are high-paying, they 
are high-quality jobs, jobs that will enable us to compete and 
to lead in the 21st century, using those skills that we know 
have been so critical and vital to building the robust economy 
that has produced the Nation as a true international leader. 
These are jobs that we would like to have more of, and they are 
certainly the kind of jobs that we don't want to see go away, 
and this is already happening across the country and I think we 
will hear that from our witnesses today.
    Finally, these are the kinds of jobs that can excite and 
inspire our young people to pursue careers in science and 
engineering, something that this Nation needs to have happen. 
Yet if those jobs go away, even for awhile, it can be very, 
very difficult to get back these jobs. It is really the health 
of the workforce and of the space industrial base which is so 
important.
    So let me just make sure all members know that contracts 
with the commercial sector account for more than 80 percent of 
NASA's budget. Those contracts encompass work done by large 
established aerospace firms, and we are going to hear from some 
of those folks today, but also work done by emerging companies 
that offer the promise of new capabilities to meet the agency's 
needs and products and services provided to NASA by non-
aerospace companies both large and small. Given that, it is 
clear that support for NASA is also support for this commercial 
sector and for the jobs that the sector creates and the 
innovations that make it possible.
    The President and this Congress thus have serious decisions 
to make in the coming weeks and the coming months. We need to 
decide whether we as a Nation are finally going to provide the 
resources NASA needs to carry out the important missions the 
Nation has given it or not. We need to decide whether we are 
going to maintain our commitment to a robust program of 
exploration involving humans and robots to use the words of the 
fiscal year 2010 NASA budget request, a program that successive 
Congresses have authorized and funded or not.
    And if the President would recommend some manner of course 
change, we collectively would need to figure out how to make 
any such change in a way that protects the American taxpayers' 
dollars, preserves crew safety and maintains America's position 
as the world leader in space.
    Make no mistake about it. The decisions we collectively 
make about the future of our space program will have a lasting 
impact on our workforce, our industrial base, and our standing 
in the world.
    Several of our witnesses today are going to discuss the 
investments in our space program, or conversely, cutbacks in 
our space investments and the ripple effect that it will have 
on both large companies and small companies as well.
    Mr. Chairman, I also serve on the Armed Services Committee 
where we have healthy discussions about what these workforce 
impacts will mean to the defense of our Nation, the protection 
of our country and of course, to our industrial base as well.
    Just in closing, you know, oftentimes it is a little bit 
cliche I guess. We look at the quote behind you, the Proverb, 
``Where there is no vision, the people perish.'' This is 
profound, and it is something that we as Members of Congress 
know is very important but also for the President of the United 
States to have that clear vision of the future.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Ms. Giffords follows:]

          Prepared Statement of Chairwoman Gabrielle Giffords

    Thank you for yielding time to me, Mr. Chairman. I would like to 
start by welcoming our witnesses to this morning's hearing. This 
hearing is the latest in a series that the Committee and the Space and 
Aeronautics Subcommittee have convened over the past several months on 
the critical factors that the Administration and Congress will need to 
consider when we make our decisions on the future direction and funding 
for NASA, and in particular for NASA's human space flight and 
exploration activities.
    We decided to hold those hearings, including last week's hearing on 
human space flight safety, because it is important for Congress--and 
the White House--to understand what is at stake. I personally believe 
that a great deal is at stake--not just in the near-term, but for 
decades to come. And I believe that we need to keep that long-term 
perspective front and center when we look at the potential impact on 
the workforce and the space industrial base of pending decisions on 
NASA's future. Because it's not just a question of the number of jobs, 
although our witnesses will testify that tens of thousands of jobs will 
be impacted by those decisions, it's also the quality of the jobs that 
should be a significant consideration.
    As we will hear today, aerospace jobs are high-paying, high-skilled 
jobs--jobs that will enable us to compete . . . and lead . . . in the 
21st century, not just in space but back here on Earth too. They are 
the jobs that we would like to have more of, and they are certainly the 
kind of jobs that we don't want to see go away, as is already happening 
across the country. Finally, they are the jobs that can excite and 
inspire our young people to pursue careers in science and engineering, 
something that this nation needs to have happen. Yet if those jobs go 
away, even for awhile, it can be very difficult to get the best of 
those young people back. So the health of the workforce and of the 
space industrial base is important, because the commercial sector is 
critical to the success of NASA's missions.
    Contracts with the commercial sector account for more than 80 
percent of NASA's budget. Those contracts encompass work done by large 
established aerospace firms, work done by emerging companies that offer 
the promise of new capabilities to meet the agency's needs, and 
products and services provided to NASA by non-aerospace companies both 
large and small. Given that, it is clear that support for NASA is also 
support for the commercial sector and for the jobs that sector creates 
and the innovations that it makes possible.
    The president and this Congress thus have serious decisions to make 
in the coming weeks and months. We need to decide whether we as a 
nation are finally going to provide the resources NASA needs to carry 
out the important missions the nation has given it . . . or not. We 
need to decide whether we are going to maintain our commitment to a 
``robust program of exploration involving humans and robots'' to use 
the words of the FY 2010 NASA budget request--a program that successive 
Congresses have authorized and funded . . . or not.
    And if the president would recommend some manner of course change, 
we collectively would need to figure out how to make any such change in 
way that protects the American taxpayers' money, preserves crew safety 
and maintains America's position as the world leader in space.
    Make no mistake about it. The decisions we collectively make about 
the future of our space program will have a lasting impact on our 
workforce, our industrial base, and our standing in the world. As a 
result, I want our witnesses to give us their views on what we need to 
consider when making those decisions so that the outcome will inspire 
our best and brightest to pursue careers in aerospace--careers that 
will be vital to our future competitiveness, national security, and 
quality of life. And I hope that they will also share their views on 
which outcome is going to best help maintain and strengthen critical 
skills and capabilities this nation will need if it is to remain a 
leader in space activities. I ask because I worry that if we make the 
wrong decisions and waver in our commitment, we will not be keeping 
faith with that generation of young people we are seeking to inspire.
    As today's hearing will make clear, the decisions we will be making 
will also have a profound impact on the future health of our space 
industrial base. Several of our witnesses will discuss the ways in 
which investments in our space program--or conversely, cutbacks in our 
space investments--have a ripple effect on the health of an array of 
businesses, both large and small, that are scattered across the nation. 
Those impacts extend beyond the business community focused on civil 
space to include impacts on the continued viability of suppliers of 
capabilities critical to our national security.
    As someone who also serves on the Armed Services Committee, I am 
keenly sensitive to the need not to take actions with our civil space 
program that could have an adverse impact on the industrial base that 
also supports our national security.
    I thus would like our witnesses to give us their views on the 
weight we should give to space industrial base concerns as we decide 
whether to support and fund a meaningful exploration program at NASA or 
not. You know, it's become almost a cliche to quote the saying carved 
on the wall behind us: ``Where there is no vision, the people perish.'' 
However, we quote it because it contains a profound truth. Thus, as the 
president and Congress consider NASA's future, we need to see the 
potential impacts of our decisions as clearly as possible.
    This hearing and the ones that have preceded it are all aimed at 
giving this Congress--and hopefully the Administration too--the clarity 
of vision that we will need to make informed choices about the future 
of America's space program and its human space flight activities. Each 
of you who are testifying here today has an important role to play in 
that effort, and I look forward to your testimony.
    With that, I yield back the balance of my time.

    Chairman Gordon. Thank you, Ms. Giffords. You know, I think 
just like Humpty Dumpty, if we lost this NASA workforce, it 
would be very difficult, if not impossible, to put back 
together. They have unique skills, unique institutional 
knowledge and so I compliment you on having this very important 
hearing.
    I now recognize Mr. Hall for an opening statement.
    Mr. Hall. Mr. Chairman, in the interest of time, I will 
waive my opening statement. If I run across one my group has 
prepared for me, I will send it to you. Thanks.
    Chairman Gordon. Thank you, Mr. Hall. Your brevity is 
always appreciated.
    If there are other members that would wish to make opening 
statements, your statements will be added to the record.
    And at this time, I would like to yield the gavel to our 
gentlelady from Arizona to conduct her hearing.
    Excuse me, Mr. Olson. If you have an opening statement, we 
would welcome that. Certainly being in the heart of the NASA 
workforce, I am sure that again you have unique knowledge 
there.
    Mr. Olson. Well, thank you, Mr. Chairman. I have a brief 
opening statement, and I appreciate your recognition, and thank 
you for calling this morning's hearing.
    The decisions we make on the future direction and funding 
of NASA is a topic of tremendous importance to our Nation. The 
state of the economy and jobs have been at the forefront of 
this Congress since we convened in January. Attempts to stem 
the tide of rising double-digit unemployment have not worked, 
and against this backdrop, we are facing decisions about NASA 
which will have a profound affect not only on jobs but also on 
the critical knowledge, skills and production capabilities 
needed to maintain our aerospace and defense capabilities into 
the 21st century. This sector of our economy employs over 
260,000 men and women and accounts for about 60 percent of our 
total exports.
    I would like to thank our witnesses for appearing here 
today. I realize that each of you has spent a considerable time 
and effort preparing for this hearing, and I look forward to 
hearing from you so that our Subcommittee can have the value of 
your expertise.
    Today we focus on the impact of NASA's funding levels on 
the current workforce which I am particularly interested in but 
also on the enormous scope of the challenge facing the 
aerospace industry as a whole. There are many issues: A 
workforce approaching retirement without the opportunity to 
teach the next generation of scientists, engineers, technicians 
and program managers; a highly skilled contractor force at risk 
of losing their jobs as a result of the human spaceflight gap; 
number three, decreased opportunities for future engineers and 
scientists which will reduce interest in the critical STEM 
education fields. In a perverse way, that could only come from 
Washington.
    We are concerned about a shortage of engineers and 
scientists. We are concerned about attracting young, high-
quality students to the aerospace field. We are concerned about 
America losing important strategic manufacturing capabilities, 
and yet, we are pursuing policies that in many ways may be 
exacerbating these very problems.
    And the debate about job creation, the intent was to create 
high-quality jobs that paid good wages and reward important 
skills. Those are the very jobs that are the norm in the 
aerospace industry.
    The automotive industry has been decimated. In last week's 
Aviation Week included an article about how the automotive 
industry is looking toward aerospace for their displaced 
manufacturing technical workforce. We cannot, cannot, let a 
similar fate befall our aerospace industries, the industries we 
depend on for our national defense are simply too important to 
lose.
    The decisions we are making in Washington have effects far 
beyond the obvious. I have stated repeatedly that we must 
continue to stay the course with the Constellation program and 
not just because of the significant job loss that would follow 
were we to cancel it. Stopping and starting a major program is 
not how you develop a technical workforce, attract workers, 
inspire engineers or stabilize a local or national economy.
    Companies and communities are watching us, but so, too, are 
impressionable young students who may go into science and 
engineering fields. And if I may digress for just a minute, I 
would like to tell one story from the campaign trail, knocking 
on doors in the Clear Lake area where I grew up.
    I knocked on the door, no one answered, left my literature, 
moved down the street, got a good two to three blocks down the 
street and a young man chased me down--it was pretty early in 
the morning--to talk. He is not very presentable, looks like he 
was in some boxer shorts, a robe, some flip-flops, but he was a 
young man who worked at Johnson Space Center and very concerned 
about the future of human space flight. And what I remember 
about him is, you know, this young engineer, he was actually 
taking care of his young daughter, very typical of the people 
we want to attract to the aerospace industry as employees. This 
young man had grown up wanting to be part of the next effort to 
put human beings back on the moon. He was inspired by what the 
aerospace industry, what NASA had done in the past. We can't 
forget that. If we aren't willing to commit to aerospace, why 
should he or why should someone like him?
    I yield back my time, Madam Chairwoman.
    [The prepared statement of Mr. Olson follows:]

            Prepared Statement of Representative Pete Olson

    Madam Chairwoman, thank you for calling this morning's hearing. The 
decisions we make on the future direction and funding of NASA is a 
topic of tremendous importance to our nation. The state of the economy 
and jobs have been at the forefront of this Congress since we convened 
in January. Attempts to stem the tide of rising double digit 
unemployment have not worked. Against this backdrop of rising 
unemployment, we are facing decisions about NASA which will have a 
profound effect on not only jobs, but also on the critical knowledge, 
skills, and production capacities needed to maintain our Aerospace and 
Defense capabilities and compete in the 21st century. This sector of 
our economy employs over 262,000 men and women and accounts for about 
60 percent of our total exports.
    I'd like to thank our witnesses for their appearance today. I 
realize that each of you has spent considerable time and effort 
preparing for this hearing, and I look forward to hearing from you so 
that our subcommittee can benefit from your expertise.
    Today we will focus on the impact of NASA's funding levels on the 
current workforce, which I am particularly interested in, but also on 
the enormous scope of the challenge facing the aerospace industry as a 
whole. There are many issues including: 1) a workforce approaching 
retirement without the opportunity to teach the next generational of 
scientists, engineers, technicians and program manager, the valuable 
lessons learned through years of experience, 2) a highly skilled 
contractor workforce at risk of losing their jobs as a result of the 
human space flight gap, 3) decreased opportunities for future engineers 
and scientists which by definition can and will reduce interest in the 
critical STEM education fields.
    In a perverse way that could only come from Washington, we are 
concerned about a shortage of engineers and scientists. We are 
concerned about America losing important strategic manufacturing 
capabilities. We are concerned about attracting and retaining young, 
high quality students to the Aerospace field. Yet we are pursuing 
policies that in many ways may be exacerbating these very problems. In 
the debate about job creation, the intent was to create high quality 
jobs that pay good wages and that reward important skills. Those are 
the very jobs that are the norm in the aerospace industry. The 
automotive industry has been decimated. Last week's Aviation Week 
included an article about how the automotive industry is looking toward 
aerospace for their displaced manufacturing and technical workforce. We 
cannot let a similar fate befall our aerospace industries. The 
industries we depend on for our national defense are simply too 
important to lose.
    The decisions we are making in Washington have affects far beyond 
the obvious. I have stated repeatedly that we must continue to stay the 
course with the Constellation program, and not just because of the 
significant job loss that would follow were we to cancel it. Stopping 
and starting a major program is not how you develop a technical 
workforce, attract workers, inspire future engineers, or stabilize a 
local and national economy.
    Companies and communities are watching us, but so too are 
impressionable students who may go into science and engineering fields. 
If we aren't willing to commit to aerospace, why should they?
    Thank you, Madam Chairwoman. I yield back by time.

    Ms. Giffords. [Presiding] Thank you, Mr. Olson.
    We have a distinguished panel of witnesses appearing before 
us today, and I would like to introduce them at this time.
    First up we have Mr. David Thompson who is President of the 
American Institute of Aeronautics and Astronautics. He will 
discuss key trends and issues in the aerospace workforce and 
the industrial base from the perspective of a major aerospace 
professional society, and he is also President and CEO of 
Orbital. Welcome, Mr. Thompson.
    I am very pleased that today we have with us Ms. Marion 
Blakey who is President and Chief Executive Officer of the 
Aerospace Industries Association. She will provide the 
Subcommittee information on the industry perspective on key 
issues for the U.S. aerospace workforce and the industrial 
base, and we are very glad to have you this morning.
    Mr. A. Thomas Young, who is Executive Vice President of 
Lockheed Martin Corporation. Mr. Young is retired now, but he 
will provide perspective based on his extensive industry and 
government experience in leading major space projects. Welcome, 
Mr. Young.
    And finally, Mr. Richard Aubrecht who is Vice Chairman, 
Vice President of Strategy and Technology at Moog, 
Incorporated, and he will provide the Subcommittee his 
perspective of an aerospace supplier company.
    Welcome all. As our witnesses should know, you will each 
have five minutes for your spoken testimony. Your written 
testimony will be included in the record for the hearing, and 
when you have completed your spoken testimony, we will begin 
with questions. And each member will have five minutes to 
answer and get responses to their questions, and we hope to 
have a healthy discussion today.
    So I would like to begin the discussion with Mr. Thompson.

 STATEMENT OF DAVID THOMPSON, PRESIDENT, AMERICAN INSTITUTE OF 
                  AERONAUTICS AND ASTRONAUTICS

    Mr. Thompson. Thank you. Chairwoman Giffords, Chairman 
Gordon, Ranking Member Hall, and distinguished members of the 
Committee and Subcommittee, I would like to thank you for the 
opportunity to address several topics of great importance to 
the U.S. aerospace sector and to the Nation as a whole.
    As President of the American Institute of Aeronautics and 
Astronautics for the 2009-2010 year, I am proud to represent a 
constituency of more than 36,000 aerospace, engineers, 
scientists and other professionals as well as thousands of 
aerospace students from all 50 states and many overseas 
locations. Indeed, for nearly 80 years, AIAA has been the 
principal professional society for aerospace engineers and 
scientists in America and around the world.
    On behalf of AIAA, I would like to express our appreciation 
to this Committee to its leadership and space and aeronautics 
policy and for its interest in the aerospace workforce and 
industrial base.
    I am pleased to respond to the three questions that you 
have asked relating to the effects of NASA's direction and 
funding on the country's aerospace sector.
    Your first question asked about most significant concerns 
regarding the aerospace workforce and industrial base. AIAA's 
response to this question is as follows.
    Aerospace systems are of considerable importance to U.S. 
national security, economic prosperity, technological vitality, 
and global leadership. Aeronautical and space systems protect 
our citizens, armed forces, and allies abroad. They connect the 
fartherest corners of the world with safe and efficient air 
transportation and satellite communications, and they mentor 
the earth, explore the solar system and study the wider 
universe.
    The U.S. aerospace sector also contributes in major ways to 
America's economic output and high technology employment. 
Aerospace research and development and manufacturing companies 
generated approximately $250 billion in sales in 2008 or nearly 
1.75 percent of our country's Gross National Product. They 
currently employ about 650,000 people throughout our country. 
U.S. Government agencies and departments engaged in aerospace 
research and operations add another 125,000 employees to this 
sector's workforce, bringing the total to over 775,000 people. 
Included in this number are more than 200,000 engineers and 
scientists, one of the largest concentrations of technical 
brain power on earth.
    However, the U.S. aerospace workforce is now facing the 
most serious demographic challenge in its 100-year history. 
Simply put, today, many more older, experienced professionals 
are retiring from or otherwise leaving our industrial and 
governmental aerospace workforce than early career 
professionals are entering it. This imbalance is expected to 
become even more severe over the next five years as the final 
members of the Apollo-era generation of engineers and 
scientists complete 40- or 45-year careers and transition to 
well-deserved retirements. In fact, around 50 percent of the 
current aerospace workforce will be eligible for retirement 
within just the next five years.
    Meanwhile, the supply of younger aerospace engineers and 
scientists entering the industry is woefully insufficient to 
replace the mounting wave of retirements and other departures 
that we see in the near future. In part, this is the result of 
broader technical career trends as engineering and science 
graduates from our country's universities continue, a multi-
decade decline even as the demand for their knowledge and 
skills in aerospace and other industries keeps increasing.
    Today only about 15 percent of U.S. students earn their 
first college degree in engineering or science, well behind the 
40 or 50 percent levels seen in many European and Asian 
countries. Due to the dual-use nature of aerospace technology 
and the limited supply of visas available to highly qualified, 
non-U.S. citizens, our industry's ability to hire the best and 
brightest graduates from overseas is also severely constrained. 
As a result, unless effective action is taken to reverse 
current trends, the U.S. aerospace sector is expected to 
experience a dramatic decrease in its technical workforce over 
the next decade.
    Your second question concerns the implications of a cutback 
in human spaceflight programs. AIAA's view on this is as 
follows.
    While U.S. human spaceflight programs directly employ 
somewhat less than ten percent of our country's aerospace 
workers, its influence on attracting and motivating tomorrow's 
aerospace professionals is much greater than its immediate 
employment contribution. For more than 50 years, the excitement 
and challenge of human spaceflight have been tremendously 
important factors in the decisions of generations of young 
people to prepare for and to pursue careers in the aerospace 
sector. This remains true today as indicated by hundreds of 
testimonies AIAA members have recorded over the past two years, 
a few of which I will show in brief video interviews at the end 
of my statement.
    Further evidence of the catalytic role of human space 
missions is found in a recent study conducted earlier this year 
by MIT which found that 40 percent of current aerospace 
engineering undergraduates cited human space programs as the 
main reason they chose this field of study.
    Therefore, I think it can be predicted with high confidence 
that a major cutback in U.S. human space programs would be 
substantially detrimental to the future of the aerospace 
workforce. Such a cutback would put even greater stress on an 
already weakened strategic sector of our domestic, high-
technology workforce.
    Your final question centers on other issues that should be 
considered as decisions are made on funding and direction for 
NASA, particularly in the human spaceflight area.
    In conclusion, AIAA offers the following suggestions in 
this regard. Beyond the previously noted critical influence on 
the future supply of aerospace professionals, Administration 
and Congressional leaders should also consider the collateral 
damage to the space industrial base if human space programs 
were substantially curtailed. Due to low annual production 
rates and highly specialized product requirements, the domestic 
supply chain for space systems is relatively fragile. Many 
second- and third-tier suppliers in particular operate at 
marginal volumes today, so even a small reduction in their 
business could force some critical suppliers to exit this 
sector. Human space programs represent around 20 percent of the 
$47 billion in total U.S. space and missile system sales from 
2008. Accordingly, a major cutback in human space spending 
could have large and highly adverse ripple effects throughout 
commercial, defense and scientific space programs as well, 
potentially triggering a series of disruptive changes in the 
common industrial supply base that our entire space sector 
relies on.
    Thank you for the opportunity to address these important 
questions this morning. I look forward to your additional 
questions. And now I would like to let you hear from several of 
my fellow AIAA members on this topic.
    [Video]
    [The prepared statement of Mr. Thompson follows:]

                Prepared Statement of David W. Thompson

Chairman Gordon, Ranking Member Hall, and distinguished members of the 
Committee:
    I want to thank you for the opportunity to address a subject of 
great importance to the aerospace sector and to the nation as a whole. 
At a time when our country is intensely focused on economic recovery 
and employment growth, it is especially relevant to underscore that 
aerospace engineering and manufacturing enterprises in America directly 
employed about 650,000 people in 2008 and generated total industry 
sales of $240 billion, or almost 2% of our GDP last year. Aerospace 
jobs are relatively high paying, with average manufacturing wages in 
the sector being some 50 percent higher than in the average industry. 
In addition, the sector employs nearly 200,000 engineers and 
scientists, one of the largest concentrations of technical brainpower 
on Earth. Moreover, the aerospace sector produces state-of-the-art 
products that are in high demand around the world, generating a record 
trade surplus of approximately $60 billion on total exports of almost 
$100 billion last year. This placed the sector at the top of all U.S. 
export industries, including agriculture. Altogether, factoring in its 
ancillary industries and multiplier effects, our domestic aerospace 
sector today supports approximately five million American jobs.
    Behind all of these numbers, of course, are the actual men and 
women who work in the aerospace sector and whose creativity, expertise, 
and dedication propel it forward. As President of the American 
Institute of Aeronautics and Astronautics for the 2009-2010 year, I am 
proud to represent a constituency of more than 36,000 aerospace 
professionals and students who work in all 50 U.S. states. Indeed, for 
nearly 80 years, AIAA has been the principal professional society for 
aerospace engineers and scientists in America and around the world.
    In the short videos that accompanied my oral testimony, we heard 
professionals discuss what inspired and motivated them to join the 
aerospace workforce in the first place. Now I would like to explore in 
a more systematic fashion the factors that attract and retain members 
of the nation's aerospace workforce, while highlighting the critical 
importance of a credible, long-term U.S. government commitment to human 
space flight that ensures that our country continues to benefit from a 
vibrant aerospace sector. I will address in order the three questions 
that the Committee has posed to me on today's hearing topic.

1.  As the leader of a major aerospace professional society, what do 
you view as the most significant concerns and trends regarding the U.S. 
aerospace workforce--government and contractor--and industrial base?

    The aerospace sector is steadily moving towards the edge of a steep 
demographic cliff. Aerospace workers are the foundation of the 
industry's current success, yet unique workforce demographics present 
unprecedented challenges for its future. Up to half of the current 
aerospace workforce will be eligible for retirement within five years; 
nearly 15% are eligible to retire immediately. Furthermore, the U.S. 
aerospace workforce composition does not match national demographic 
averages. Compared to the total U.S. workforce, America's aerospace 
industry and related government agencies have a disproportionately 
large percentage of workers aged 40-55, and a disproportionately small 
percentage of workers younger than 40. Within the U.S. workforce as a 
whole, the number of employees over age 50 amounts to less than 17% of 
the total; meanwhile, in the aerospace sector, that bracket accounts 
for 58% of the total. While current economic conditions have 
temporarily delayed many older aerospace professionals from exiting the 
workforce, the demographic challenges remain stark. If talented young 
engineers and scientists are not recruited, retained, and developed to 
replace the generation that is near retirement, then the U.S. stands to 
lose the critical economic and national security benefits of the 
domestic aerospace industry.
    Moreover, enrollment rates in our country's college engineering 
programs have been dropping. The U.S. ranks well behind other countries 
in the percentage of students earning their first university degree in 
engineering or science. In many leading European and Asian countries, 
the percentage of undergraduates receiving their initial degree in 
engineering or science is between 40 and 50%. In the United States, the 
corresponding figure is 15%.
    At the advanced-degree level, the U.S. also is declining in the 
number of degrees earned by its citizens. The proportion of Ph.D. 
degrees earned by U.S. citizens is dropping as well: 34 percent of 
doctoral degrees in science and 56 percent of doctoral degrees in 
engineering in the United States are awarded to foreign-born students. 
To make matters worse, the U.S. ranks behind the European Union and 
China in Ph.D. degrees awarded in science and engineering. The European 
Union surpassed the U.S. nearly 20 years ago, and China will likely 
surpass us in 2010.
    In terms of maintaining and strengthening the industrial base, R&D 
expenditures keep the aerospace sector strong and help maintain U.S. 
leadership in this area. In the early 1990s, after implementation of 
the R&D tax credit legislation, private expenditures on R&D rose. Yet 
even with this incentive, U.S. industry R&D funding is lagging. Perhaps 
as a result, American companies are lagging in patents. In 2005, only 
four American companies ranked among the top 10 corporate recipients of 
patents granted by the United States Patent and Trademark Office. And 
to further add to this disconcerting R&D situation, federal research 
funding is lagging as well. While AIAA enthusiastically applauds the 
Committee's efforts to fully fund the America COMPETES Act and to 
increase R&D funding more generally, at least until recently the amount 
invested annually by the federal government in research in the physical 
sciences, mathematics, and engineering combined has continued its long-
term decline.

2.  How important is a commitment to a robust human spaceflight program 
to the preservation of the workforce, professional skills and 
capabilities, and the industrial base? If a decision were made to cut 
back or otherwise change direction in human spaceflight programs, what 
would be the implications for the workforce and industrial base?

    In terms of preserving and enhancing the specialized workforce that 
characterizes a vibrant aerospace sector able to contribute to both 
economic well-being and national security, a credible long-term 
commitment to human spaceflight on the part of the U.S. government is 
indispensable. As the Review of U.S. Human Space Flight Plans Committee 
(better known as the ``Augustine Commission'') recently noted, ``human 
exploration of space can engage the public in new ways, inspiring the 
next generation of scientists and engineers, and contributing to the 
development of the future workforce in science, technology, engineering 
and mathematics (STEM).'' Likewise, the Augustine Commission 
acknowledged the important role that space flight plays in promoting 
the nation's commercial interests and sustaining its aerospace 
industrial base.
    When federal commitment to human space programs wavers, the adverse 
impact on the stock of human capital and related economic output can be 
highly disruptive. Those thousands of individuals and dozens of 
communities that experienced the termination of the Apollo program in 
the early 1970s can attest to this, as well as those who have been or 
will be adversely affected by the winding down of the Space Shuttle 
program. One danger in such a context--apart from the impact on 
individuals--is that the levels of human capital needed to sustain a 
robust national human space program will drop below critical mass. 
Another is that young Americans deciding on a career path will eschew 
space-related fields, as nominally appealing as these might be, due to 
a justifiably heightened perception of career uncertainty. In that 
regard, a stable, long-term commitment to human space flight by the 
U.S. government is necessary to ensure that space technology retains 
its allure as a career choice for today's students.
    The concentration of aging R&D and manufacturing employees was 
significantly inspired by NASA's early Mercury, Gemini, and Apollo 
programs, and later was motivated and retained in part by the sustained 
effort behind the Space Shuttle and International Space Station 
programs. In other words, to attract individuals into joining and 
remaining part of the aerospace workforce, we need first to capture 
their imagination and later provide them with worthwhile, long-term 
projects to work on.

3.  What issues regarding the workforce and industrial base do Congress 
and the White House need to consider as decisions are made on the 
funding and future direction for NASA, particularly for human 
spaceflight and exploration?

    Space and missile systems sales accounted for about $47 billion--or 
around 20%--of the U.S. aerospace industry's $240 billion in total 
revenues in 2008. Domestic space and missile direct employment 
generated nearly 80,000 high-technology jobs last year, representing 
work by hundreds of companies in all 50 states. While human spaceflight 
programs like the Space Shuttle and International Space Station 
represented only about 25% of space and missile sales, and a 
corresponding fraction of direct employment, their influence on the 
supply of future aerospace professionals is much greater.
    By way of concluding my testimony, I commend for your consideration 
an illuminating result from the Survey of Aerospace Student Attitudes, 
a 2009 national study--led by Dr. Annalisa Weigel of MIT--of over 600 
undergraduates in aerospace engineering departments from 23 schools 
across the country. Fully 40 percent of current aerospace engineering 
students cited human spaceflight specifically as the area that first 
sparked their interest in an aerospace career. This data provides a 
powerful reason for continuing our nation's human space program and 
funding it at adequate levels for a sustained period. Clearly, human 
space flight plays a critical role in ensuring that our country's young 
people persist in cultivating their STEM-related talents in order to 
pursue a career option that inspires them. In turn, their dedication 
and achievements will make our country a stronger, better place in 
which to live in the 21st century.
    Thank you again for the opportunity to address you today.

    Ms. Giffords. Thank you, Mr. Thompson. I appreciate your 
testimony. Ms. Blakey, please.

 STATEMENT OF MARION C. BLAKEY, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, AEROSPACE INDUSTRIES ASSOCIATION

    Ms. Blakey. Good morning, Chairman Giffords, and I want to 
say thank you to you and to Ranking Member Hall and to all of 
those on the Committee for this opportunity. This really is an 
important opportunity to address the future direction and 
funding for NASA and what it will mean for the U.S. workforce, 
aerospace and our industrial base.
    Our members are deeply concerned about these issues, so I 
am delighted that you are taking a serious review. Your 
decisions regarding NASA's programs will undoubtedly affect our 
current and future workforce and the industrial base. According 
to NASA, there are about 45,000 work-year equivalent 
contractors. AIA further estimates that NASA indirectly 
supports 151,000 contractors. Under current plans for the 
Shuttle's retirement and the transition to the Constellation 
program, the current number of contractors will drop by over 
4,000 by the year 2013. The resulting impacts we believe have 
to be carefully considered.
    Aerospace talent lost to other industries may be 
unrecoverable. New workers take years to train. Moreover, if we 
lose certain facilities that manufacture high-tech 
technologies, it may take years and additional resources to 
bring them back.
    Another crucial relationship NASA has with the aerospace 
workforce is the agency's ability to attract and educate future 
workers. The state of education for our young people, I don't 
think I have to tell this Committee, is alarming. This is 
evidenced by poor preparation for science, technology, 
engineering and mathematics, known as the STEM fields; low 
graduation rates in those fields, especially when you compare 
it to other nations; and a lack of interest in STEM fields 
overall. The latest national test scores show that in math, 
fourth-graders are 62 percent below proficient, eighth-graders 
are 69 percent below proficient. In science, fourth-graders are 
68 percent below, and eighth-graders are 73 percent below 
proficient.
    I thought this was interesting. In a study done by 
Raytheon, most middle-school students said they would rather do 
one of the following than do their math homework. Now get this, 
clean their room, eat their vegetables, go to the dentist, or 
take out the garbage than do their math homework. It tells us 
something.
    By comparison, India and China respectively graduate 6 to 
10 times more engineering students each year. If this 
continues, the United States runs a real risk of losing its 
educated engineering edge over other nations.
    One of the reasons for the lack of interest in aerospace 
and defense could be the uncertainty surrounding funding for 
NASA programs. A commitment to a robust human spaceflight 
program we believe will help attract and retain such workers. A 
reduction of programs, consequently, would be highly 
detrimental, both for our aerospace community and for our 
national security.
    Just as the recent Wall Street crisis turned young people 
away from financial careers, a lack of job security in 
aerospace will dim the light of attraction.
    Young people seek out companies with exciting 
opportunities. For example, Lockheed-Martin was hiring for the 
Crew Exploration Vehicle, and they had 10 highly qualified 
resumes for each available job. Some of our other member 
companies are doing exciting work. SpaceX has gone into ISS 
commercial resupply service contracts, for example, and these 
kinds of contracts are going to be magnets for young people 
because they are inspiring.
    To help spur enthusiasm for the aerospace industry, AIA 
itself is innovating. One of our exciting endeavors is the Team 
America Rocketry Challenge, or TARC, for middle- and high-
school students. Participating in TARC is inspirational, and we 
have gathered more than a few stories about our young people 
who now work in aerospace as a result of their TARC experience.
    While AIA and NASA are vigorously engaged in the supply 
side of the equation, it is the demand side that has to be 
addressed by Congress to provide resources needed for important 
aerospace projects. These projects provide young people 
exciting programs on which to work. A robust and sustainable 
space exploration program is key to building the workforce. 
Maintaining our workforce depends on continuing stable and 
robust funding for our Nation's space programs. Space programs 
don't just come off the shelf. They take years to develop and 
build. Fluctuating budgets and delayed programs adversely 
affect the schedule, production and maintenance of a skilled 
workforce. Budget shortfalls deeply impact agencies like NASA 
that have been asked to take on many important projects 
simultaneously.
    Our space industrial base designs, develops, produces and 
supports our spacecraft, satellites, launch systems, support 
infrastructure. These systems are often produced in small or 
even single numbers. We need to keep the base healthy.
    Therefore, in closing I want to say that we ask Congress to 
remain mindful that interruptions or cancellations negatively 
impact large companies, and they can be catastrophic to small 
firms who often are the only entities with the unique abilities 
to produce small but critical components on which the larger 
infrastructure depends.
    The United States has enjoyed preeminence in aerospace in 
great part due to our space program. That leadership is now in 
danger. While Congress considers the future of NASA's funding 
and direction, we must continue to assure our continuing 
leadership in space exploration by investing in our young 
people and providing cutting-edge programs to attract them. I 
believe the vitality of our Nation as a whole depends on a 
healthy renewable workforce.
    Thank you very much.
    [The prepared statement of Ms. Blakey follows:]

                 Prepared Statement of Marion C. Blakey

    Good morning Chairman Gordon, Ranking Member Hall and members of 
the Committee. I am grateful for the opportunity to testify before you 
today on the importance of the future direction and funding for NASA 
and what that will mean for the U.S. aerospace workforce and industrial 
base.
    As the largest aerospace trade group in the United States, the 
Aerospace Industries Association (AIA) represents nearly 300 
manufacturing companies with over 631,000 high-wage, highly skilled 
aerospace employees across the three sectors: civil aviation, space 
systems and national defense. This includes the thousands of workers 
who make the satellites, space sensors, spacecraft, launch vehicles and 
ground support systems employed by NASA, DoD, NOAA, NRO and other 
civil, military and intelligence space efforts. Our member companies 
export 40 percent of their total output, and we routinely post the 
nation's largest manufacturing trade surplus, which was over $57 
billion in 2008. Aerospace indirectly supports 2 million middle class 
jobs and 30,000 suppliers from every state. The aerospace industry 
continues to look to the future, investing heavily in research and 
development and spending more than $100 billion since 1995.
    Our members are deeply concerned with the issues of workforce and 
the industrial base, so I am delighted that you are undertaking a 
serious review. In our most recent ``Member Needs Assessment,'' a lack 
of a trained technical workforce for the future was an extremely urgent 
industry issue for our membership.\1\ As part of our response, AIA 
produced the report, ``Launching the 21st Century American Aerospace 
Workforce,'' which documented the rising concerns over the future of 
our aerospace workforce, and detailed how our industry is addressing 
this issue, including recommendations on how to partner with government 
to improve our education system.
---------------------------------------------------------------------------
    \1\ 2008 AIA ``Member Needs Assessment'' Report.
---------------------------------------------------------------------------
    Last year, AIA also produced a seminal report entitled: ``The 
Unseen Cost: Industrial Base Consequences of Defense Strategy 
Choices.'' This report provided analysis on how certain defense 
decisions made by policymakers could impact the future of our 
industrial base from a national security perspective. Among our 
conclusions: Government decisions directly impact the ability of our 
industry to mobilize and these decisions could either weaken--or 
preserve--the capacity to do so rapidly. Thus, policymakers need to be 
keenly aware of the long-term impact that policy can have on our 
industrial base.
    Our nation's space endeavors are encountering this same challenge, 
which this hearing has been convened to examine today.
    Much of our industry's success can be attributed to the growth of 
our nation's space program and we are proud of NASA and industry's many 
achievements. American astronauts have been aboard the International 
Space Station continuously since 2000; our probes are en route to, or 
have reached, all the planets of the solar system and have explored the 
surfaces of the moon, Venus and Mars. Our telescopes are looking deep 
into the cosmos and satellites gaze upon the Earth, monitoring climate 
change. NASA has led these achievements in partnership with our 
industry.
    Now NASA is at a crossroads in deciding its future options for 
space exploration. The U.S. human space flight program is being debated 
by policymakers.
    While this is an issue for the Administration and Congress to 
deliberate, your decisions regarding NASA's programs will undoubtedly 
affect our current and future aerospace workforce and industrial base.

NASA and the Aerospace Workforce

Concerns over the Current Workforce and Industrial Base
    NASA's programs play a critical role when it comes to the aerospace 
workforce, which supports everything from its launch vehicles to 
satellites.
    According to NASA there are about 45,000 ``work year equivalent'' 
contractors. AIA further estimates that about 151,000 contractors are 
indirectly enabled by NASA.\2\ And according to NASA's latest workforce 
transition strategy there are 4,600 civil servant ``full-time 
equivalents'' working on the current programs of record, Shuttle and 
Constellation, and as many as 21,200 contractor ``work year 
equivalents'' in 2009.\3\
---------------------------------------------------------------------------
    \2\ 2008 AIA Facts & Figures.
    \3\ 2009 NASA Workforce Transition Strategy, 3rd edition.
---------------------------------------------------------------------------
    Under current plans for the Shuttle's retirement and the transition 
to the Constellation program, NASA projects a drop of almost 7,000 
contractor ``work year equivalents'' in the next two years and will 
recover only 1,200 the two years following. In other words, contractors 
will drop to 17,000 from 21,200 by 2013.\4\
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    Some regions will be hit hard by the transition. In Brevard County 
alone, Shuttle-related activity in Florida supports a workforce level 
of approximately 9,235 contract employees, (not including Federal 
workers). The total estimated shuttle-related annual payroll for this 
workforce is estimated at $600 million. Additionally, the shuttle 
program provides an estimated secondary economic contribution to the 
state, above salaries, of approximately $2 billion.\5\
---------------------------------------------------------------------------
    \5\ 2007 Brevard County Development Board.
---------------------------------------------------------------------------
    I bring these points up to highlight the impact NASA's human space 
flight program has on the lives of so many Americans. Brevard County is 
but one example. As Congress and policymakers deliberate over the 
future of NASA, we should reflect on the unique skills of these men and 
women and the regions that benefit directly from these programs.
    NASA is linked to the health of our industrial base. While the loss 
of a person's job is no small matter, especially in light of today's 
economic environment, we must also view these jobs as a national 
resource critical to our nation's technological capability and our 
national security.
    Aerospace talent lost to other industries may be unrecoverable; new 
workers may take years to train. Additionally, if we lose certain 
facilities that manufacture high-tech technologies, it may take years 
and additional resources to bring them back.
    Among the issues affecting the health of our industrial base that 
need to be considered by the White House and Congress are: How to 
maintain required skills for the duration of the shuttle's operation, 
how to maintain the workforce skills required for utilization of the 
ISS and how to transition the workforce to other current and new NASA 
programs.

Concerns over the Future Workforce
    Another crucial relationship NASA has with the aerospace workforce 
is its ability to attract and educate future workers. In fact, the 
demographics of our industry reflect an influx of young workers who 
entered our industry during exciting times in our space program.
    Developing the aerospace workforce of the future is a top issue for 
our industry. As the leader of the largest U.S. aerospace trade 
association, the most significant concerns and trends facing the U.S. 
aerospace workforce and industrial base at the present time include the 
impending retirements within the next decade. Today, 13 percent of our 
workforce is eligible to retire. By 2013, retirement eligibility for 
some job functions like R&D and program managers will be around 20 
percent.\6\
---------------------------------------------------------------------------
    \6\ 2009 Aviation Week Workforce Study.
---------------------------------------------------------------------------
    The state of education for our young people is also in peril, 
including poor preparation for Science, Technology, Engineering and 
Mathematics, also known as STEM fields; low graduation rates of 
students in those fields, especially when compared to other nations, 
and a lack of interest in STEM fields overall.
    Currently, the U.S. annually graduates just 74,000 engineers--
covering all fields in the discipline. Further, many of these students 
are foreign nationals who return home shortly after graduating--which 
lowers the number of new domestically employable engineers under 
60,000.\7\ By comparison, India and China respectively graduate six and 
ten times more engineering students each year.\8\ If this continues, 
the U.S. runs a real risk of losing its skilled engineering edge over 
other nations.
---------------------------------------------------------------------------
    \7\ 2008 American Society for Engineering Education, ``Engineering 
by the Numbers.''
    \8\ 2005 National Academies: Rising Above the Gathering Storm.
---------------------------------------------------------------------------
    The latest national test scores show that, in math, fourth graders 
are 62 percent below proficient and eighth graders are 69 percent below 
proficient. In science, fourth graders are 68 percent below proficient, 
while eighth graders are 73 percent below proficient.\9\
---------------------------------------------------------------------------
    \9\ 2007 National Assessment of Education Progress, U.S. Dept. of 
Ed.
---------------------------------------------------------------------------
    In a study done by Raytheon, most middle school students said they 
would rather do one of the following instead of their math homework: 
clean their room, eat their vegetables, go to the dentist or take out 
the garbage.
    This lack of interest seeps into interest in aerospace. For 
example, in a recent survey 60 percent of students majoring in STEM 
found the aerospace and defense industry an unattractive place to 
work.\10\
---------------------------------------------------------------------------
    \10\ 2009 Experience Industry Survey.
---------------------------------------------------------------------------
    One of the reasons for a lack of interest in aerospace and defense 
could be the uncertainty of NASA programs.\11\ commitment to a robust 
human spaceflight program will help attract students and hold workers.
---------------------------------------------------------------------------
    \11\ 2007 National Academies: Building a Better NASA Workforce.
---------------------------------------------------------------------------
    If a decision were made to reduce programs, the implications would 
be detrimental for our aerospace community and national security. Just 
as the recent Wall Street crisis turned young people away from 
financial careers, a lack of job security in aerospace will also hurt. 
Google has captured the magic to attract young people, while space, 
despite its history and potential, has lagged behind.
    Young people want to work for companies with exciting 
opportunities. For example, when Lockheed Martin was hiring for the 
Crew Exploration Vehicle they had 25 high-qualified resumes for each 
job. There are other companies are doing exciting work; for example, 
the commercial resupply to the International Space Station service 
contracts at SpaceX. Young people are inspired by the projects they get 
to work on.
    To help bring enthusiasm for the aerospace industry, AIA is being 
innovative. We run the Team America Rocketry Challenge, or TARC, for 
middle and high school students.
    TARC starts off with a regional competition, with students teamed 
in many cases with real rocket scientists, with qualifiers coming to 
the Washington, D.C. region for the national competition. Their 
challenge requires them to achieve a designated flight time and 
altitude all while safely returning a raw egg payload. The winning team 
goes on an all-expense paid trip to the international competition for 
the ``Trans-Atlantic Trophy.'' Last year our students were in Paris; a 
year before, in London. Plus, the top-scoring teams get invited by NASA 
to participate in a more demanding Student Launch Initiative.
    The excitement of participating in TARC is inspirational; we have 
heard more than a few stories about young people who now work in our 
industry because of their TARC experience.
    Since our first contest in 2003, one of the participants majored in 
aerospace engineering at the Naval Academy and is in the Navy in 
Florida flying helicopters. Another is a software engineer working on 
tanks, and a third is an aerospace engineer at an aviation company. And 
there are more success stories like these.
    In a survey of participants we found that TARC has a strong impact. 
For example: 83 percent became more interested in science and math as a 
result of TARC. Almost 70 percent became more interested in a STEM 
career as a result of TARC and 81 percent gained a better understanding 
of how math, science, and technology are used to solve problems in the 
real world.
    Many of AIA's members also have their own exciting STEM 
initiatives. Among these are Raytheon's ``Math Moves U'', Boeing's 
``Space Camp'', Northrop Grumman's ``Flights of Discovery'' and 
Lockheed Martin's ``Space Day.'' Our companies are literally investing 
millions of dollars to help inspire and attract the future aerospace 
workforce.
    AIA CEOs have also publicly announced that this is an issue for our 
industry and have committed to actions to address STEM, as described in 
AIA's ``Launch into Aerospace'' report.\12\ Such actions include: 
encouraging industry professionals to participate in mentoring and 
other volunteer activities; earmarking corporate grants for educational 
programs, and making government a partner in achieving the future 
technical workforce.
---------------------------------------------------------------------------
    \12\ 2008. ``Launch into Aerospace'' (Report)
---------------------------------------------------------------------------
    NASA's Office of Education is also very involved in STEM programs. 
In fact, the report I mentioned earlier: Launching the 21st Century 
American Aerospace Workforce, helped catalyze a joint industry-
education forum last week at NASA to discuss ways in which we can 
collaborate on this important issue.
    While AIA and NASA are vigorously engaged in the ``supply'' side of 
the equation, it's the ``demand'' side that also has to be worked on by 
Congress by providing the resources needed for important aerospace 
projects. These, in turn, provide young people with exciting programs 
to work on. A robust and sustainable space exploration program is key 
to building the workforce.

What can Congress do?

    Most importantly, maintaining our workforce depends on continuing 
stable and robust funding for our nation's space programs. By their 
very nature, space programs take several years to develop, test and 
build. Fluctuating budgets and delayed programs adversely affect the 
schedule, production and maintenance of a skilled workforce. Budget 
shortfalls also deeply impact agencies like NASA that have been asked 
to take on many important projects simultaneously.
    We need the Administration and Congressional leadership to conceive 
of and treat space as a ``singular enterprise,'' for which the 
decisions and strategies of the many agencies using space are 
coordinated at a White House level. This will better leverage and align 
our nation's space endeavors.
    Our space industrial base designs, develops, produces and supports 
our spacecraft, satellites, launch systems and supporting 
infrastructure. These systems are often produced in small, or even 
single, numbers. We need to keep this base healthy. We ask that 
Congress remains mindful that interruptions or cancellations negatively 
impact large companies and can be catastrophic to smaller firms--which 
often are the only entities with the unique abilities to produce small 
but critical components on which huge portions of our infrastructure 
and security depend.
    To maintain and capitalize on our leadership in space exploration, 
the federal government needs to ensure support for U.S. space 
exploration, provide for maximum utilization of the International Space 
Station and support NASA's science and aeronautics programs.
    Congress and the White House must also help instill an exciting 
direction for NASA's efforts that could include: a robust commercial 
space sector that provides cargo resupply to the International Space 
Station; exploration plans that go beyond low earth orbit; cutting-edge 
space and aeronautics designs; utilizing the national laboratory aboard 
the ISS for innovative research; U.S. leadership that promotes peaceful 
international cooperation in the pursuit of interests important to all 
of humanity, and earth observation programs to help study our planet 
and address important issues such as climate change.
    While we want to have a young workforce looking out to space we 
also need to ensure we have the right skill set looking back at the 
Earth. Observing the Earth's environment takes a global perspective--a 
perspective space-borne systems supply. How can we draw young people 
toward this special skill set? I would suggest that one approach would 
be for our agencies that use space imagery, such as NASA, NOAA, USGS, 
the EPA and others, to work with companies that make this imagery 
widely available to the public. Let's find ways to make these services 
both exciting and educational to draw our next generation into Earth 
sciences, geology and even cartography.

Supply and demand

    What can drive more engineering-minded students into the discipline 
of aerospace and aeronautics? I believe the opportunity to expand human 
spaceflight is the ideal type of project. An industry that can inspire 
them must remain vibrant and active.
    Over decades, our space programs and workforce have helped fuel our 
economy and advance our technologies.
    The United States has enjoyed preeminence in aerospace in great 
part due to our space program. That leadership is now in danger. The 
primary threat comes not from competitors' actions but from our own 
aging demographics and potential failure to act, both of which could be 
detrimental to our future aerospace and space programs.
    The generation of aerospace talent that won the Moon Race and the 
Cold War is reaching retirement age, while our Shuttle workforce is 
also aging. Unfortunately, America is not producing the volume and 
quality of engineers, designers and technicians needed to even begin 
replacing those who have served so well for so long.
    While Congress considers the future of NASA's funding and direction 
we must also continue as the world leader in space exploration by 
investing in our young people and providing cutting-edge programs for 
them work on. The vitality of our nation depends on a vital workforce.

    Ms. Giffords. Thank you, Ms. Blakey. Mr. Young?

STATEMENT OF A. THOMAS YOUNG, EXECUTIVE VICE PRESIDENT (RET.), 
                  LOCKHEED MARTIN CORPORATION

    Mr. Young. Chairwoman Giffords and Committee members, it is 
a privilege to present my views on the importance of our 
aerospace workforce to our country.
    Spaceflight in general and specifically human spaceflight 
is one of the more challenging endeavors of our time. It is 
truly the domain of rocket scientists. However, successful 
spaceflight requires more than an expertise in rocket science. 
Intellectual capability is clearly necessary. However, without 
significant experience and continuity of participation, the 
intellectual capability is far from sufficient.
    You might ask the question, why isn't intellectual 
expertise adequate and why is experience and continuity of 
participation so critical? Spaceflight is a one-strike-and-you-
are-out business. Hundreds, and for large projects, thousands 
of people can do everything correctly and one individual can 
make one mistake that can be mission catastrophic. Now, while 
eliminating human error is a necessary aspect of successful 
spaceflight, we must recognize that human error cannot be 
totally eliminated and that human mistakes will occur.
    There are not many endeavors that are characterized as one 
strike and you are out. For most activities a significant error 
can occur, it can be recognized and corrected without major 
consequences.
    Some correlate spaceflight and commercial aircraft 
operations. I do not want to minimize the challenges of 
commercial aviation. However, airplanes land safely every day 
with significant problems, an option that is not available in 
the world of spaceflight.
    Decades of experience and the dedication of extraordinary 
people who have made spaceflight their career has resulted in a 
way of doing business that greatly minimizes the probability of 
human error having a catastrophic result. It is the foundation 
of the extraordinary successes of the space program.
    A safety net is required to prevent human error from 
becoming catastrophic. Testing, independent validation and 
inspection are elements of the safety net. If we test as we fly 
and fly as we tested, we will find and eliminate most problems. 
For some areas, such as software, a full test program is 
unrealistic requiring the use of an independent validation 
approach. In some special circumstances, such as the 
installation of a solid rocket motor, only inspection can 
provide the necessary safety net. It is the disciplined 
implementation of the safety net without compromise that is a 
foundation of missile success. A slight deviation from this 
disciplined approach can be the most damaging of human errors.
    Unfortunately, failure reports are populated with 
deviations with names such as faster-better-cheaper, 
acquisition reform, we must take more risk, commercial 
practice, etc. Why do we accept these deviations which I will 
call miracle solutions? Many are the result of trying to put 10 
pounds into a 5-pound bag. Others are in response to the 
criticism that we are too conservative and need to take more 
risk, and others are associated with the premise that 
commercial practices are better. While there is some merit to 
each of these miracle solutions, and we should constantly be 
responsive to better ways of doing business, most have been 
toxic to a one strike and you are out enterprise.
    I would like to offer a few examples. Mars '98 consisted of 
an orbiter, lander and two probes, all failed. Mars '98 was a 
faster-better-cheaper program with an inadequate budget. Risks 
were accepted in the absence of sufficient funding resulting in 
catastrophic failure.
    A Titan IV with an important and expensive national 
security payload failed, because the failure was a human error 
in documenting a number, simply writing down the wrong number. 
This failure occurred in an era of acquisition reform where 
emphasis was shifted from mission success to cost. The cost 
focus resulted in eliminating aspects of the safety net that 
would have most likely caught the error and eliminated the 
failure.
    In the 1990s, during the epoch of faster-better-cheaper, 
acquisition reform, take more risk, commercial practices, et 
cetera, the Aerospace Corporation documented $11 billion worth 
of failures.
    My purpose has been to highlight the unforgiving nature of 
spaceflight, the need for uncompromising discipline and to 
recognize that it is a one-strike-and-you-are-out business. I 
have tried to emphasize that spaceflight is not a typical 
technological activity.
    Because of the special characteristics of spaceflight, a 
workforce is required that has the culture and capabilities 
aligned with these characteristics, a workforce with the 
necessary intellectual strengths and possibly even more 
important, the experience and longevity to establish the 
sensitivity as to what is required for spaceflight success.
    Today in government, universities and industry we have such 
a workforce. It has evolved over decades of extraordinary 
successes and tragic failures. Exceptional men and women have 
invested their professional careers, and the United States has 
invested significant resources to achieve the spaceflight 
workforce we have today. It is truly a national treasure. 
Without a challenging and meaningful space program, this 
national capability will atrophy. It can only be maintained by 
inspiring use. It has a limited shelf life.
    As we debate the future of our space program, we must do so 
recognizing the importance of our spaceflight workforce and the 
role it will play in the success or failure of the space 
program of the future. Without proper attention and recognition 
of its importance, we could make changes that destroy what we 
have carefully built. I do not suggest change is to be avoided. 
I do suggest careful thought is necessary. A fundamental rule 
when debating change is do no harm. Thank you.
    [The prepared statement of Mr. Young follows:]

                 Prepared Statement of A. Thomas Young

Chairman Gordon and Mr. Hall,
    It is a privilege to appear before this distinguished committee to 
present my views on the importance of our aerospace workforce to the 
United States.
    Spaceflight in general and specifically human spaceflight is one of 
the more challenging endeavors of our time. It is truly the domain of 
rocket scientists. However, successful spaceflight requires much more 
than an expertise in rocket science. Intellectual capability is clearly 
necessary; however, without significant experience and continuity of 
participation, the intellectual capability is far from sufficient.
    Why isn't intellectual expertise adequate? Why is experience and 
continuity of participation so critical? Spaceflight is a ``one strike 
and you are out'' business. Hundreds and for large projects, thousands 
of people can do everything correctly and one individual can make one 
mistake that can be mission catastrophic. While eliminating human error 
is a necessary aspect of successful spaceflight, we must recognize that 
human error cannot be totally eliminated and that human mistakes will 
occur.
    There are not many endeavors that are characterized as ``one strike 
and you are out.'' For most activities a significant error can occur, 
be recognized and corrected without major consequences. Some 
correlative spaceflight with commercial aircraft operations. I do not 
want to minimize the challenges of commercial aviation; however, 
airplanes land safely every day with significant problems. An option 
that is not available in the world of spaceflight.
    Decades of experience and the dedication of extraordinary people 
who have made spaceflight their career has resulted in a way of doing 
business that greatly minimizes the probability of human error having a 
catastrophic result. It is the foundation. of the extraordinary 
successes of the space program.
    A ``safety net'' is required to prevent human error from becoming 
catastrophic. Testing, independent validation and inspection are 
elements of the ``safety net.'' If we test as we fly and fly as we 
tested, we will find and eliminate most problems. For some areas, such 
as software, a full test program is unrealistic requiring the use of an 
independent validation approach. In some special circumstances, such as 
the installation of a solid rocket motor, only inspection can provide 
the necessary ``safety net.'' It is the disciplined implementation of 
the ``safety net'' without compromise that is a foundation of missile 
success. A slight deviation from this disciplined approach can be the 
most damaging of human errors.
    Unfortunately, failure reports any populated with deviations with 
names such as faster-better-cheaper, acquisition reform, we must take 
more risk, commercial practice, etc. Why do we accept these deviations 
which I will call ``miracle'' solutions. Many are the result of trying 
to put ten pounds into a five pound bag. Others are in responses to the 
criticism that we are too conservative and need to take more risk and 
others are associated with the premise that commercial practices are 
better. While there is some merit to each of these ``miracle'' 
solutions and we should constantly be responsive to better ways of 
doing business, most have been toxic to a ``one strike and you are 
out'' enterprise.
    I would like to offer a few examples. Mars '98 consisted of an 
orbiter, lander and two probes--all failed. Mars '98 was a faster-
better-cheaper program with an inadequate budget. Risks were accepted 
in the absence of sufficient funding resulting in catastrophic failure.
    A Titan IV with an important and expensive national security 
payload failed. Cause of the failure was a human error in documenting a 
number which resulted in failure. This failure occurred in an era of 
``acquisition reform'' where emphasis was shifted from mission success 
to cost. The cost focus resulted in eliminating aspects of the ``safety 
net'' that would have most likely caught the error and eliminated the 
failure.
    In the 1990's, during the epoch of faster-better-cheaper, 
acquisition reform, take more risk, commercial practices, etc., the 
Aerospace Corp. documented 11B$ of mission failures.
    My purpose has been to highlight the unforgiving nature of 
spaceflight, the need for uncompromising discipline and to recognize 
that it is a ``one strike and you are out'' business. I have also tried 
to emphasize that spaceflight is not a typical technological activity. 
Because of the special characteristics of spaceflight, a workforce is 
required that has the culture and capabilities aligned with these 
characteristics. A workforce with the necessary intellectual strengths 
and possibly even more important, the experience and longevity to 
establish the sensitivity as to what is required for spaceflight 
success.
    Today in government, universities and industry we have such a 
workforce. It has evolved over decades of extraordinary successes and 
tragic failures. Exceptional men and women have invested their 
professional careers and the United States has invested significant 
resources to achieve the spaceflight workforce we have today. It is 
truly a national treasure. Without a challenging and meaningful space 
program, this national capability will atrophy. It can only be 
maintained by inspiring use. It has a limited shelf life. As we debate 
the future of our space program, we must do so recognizing the 
importance of our spaceflight workforce and the role it will play in 
the success or failure of the space program of the future. Without 
proper attention and recognition of its importance, we could make 
changes that destroy what we have carefully built. I do not suggest 
change is to be avoided. I do suggest careful thought is necessary. A 
fundamental rule when debating change is ``do no harm.''

    Ms. Giffords. Thank you, Mr. Young. Dr. Aubrecht?

STATEMENT OF RICHARD AUBRECHT, VICE CHAIRMAN OF THE BOARD, VICE 
         PRESIDENT, STRATEGY AND TECHNOLOGY, MOOG, INC.

    Dr. Aubrecht. Thank you for this opportunity to address the 
Committee. The thing I would like to do this morning is to 
illustrate with a very specific example the long-term effect of 
the NASA programs.
    I am with Moog out of Buffalo, New York, and I have spent 
most of my 40-year career as an engineer and a technologist 
with Moog. We started doing NASA work in the late '50s, early 
'60s on programs like the Gemini, Apollo and later on on the 
Space Shuttle. We have a technical specialty referred to as 
precision motion control, and the places that it is applied 
primarily on the NASA launch vehicles is steering the rocket 
engines. So if you see the Shuttle when it is launched, you see 
it comes up and sort of rolls over, well, we are the guys at 
the back end that are moving the rocket engines to be able to 
steer it in a launch phase.
    Similarly, when the Shuttle is landing, you have to move 
the flight control surfaces. Those are hydraulic actuators that 
move those. That is the specialty that we developed during that 
time period.
    Based on that knowledge and heritage and experience that we 
had with that, we later then took that and evolved it for both 
commercial aircraft as well as military aircraft. So it is 
referred to today as fly by wire flight controls. Well, what 
does that mean? You have a computer that just connects with a 
wire to the actuators, and because of all of the concerns in 
terms of safety and reliability on these, these are very 
complicated, redundant systems. And our position with that all 
started with the work that we did with NASA in the 1960s.
    In the last ten years, we have won all of the major 
contracts around the world on fly by wire flight controls. We 
are doing complete flight control system on the F-35 for the 
DoD. We won all of the contracts for the 787 at Boeing doing a 
complete flight control system there, and the one that I think 
is more significant as far as your consideration here is that 
we won the same contract on the A350 at Airbus. This is the 
first time that Airbus has gone outside of Europe for this kind 
of technology. Why is that? Because the very best fly by wire 
flight control technology is in Buffalo, New York, and it all 
stems back to the work we did with NASA in the 1960s.
    We have had a similar experience on the unmanned NASA 
programs as well, starting all the way back with things like 
Viking and Voyager, all the deep-space probes, and more 
recently on the Mars science lab and the other Mars missions.
    So we have been developing similar kinds of technology. So 
what do these do? When you have a satellite, you have to be 
able to position the antennas and the solar arrays, and as you 
see the animations of satellites when they are all--see the 
small thrusters that activate and position the satellite? That 
is what we do, supply all sort of precision motion control in 
those satellites. And again, this started with our work with 
NASA in the 1960s. Today we are the world leading company for 
supplying those sorts of things to the DoD for all of their 
satellites, all the commercial satellites around the world. We 
are the supplier to the Europeans, to the Indians, to the 
Japanese for all that sort of hardware.
    The same way that we have had the evolution of that from 
the NASA technology, we see the same thing going on today. What 
it does is it gives you the opportunity for the NASA programs 
to develop the core technologies and the core knowledge, and as 
a couple people have indicated already, knowledge is not the 
matter of drawings and documents and reports. That is not where 
the knowledge is. The knowledge is in the people who develop 
it, and they have the ability then to be able to say, well, 
okay. Here is this other problem coming in for a military 
vehicle. What are we going to do with all that? You all go back 
to the NASA technology we developed to begin with as the core 
for doing all of that. So that is how we have been able to 
develop this kind of position we have worldwide.
    But it is not just us. We literally have hundreds of 
suppliers for the kind of hardware that we supply for NASA in 
the same way that NASA pushes us to find new technical 
boundaries and to push the envelope all the time. We do the 
same thing with our suppliers.
    So the leverage that you get out of this is not just a 
couple of companies with this, it is literally hundreds of 
companies that advance the technologies. For many of our 
suppliers, their NASA work is only maybe 1 or two percent of 
their sales, but it accounts for--probably 80 percent of their 
technology advancement comes out of this sort of work that they 
do on these NASA programs.
    And it is not just us. I can see upstream and downstream 
from where we are in these systems, and it is the suppliers of 
those sort of hardware because I follow their technologies as 
well. And they have seen the same kind of effect.
    So I would suggest that our experience with the NASA 
programs is not a singularity. We see it all the way through 
the suppliers and all the other companies that are around.
    The other point that I would make is that other people 
around the world understand this model of using space programs 
to lead the technology. The Europeans have clearly done it. 
When I first started with Moog in the 1960s, I worked in 
Europe, and this was right when Airbus was getting put 
together, you see. So why did the Europeans put Airbus 
together? They looked at it and they said, we really can't 
compete with the United States on manned space, given where 
they were at at that point in time. But they wanted to have a 
program to lead their companies to develop better technologies. 
So they chose to do it in commercial aircraft because they 
couldn't keep pace with the United States on the manned space 
program.
    So you follow that whole history forward and look recently 
at what the Chinese are doing. Why do the Chinese have a manned 
space program? For exactly the same reason that the United 
States had a manned space program in the 1960s. They are 
looking for that to increase the quality and the competency of 
the companies in China. It is exactly the same sort of model.
    So I would suggest that the Congress at this point in time 
is at a critical choice point. The Constellation program is 
clearly the next chapter in our history in space, and you have 
a choice. You can either adequately fund it and consistently 
fund it so you can maintain the sort of base that we have to be 
able to not only do the work for NASA, to be able to take and 
to continuously leverage this and to maintain the U.S. 
leadership in space technologies and aerospace technologies 
applied to all kinds of aircraft, military, commercial, 
business jets, satellites, all of that. It all is going to come 
from the consistent funding of the Constellation program.
    And a couple people have indicated, you can't have ups and 
downs in all of that. As a company, you have to maintain a 
consistent workforce if you are going to maintain this 
capability, and you can't have up one year, down the next year. 
It has to be a consistent funding stream really to make this 
work.
    So as I say, you have a very critical set of decisions to 
make here in terms of are you going to consistently and 
adequately funds the Constellation program because I think if 
you do, we can maintain this sort of world leadership that we 
have. I can see it in our technologies. We won a very 
significant number of the contracts already on Constellation, 
and we hired a number of people already. We have increased our 
employment almost by 100 in Buffalo to support the 
Constellation program already. And these are the best, 
brightest people. You say, so why is that? A couple of people 
have talked about it in general terms. Specifically, I can see 
from my own experience in working with it and with my 
colleagues, NASA programs are really, really hard problems. Tom 
talked about that in terms of the fact that there is zero 
tolerance for failure on all of that. That is a really, really 
hard problem. What that does is attract the very best and the 
very brightest engineers, and bright engineers attract other 
bright engineers. And that is how we have built the company 
over the last 60 years.
    So I am hoping that the Constellation program will get the 
adequate funding that it needs, and we will be able to continue 
the sort of technology evolution we have had in our company.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Dr. Aubrecht follows:]

                 Prepared Statement of Richard Aubrecht

    I am very pleased to have been invited to testify at the 10 
December 2009 Congressional Hearings relative to NASA's programs and 
budget.
    I have spent almost my entire 40-year career with Moog Inc. as an 
engineer and technologist. For the past 15 years, I have concentrated 
on developing Moog strategies and technology plans with our managers, 
engineers and technologists. Since Moog has had an over 40-year 
relationship with NASA as a supplier of control components and systems, 
a significant piece of our plans relate to our NASA work. These 
technology plans have enabled us to develop a very clear understanding 
of the relationship between the technologies we develop for NASA 
projects and the growth in Moog's other aerospace businesses.
    Beginning with the Gemini Program in the 1960's, Moog has supplied 
the actuators to steer NASA's launch vehicles' rocket engines. 
Subsequently, we have supplied ever more sophisticated control 
components for the Apollo and then the Space Shuttle. For the Space 
Shuttle, we also supplied actuators for the flight control surfaces 
that guide the orbiter's flight path during the time it flies like an 
airplane. The technologies we developed and the experience our 
engineers gained provided the foundation, knowledge and heritage to 
begin developing similar control components for military and then 
commercial aircraft. Most recently, we have become the supplier of the 
complete flight control systems for the DOD's F-35, Boeing's 787, and 
Airbus' A350. Our experience on the Space Shuttle was clearly the 
essential starting point for Moog to have developed the technical 
experience and enabled us to have been selected as the supplier for the 
flight control systems for these programs.
    In addition, Moog has developed a variety of other control 
components and systems with NASA for other launch vehicles, and various 
deep space and orbiting satellites such as Mars Science Laboratory and 
DAWN. As with the rocket engine steering controls, these NASA programs 
have always been the most challenging and pushed the envelope. Moog's 
NASA experience on all these applications has enabled us to also 
provide the world's best technologies for similar applications on DOD 
and commercial launch vehicles, all types of satellites and various 
missile interceptors. NASA has a history of setting very ambitious 
goals that drive the need for new technologies, designs and 
capabilities that are beyond what the Commercial space projects are 
willing or able to undertake. Once the capability and reliability of 
the components are demonstrated on NASA projects, the Commercial space 
suppliers are then confident in using these components on their 
vehicles. Not only Moog's technologies benefit from these NASA 
projects. Our products incorporate technologies and components from 
several hundred companies. While some of these components are 
relatively standard, our innovative solutions for NASA require the 
majority of our vendors to push their designs to a higher level as 
well. So the benefit of the NASA programs becomes very widely spread. 
While I do not profess to be familiar with all aspects of the NASA 
vehicles, I am familiar with the technologies and components adjacent 
to our components. I can see the companies supplying these adjacent 
components have also similarly benefited from their NASA work.
    It is no accident that the USA aerospace prime contractors and the 
hundreds of subcontractors have developed leadership positions on the 
vast majority of the relevant technologies. The NASA programs have 
clearly enabled USA companies to develop and maintain these leadership 
positions. A leadership position can be measured as a combination of 
performance, reliability, weight and cost. It is also clear that the 
Chinese, having watched NASA's successes, have embarked on a very 
ambitious manned space program. Their expectation is for their space 
program to provide Chinese aerospace companies with the experience to 
challenge the USA's leadership in commercial space and commercial 
aircraft.
    NASA's Constellation Program is the next chapter. NASA's goals for 
the Constellation Program will again challenge all the suppliers to 
imagine, develop and create the next generation of space-related 
technologies.
    The fundamental question Congress needs to address is:

         Does Congress want to continue to consistently fund NASA 
        programs such as Constellation to maintain the USA's leadership 
        position in aerospace technologies?

    The key word in that question is ``consistently''. The relevant 
technologies are embodied in the engineers and technical staff who work 
on the NASA programs. Technologies are documented in drawings and 
reports. However, the application of the technical knowledge is totally 
dependent on the people who have developed the technology. Without 
consistent funding by NASA, companies are not able to keep the 
engineers and technical staff employed. If funding is inconsistent, 
technical capabilities wither as people move on to other programs or to 
other companies.
    One of our major concerns relative to the Constellation Program is 
that having already been awarded a number of contracts for the 
Constellation Program, we have hired a large number of engineers and 
technical staff to support our contractually-obligated schedules set by 
NASA's current schedule. If the Constellation Program's funding is 
reduced and stretched out, we will have to lay-off a number of these 
people. We have a core group of people who have spent the past 20 or 30 
years working on space-related programs. A number of these people will 
be retiring in the next several years. The new people we have hired to 
work on the Constellation Program are the next generation who need to 
learn from the senior people and then become the core group to apply 
their skills to the next generation of commercial space, military 
space, and other aerospace applications.
    As with our experience on previous NASA programs, we continually 
grow by moving into adjacent technologies to our current core 
capabilities. The Constellation Program has provided us the opportunity 
to again expand our technical capabilities. We were surprised in 
several competitions that companies who had previously supplied 
specific technologies to NASA had either declined to bid, because they 
no longer have the ability to design the required components, or that 
they apparently submitted a weak technical proposal. This is an 
additional indication that consistent NASA funding is required if the 
USA is to maintain and advance its aerospace technology capabilities.
    The Constellation Program is at a critical decision point for the 
country and specifically for the Congress. On one hand, you can decide 
to fully and consistently fund the Constellation Program and the USA 
can maintain its leadership position in aerospace technology. On the 
other hand, you can decide to select one of several seemingly lower 
cost options. In which case, I strongly believe the USA will rapidly 
lose its leadership position, most likely to the Chinese.
    Thank you for this opportunity to testify.

    Ms. Giffords. Thank you, Dr. Aubrecht and to all of our 
panelists for the very compelling testimony.
    At this point, we are going to begin our first round of 
questions. The Chair will recognize herself for five minutes, 
but we have, I know, a variety of Members that want to speak. 
So let us really try to keep under the five minutes so we can 
move quickly.

      Opinion of the Panel: Impact of Decision To Augment or Flat-
            Fund Human Spaceflight and Exploration Programs

    I want to follow up on what Dr. Aubrecht presented to us 
and this decision that we are going to be making as Members of 
Congress, and of course the Administration will as well. We can 
either support a significant augmentation to NASA's budget to 
carry out a meaningful human space exploration program without 
having to gut other NASA initiatives, or we can keep NASA on a 
flat-funding profile and put our human spaceflight and 
exploration program frankly on hold for the unforeseeable 
future. What we eventually decide to do will have profound and 
very long-term effects. And so because of the consequences in 
front of us, we really need to get this right.
    So I would like to ask each of our panelists to briefly 
just touch on the most significant potential impacts that 
Congress and the White House should be aware of as we prepare 
to make these decisions. And Dr. Aubrecht, I will go back to 
you, and we will work our way from right to left.
    Dr. Aubrecht. I think the critical thing is what I was just 
finishing on is the quality of the people that you have working 
on the Constellation program to begin with. If you are unable 
to maintain that base, you are going to lose it. People talked 
about the upcoming retirements. We are facing exactly that. The 
people that we had that did the Space Shuttle and did the 
Apollo program, they are about to retire, and the thing we are 
looking for the Constellation program to be is the transition 
to the next generation of people and to do the mentoring that 
you need for those people to get the maximum benefit out of the 
experience that we have had. It goes from person to person. It 
is not in the drawings.
    So I think that is the critical factor, is this direct 
transition from one generation to the next. If you don't do it 
now, it won't happen.
    Ms. Giffords. Thank you. Mr. Young?

              Augustine Report: Budget and Funding Issues

    Mr. Young. The Augustine Report in my mind----
    Ms. Giffords. Mr. Young, can we have you push your 
microphone.
    Mr. Young. My apologies. Okay. The Augustine Report did 
some real service in an area that I think we knew, but it took 
something like that to make it happen and that is number one, 
that the current NASA budget and the current NASA program is 
not executable in human spaceflight, not marginal.
    The second thing I think that the report really highlighted 
was that there is no human exploration program at the current 
budget level. Now, I am defining human exploration as beyond 
going back and forth to the Space Station.
    So I think we are faced with kind of a profound decision 
and that is I personally am a believer that great countries do 
great things, and I think human spaceflight, you know, falls in 
a category of one of those great things. I am also a fiscal 
conservative, I might say. But I strongly believe that if we do 
not approach this from what is in the best interest of the 
country as opposed to a budget issue, then I fear we are going 
to end up with the wrong answer. And as I said in my statement, 
this capability that we have built, and we should not 
underestimate how hard it was to build and how hard it will be 
to rebuild and how significant it is today, but if we don't use 
it in a bold and inspiring way, it is going to disappear on us.
    So I think that we are really making a decision that is not 
a budget decision. We are not making a jobs decision. We are 
not even making a hardship on the people who might lose their 
job. We are making the decision as to what is in the best 
interest of the country, and how do we utilize this resource 
that we have developed with so much investment, both in human 
investment and dollar investment.
    So I worry quite a lot as to whether or not as a country we 
are going to approach this issue in a manner that it deserves 
and the country deserves.
    Ms. Giffords. Thank you, Mr. Young. Ms. Blakey?
    Ms. Blakey. I share the concerns of my fellow panelists, 
and so not to be redundant on that, I would mention a couple of 
other dimensions. This also has, this decision, has genuine 
impact on our national security because you must remember that 
some of these particularly smaller companies with unique 
capabilities and technologies such as Moog utilizes in fact 
also support that fragile national security supply chain, and 
when the programs are not there, they simply cannot maintain 
them and maintain any kind of integrity to their shareholders. 
So this is a significant issue.
    Another issue that I think is important is that this 
country sees itself as a space-faring Nation. At the same time, 
we know, those of us who are following this closely, that it is 
very likely that the next boots on the moon will be Chinese. We 
know that we have very definite competition for the leadership 
in space from a number of countries, India as well as China, 
Russia. You know, this is very well-documented, and the 
resources are being applied there. But when you look back at 
it, our country does see itself that way, and that is important 
to our national psyche.
    Back during the Apollo program, the numbers were around 50, 
55 percent in terms of public support for the U.S. role in 
space. Those numbers in a recent poll--this was 2005 but not 
when we were trying to go beyond lower earth orbit--we at 77 
percent.
    So I simply would echo the thought that all these things 
matter, and budget should follow policy, not the other way 
around.
    Ms. Giffords. Thank you. Mr. Thompson?
    Mr. Thompson. To preserve today's and to attract and retain 
tomorrow's specialized workforce which underpins all sectors of 
a vibrant aerospace industry, a robust, credible and long-term 
commitment by the United States Government to our future human 
spaceflight program is indispensable. As the Augustine 
Commission pointed out, human exploration of space will inspire 
the next generation of scientists and engineers and will in a 
very tangible way contribute to the broader development of the 
future workforce that our country needs in a variety of 
sectors, all supported by science, engineering and technology.

         Stimulus Funds and Human Spaceflight Funding for NASA

    Ms. Giffords. Thank you. Mr. Olson.
    Mr. Olson. Thank you, Madam Chairwoman. One thing we have 
been working very hard on in the Texas delegation is to 
identify viable sources of increased funding for NASA and one 
of those we think would be entirely appropriate given what was 
passed for is the economic stimulus plan that was passed back 
in the February timeframe. And this is a question for Mr. 
Thompson and Ms. Blakey. Has either the AIAA or the AIA taken a 
position about proposals to have stimulus funds used to help 
mitigate anticipated human spaceflight deficiencies and the 
resultant loss to aerospace workforce?
    Ms. Blakey. We are very interested in and sympathetic to 
more flexible use of the TARP funding, stimulus funding. We do 
see that there is certainly an enormous support for some of the 
purposes of that money, to give the kind of support to our 
infrastructure, and infrastructure is a broad word, but space 
is certainly a vital part of our infrastructure. And we believe 
that those kinds of resources could be very appropriately 
applied.
    Mr. Thompson. I agree, while AIAA has not yet taken a 
formal position on your question, I believe our individual and 
corporate members would be highly supportive of the actions 
that you suggest.
    Mr. Olson. Thank you very much. Just to echo Ms. Blakey's 
comments, these are exactly the jobs that that stimulus package 
was supposedly passed to produce, high-quality, high-tech jobs 
that stimulate and ensure America's future and in this case, 
ensure our dominance in human spaceflight which again we should 
never, ever relinquish.

                    Cooperation with Foreign Nations

    One other question and this is sort of about our indigenous 
capabilities. One thing the Augustine Commission talked about 
was more cooperation with foreign nations, and at yesterday's 
Aerospace and Women Luncheon, the NASA Administrator, Charlie 
Bolden, emphasized the Obama Administration would utilize space 
exploration for diplomatic purposes by encouraging greater 
cooperation with foreign nations.
    Assuming this cooperation means utilizing the capabilities 
from other nations and have them play larger roles, larger 
mission roles, supplying mission work, how would this be 
balanced with the Administration's priority to save and create 
jobs? That is for everyone.
    Ms. Blakey. Well, I certainly would make the case that this 
is a case of growing our activities, and in the long run, the 
pie becomes larger, not smaller. It is not a question of 
dividing it up into little pieces. It really is a question of 
whether a shared mission is there. And we see the compelling 
work.
    Let us just use the work at the International Space Station 
alone because there we are finding that after all the 
investment, multi-nation investment and contributing to 
building, we are now beginning to see some of the fruits of 
that. And this is in the areas where cell cultural biology 
experiments that are going on are addressing problems that we 
share across the globe. Salmonella is one of them. You know, 
this is something that affects the globe as a whole. Staph 
infections. Now, you know the pharmaceutical companies will 
find that this is an area that they additionally will be happy 
to put resources into as we begin to see payoff.
    So I do believe it is a question of additional jobs on 
multi levels that you can see from this kind of international 
cooperation.
    Mr. Olson. Any other comments? I just wanted to, Mr. 
Thompson, commend you for that video. That is exactly--that was 
the kid I was talking about walking the streets on the campaign 
trail. That is exactly that person, and we can't forget the 
power of human spaceflight to inspire you.
    And with that, Madam Chairwoman, I yield back my time.
    Ms. Giffords. Thank you, Mr. Olson. The Chair will 
recognize Mr. Wu.
    Mr. Wu. Thank you, Madam Chair. At this time, I would like 
to yield my time to the gent lady from Florida who represents 
her congressional district and state's interest in space 
exploration so well, Ms. Kosmas.

        Effects of Post-Shuttle Gap of U.S. Access to Space on 
    Maintaining Inspiration; and Gap in U.S. Industrial Production 
                         of Heavy Lift Vehicle

    Ms. Kosmas. Thank you very much, Mr. Wu, and also Madam 
Chairman. I am happy to be here today. I represent the Kennedy 
Space Center in Florida, and obviously the workforce issue is 
huge for us in this current economically stressed time but in 
the big picture that you all have described, important to us as 
a Nation I believe.
    I wanted to ask, I was at the Kennedy Space Center Monday 
of this week and addressed 700 sixth-graders, along with some 
former astronauts, to encourage them in the STEM fields and 
also attended earlier this week a forum that was put together 
including the Space Foundation and DoD where there was an 
effort to--Norm Augustine was the keynote speaker and also 
emphasized the need for education in these areas in order to 
keep these things moving forward, as well as the shared 
information between manned space exploration and our Department 
of Defense and national security issues. So much of what you 
all have said is very familiar to us, and as Committee members, 
I think it has been made clear to us that both a sustained 
commitment to human spaceflight and a sustained commitment to 
the funding necessary to make it happen are required 
ingredients for what Ms. Blakey described as U.S. preeminence, 
and we all agree I believe on this Committee that it is 
necessary for us to do that for a lot of obvious reasons.
    My concern is that the gap if the Shuttle, if the manifest 
is completed in 2010 or even early 2011 that we will have as 
much as perhaps a five-year gap before we can pick up again on 
human space exploration, and during that time period we will be 
relying on the Russian Soyuz, how seriously do you see this gap 
as with regard to the inspiration that we have described as 
being necessary to attract the next generation but also at the 
same time, that gap with regard to the industrial base and the 
potential loss of opportunities for the industries that help us 
to make not only the manned space exploration but as you 
described the commercial and DoD infrastructure necessary to be 
successful at it? So any one of you may answer the question. 
Number one is the gap and the Russians flying our astronauts to 
the International Space Station, and number two is the gap with 
regard to the industrial production.
    Mr. Young. I guess somebody has to volunteer. The gap is 
unfortunate. The gap will not inspire, but the gap is in 
reality I think is a legitimate question of, you know, new 
folks entering it and how could those of us who were stewards 
of the program allow the gap to happen. And it is a legitimate 
question.
    I think it fundamentally happened because we were not 
willing to fund the program at a level necessary to safely 
finish out the Shuttle program and in parallel develop the 
necessary resources to not have a gap. In other words, we chose 
a relay race where rather than smoothly handing off the baton, 
we heaved it up ahead, hoping there was somebody there to catch 
it in the process. So I think unfortunate but you know a 
reality.
    Why don't I stop at that point? Somebody else may want to 
add.
    Dr. Aubrecht. In our case, because we have the 
Constellation contracts already started, we have transitioned a 
lot of the people who were supporting the Shuttle program are 
now working on the Constellation program. So for us, it is not 
that much of a problem, provided the Constellation is funded.
    But I would worry, your other point about the Russians 
supplying that, I mean, if you think about it, so you are 
totally dependent on the Russians at this point in time to keep 
the Space Station. As you may be aware, you just can't leave 
the Space Station up there. You have to continuously bring fuel 
up there. Gravity and solar drag is pulling the Space Station 
down. So if there is an interruption in the fuel going up to 
the Space Station, it is coming down one way or another. And so 
you are totally dependent on the Russians for doing that. I 
would worry about that.
    Mr. Young. If I could come back and just add to Dick's 
point and your second part of your question dealing with, you 
know, what do we do now so to speak, I made a point in my 
statement which I strongly believe, this workforce capability 
that we have has a limited shelf life. And it is not something 
we can put on the shelf, you know, waiting for the next system. 
And we will only get through this so-called gap era in a 
reasonably positive fashion is if we have the kind of work that 
Dick is talking about for these people to do. In other words, 
if we really can employ them, all the skills won't match but 
many will. But it is critical to have the challenging work that 
will assure that that capability doesn't, as I said earlier, 
atrophy.

          Inspiring the Next Generation for Space Exploration

    Ms. Kosmas. I guess my question--that answered a part of a 
workforce and industrial-based question, but my question, the 
big one is, if we have a five-year gap, how do we inspire? What 
is the best way that we can inspire the next generation to be 
engaged in space exploration if in fact we have handed off our 
delivery of our astronauts to the Space Station to the 
Russians? How do we say to the next generation the kind of 
inspiration that we saw Mr. Thompson among your folks? How do 
we get that to happen during this gap?
    Ms. Blakey. I think it does depend very much on our 
continuing activities on ISS. Again, we are seeing results up 
there. That is a very exciting thing, and people want to be a 
part of that. They want to be a part of exciting launches, like 
the Ares I-X this fall. I mean, you know, everyone said, yes. 
You know, we had a very successful launches early stage on our 
new program. At the same time, there is very exciting work that 
is being done commercially as well. SpaceX, Orbital, they are 
doing some excellent work that I think people understand gives 
a commercial opportunity to resupply the Space Station.
    So there is a lot that could happen in the gap, and I hope 
that we don't focus entirely on the fact that it is a Russian 
seat that is getting our astronauts up there at, by the way, 
$50 million a pop. So it is not free, either.
    Ms. Giffords. Ms. Kosmas?
    Ms. Kosmas. Yes? Is my time up?
    Ms. Giffords. Your time is up.
    Ms. Kosmas. Thank you.
    Ms. Giffords. Thank you. Also, it is important that 
everyone recognizes that we have had a gap in the past. I 
personally believe that we will get through the gap as long as 
we have a strong, committed vision and a program for the 
future.
    Now the Chair will recognize the very distinguished Mr. 
Ehlers.
    Mr. Ehlers. Thank you, Madam Chair. I have a deep interest 
in this subject, having devoted something like 50 years of my 
life to trying to teach STEM ed to future elementary school 
teachers. My colleagues who love to teach the advanced courses 
thought I was crazy because I also would have loved to teach 
the advanced course, but I felt an obligation to try to educate 
young kids. If you don't get them excited about math, science, 
engineering in the elementary school, they are not likely to 
pursue it in high school. They will take the minimum 
requirement but that is it. If they do that and then go to the 
university and say, well, you know, I would like to be an 
engineer, they suddenly find they have to spend an extra year 
or two at the university and they are likely to decide not to. 
So a very important factor this is, making certain that all of 
our elementary and secondary schools are dead serious about 
good math, science and engineering instruction, and I hope all 
of you in your professions will keep emphasizing that as well.

                           The Metric System

    I was interested in the comments of--I think it was Mr. 
Young made the comments about the importance of getting things 
right, and I recall when we lost a $159 million satellite on a 
trip to Mars because NASA used the metric system and the 
engineering contractor used the English system of units. I 
immediately introduced a bill to require that all NASA 
contractors had to use the metric system. The NASA 
administrator came to me and begged me, literally begged me, to 
drop the bill and forget about it because he would take care of 
it administratively, which he did not do. I think that is 
something that we should do. That I think is one of the 
stupidest errors that ever occurred in spaceflight, and it is 
so elementary.
    So I would hope that you would encourage the Congress to 
get over their phobia about the metric system and at least set 
an example in NASA of how to do it right, and hopefully the 
rest of the country--it is happening by itself with the 
international trade we have. But that is a very slow, torturous 
way to do it. And the biggest mistake people take, by the way, 
is trying to teach people how to convert from one system to 
another. That is not the way to learn. The way to learn is 
simply to use it, and very shortly you will have it.

           Revitalizing and Improving the Aerospace Workforce

    I would appreciate any comments on that, but I do have a 
specific question for Ms. Blakey. Some years ago I sponsored 
the resolution establishing an interagency aerospace 
revitalization task force which did fine work and reported on 
it. Ms. Blakey, I know you were involved in that. Can you give 
me a summary and perhaps others could as well of what impact 
this has had if any on trying to develop a better workforce and 
more numerous engineers graduating? Is there any follow-up to 
that?
    Ms. Blakey. I think that task force was spot-on in the 
impetus to have the agencies pull together and begin combining 
resources as well as combining programmatically so that it was 
greater than the sum of the parts, if you will.
    We feel very strongly that the time has again come, 
Congressman Ehlers, to have an interagency group that really 
should function on the highest level. We believe the White 
House should coordinate this, and it should be for all those 
agencies that have responsibility for space programs that they 
come together, and you really do begin to look at the impact 
that they are having and the ways that redundancies as well as 
synergies can develop. And it will have a huge impact, we 
think, on STEM issues because again, there are a lot of 
resources out there, but they all need to be pulling in the 
same direction.
    Mr. Ehlers. Well, we do have a President who is interested 
in science and has made some very good appointments in the 
areas of science. So perhaps with your help and my help we can 
try to bring this to the forefront again. I think that would be 
very, very helpful.
    One last thing. I want to compliment you, Ms. Blakey, on 
your comment that budgets should follow policy. That doesn't 
happen very often around the Congress, but it is a very 
important statement and we should all keep that in mind and 
really, really work hard on developing a policy so that the 
budgets will in fact follow the policy.
    With that, thank you very much, and I will yield back.
    Ms. Giffords. Thank you, Mr. Ehlers. The Chair will now 
recognize Ms. Edwards.
    Ms. Edwards. Thank you, Madam Chairwoman, and thank you to 
our witnesses today. This is something that at least in the 
time that I have served on this Committee we have been deeply 
concerned about. Where are the next generation of engineers, 
scientists and leaders for whom NASA is actually a platform, 
really, for other kinds of technology and research. And so that 
is really where the investment really pays off throughout our 
industrial base and not just specifically focused in the space 
program.
    In September of this year I hosted a gathering actually in 
this room of women and minority businesses, entrepreneurs, 
really invested and interested in the commercial space industry 
and their role in it, many of them young who had just come out 
of undergraduate and graduate school and were starting their 
own businesses. The space program is what led them to their 
creativity and innovation. Back in the back of the room in the 
last few rows were young people, African-American and Latino 
students in our local schools, girls and boys, who sat. You 
could see the inspiration happening in their eyes as they 
listened to business leaders, as they listened to researchers, 
as they saw and took photographs with astronauts.
    So I think that we have a great opportunity right now to in 
some ways reinvent our space and space exploration for this 
latest generation. And so I am interested to hear from you 
where you think there are opportunities both for the agency to 
reach out to communities and schools and inspire this next 
generation and opportunities for the private sector to do the 
same thing because my experience in the county that is the home 
to the Goddard Space Flight Center is sort of like it is 
getting better but Goddard is kind of over there and the rest 
of us are outside, and we need to bring those two things 
together. We need to bring it together through the private 
sector but also through the agency itself. And so I wonder if 
any of you have any comments about that, at least from a policy 
perspective, how we can help make that leap.
    Mr. Thompson. Perhaps I could provide part of the 
perspective there from an AIAA point of view. We have advocated 
for some years now that the Administration, with the support of 
the Congress, adopt policies that would be specifically focused 
on increasing the country's scientific and engineering 
workforce at several levels. One of those levels would center 
on providing incentives for colleges and their students to 
expand their educational programs in the relevant technical 
fields.
    The second recommendation was more focused on companies, 
particularly those that work under government aeronautics and 
space contracts to provide incentives for workforce development 
so that we can reduce the attrition. Once a young engineer or 
scientist comes into our industry, that today results in about 
half of those entry-level technical professionals not staying 
in the industry for the majority of their career.
    And finally, despite our best efforts to increase the 
domestic supply of well-qualified aerospace engineers and 
scientists, it is AIAA's view that that alone will not be 
sufficient to fully address the problem that our country is 
going to face over the next decade or so. And so we further 
advocate a reexamination of immigration laws and visa levels so 
that we can more effectively attract from around the world the 
best and brightest young people that want to come to our 
country and build their lives and careers here to strengthen 
our aerospace sector and the Nation as a whole.
    In addition, within this general framework, AIAA and a 
number of other engineering societies across a variety of 
fields have advocated the pursuit of policy specifically 
focused on emphasizing the two middle initials in the STEM 
acronym, namely technology and engineering. I think we are 
further behind in those areas or we risk falling further behind 
in those areas than we perhaps do in the bracketing letters of 
science and math. All are important, but as we look out over 
the next decade, the challenges in engineering and technology 
may even be worse, more severe, than the challenges in the 
basic sciences and math.
    Thank you, and I am sure we could go on, but my time is 
expired, Madam Chairwoman.
    Ms. Giffords. Dr. Aubrecht, did you want to add something 
real quick?
    Dr. Aubrecht. Yes, just to come back to the point that you 
made there in terms of immigration policy. We employ about 
9,000 people in 26 countries around the world. We are 
headquartered in Buffalo, and that is where the center of our 
aerospace business is, but we have taken this technology into 
all kinds of other fields. And a number of cases where we would 
like to bring people in from outside the United States, and we 
just simply have a terrible time trying to get visas for these 
people to come in.
    So I don't think we are going to be able to meet the needs 
from a technological staffing standpoint unless you open up the 
immigration. People from all over the world would just love to 
come to the United States and work on these programs. This is 
where it is happening, but they just can't get the visas.
    Ms. Giffords. Thank you, Dr. Aubrecht. The Chair recognizes 
Mrs. Fudge.
    Ms. Fudge. Thank you very much, Madam Chair, and thank you, 
all of you.

     Education Programs in Elementary Schools/Advocating Math and 
                                Science

    Let me just preface my brief comments by first saying that 
I happen to represent NASA Glenn, and certainly we have a 
critical stake in human exploration, aeronautics research and 
space research and technology.
    But I do have a couple of questions. The first one really 
is probably more a comment. Ms. Blakey, you cited that 69 
percent of eighth-graders are below the proficient level in 
mathematics. The Department of Education just came out with 
numbers that indicate in my district, in the City of Cleveland, 
that number is 92 percent. Ninety-two percent of eighth-graders 
are below the proficient level in mathematics.
    I hear often, because we have a lot of high-tech businesses 
in our area and we talk about immigration, we talk about a 
number of things. But I just have to say, not necessarily for a 
response, but that if this country knows we have those kinds of 
problems, we know what needs to be done. We just need to have 
the will to get it done because I believe every child well-
taught can learn.
    So I don't think that we need to focus all of our attention 
on trying to bring somebody in here to take care of the short 
term but to teach young people coming up through the system so 
that we have our own base to do the kinds of things that need 
to be done.
    I am going to go to just a couple questions I have. Ms. 
Blakey, again, to you. You mentioned that one of your outreach 
programs, the Team America Rocketry Challenge, you said that 
this challenge starts with a regional competition in which 
students are teamed with real rocket scientists. How are the 
schools that participate in this challenge selected?
    Ms. Blakey. We encourage every school in the country to be 
a part of it. We put out information, CDs, we send a great deal 
out to all of the schools, and we also as the National 
Association of Rocketry, which literally, these are rocket 
scientists, to reach out to folks in their own communities 
because they are employed in both government as well as our 
company facilities around the country and go to the school and 
say, look, I would like to work as a mentor on this program.
    That is the way it starts. It has a very low-entry cost to 
get involved. These are small rockets. They are not hard to 
build in theory, but to understand the physics and the 
engineering and all of that, that is the trick.
    So there is not a great barrier to entry. We are trying to 
get schools all over the country. We bring 100 of them here in 
May out to the plains on a Saturday to shoot off their rockets 
to compete against each other, and frankly, the fact that we 
have also begun to get other countries. England and France are 
now competing against us in the international rocketry contest, 
also gets kids really juiced about this because they know, 
look, you know, we do really well. We get an opportunity to go 
to the big air show in London this year.
    So there is a lot to it in addition to a lot of prizes. We 
are trying very hard to have this permeate schools everywhere. 
If there are some in your district that might participate, I 
would love to talk to you about it.
    Ms. Fudge. I would love to talk with you about it as well.

                      Aircraft Propulsion Systems

    My next question is for any member of the panel. Aircraft 
propulsion systems have major environmental and fuel 
consumption implications, and specialized skills are needed to 
assure low emissions, reduced noise and increase the 
performance of aircraft engines. What policy and funding 
decisions are needed to make certain that the future workforce 
of NASA, of industry and universities can provide the needed 
advances for engines with low emissions, low fuel consumption 
and utilization of alternative fuels?
    Mr. Thompson. AIAA has adopted as one of our three 
strategic imperatives for at least the next half-decade the 
advancement of technology specifically focused on improving 
aircraft propulsive efficiency and reducing related harmful 
emissions. As part of this initiative, which we believe is 
critical to the future growth and prosperity of the world's air 
transportation network, we advocate that the Administration and 
Congress not lose sight of the important work that NASA does in 
aeronautics, keeping in mind the first A in NASA continues to 
be highly relevant to the industrial sector in the United 
States that must compete worldwide for new orders in the 
aircraft sector and which serves an industry which this past 
year, even during times of economic downturn, moved about 6 
million people every day, along with something like 135 tons of 
cargo during every 24-hour period, generating roughly $.5 
trillion in worldwide revenue.
    So this is a very vital part of NASA's research program, 
one that AIAA commends to the Congress to ensure that its 
funding remains at a robust level.
    Ms. Fudge. Thank you, Madam Chair.
    Ms. Giffords. Thank you, Ms. Fudge. The Chair recognizes 
Mr. Lujan.

      Educational Initiatives Focused on Math and Science Teachers

    Mr. Lujan. Madam Chair, thank you very much. And I am glad 
to hear the emphasis in and around education as well. To build 
upon what a few of my colleagues have discussed today, when we 
had some of the national leadership here before the Committee 
back in May, I asked a lot about a program called MUST, 
Mentoring Underserved in Science and Technology, a program that 
I feared during the budget discussions that would not get the 
support that it should. We talked about the importance of 
retaining and building the workforce, exposing young people 
that are in these STEM fields in college to getting these 
scholarship opportunities and getting involved in NASA 
programs, to provide for further job opportunities down the 
road. And I would certainly hope that that is a program that we 
would be able to advocate together for the importance of this 
for fully funding and expanding this program specifically to 
see what we can do to try to attract more individuals into 
these fields.
    Are there any programs that you are working on or that you 
have within the structures of your organizations to mentor 
teachers, to bring teachers in, to teach them science, 
technology, engineering, mathematics, to take those experiences 
during summer months back to school districts and traditional 
school districts where they have three months off in the 
summer, where there may be employment opportunities or 
educational opportunities to take that back into the classroom 
so we can address some of what Ms. Fudge was addressing with 
targeting these young students especially, where I share the 
same sentiments as Ms. Fudge. We give kids a chance and we 
teach them. They will learn, they will grasp it, and they will 
do phenomenal things. You are all examples of that.
    How can we get more people involved?
    Mr. Young. If I could comment just a little bit? Thinking 
about my personal case, I grew up in a very rural area. I sit 
here because of two or three math and science teachers who I 
had in high school. That is the only reason I am here today.
    Second comment is that in my corporate life, we wrestle--
corporations have modest amount of funds that they can employ 
in helping, so to speak, and we wrestled with how to best do 
that, and obviously corporations can't be a Department of 
Education. But our conclusion was that we could both leverage 
what modest funds we had with supporting math and science 
teachers. And we established summer academy, actually I guess 
we called it, for math and science teachers at various 
locations where we had operations and invited teachers there, 
the objective being to enhance their--being proficient and up 
to date as to what was going on. And I participated in a lot of 
those programs, and I was extraordinarily impressed at how, 
with modest investment, you can, you know, leverage through 
math and science teachers an enormous capability.
    I have got one last comment that is only slightly there 
but, you know, there are other ways to motivate, and we were 
talking about and I go back. One of the things I did in my 
life, I was mission director on a program called Viking. We 
landed a couple spacecraft on Mars, and a couple folks on the 
program, project scientist named Jerry Soffin and a scientist 
named Carl Sagan, got the idea, why didn't we have a summer 
intern program on the program and invite young, you know, kids 
who were interested and invite them to work, you know, come out 
and work hand in hand, you know, in such a program.
    It is kind of interesting. One of those was David Thompson. 
Without that program, he might today be testifying to the 
banking committee.
    Mr. Lujan. Madam Chair, just quickly before I run out of 
time, one thing that I would be interested in visiting more 
about so we can get more individuals like Mr. Thompson here 
before us, maybe we can get some young people involved to 
follow in your footsteps. An interesting program is under way 
at Los Alamos National Laboratories where Ph.D.s, physicists, 
engineers, professionals of all types, with a modest investment 
are giving some of their time to be able to bring these 
teachers in during these summer months in school districts that 
we saw serious problems with underperformance, especially in 
mathematics, where these kids are turning around and have some 
of the highest math scores in the state now. Almost 100 percent 
turnaround. And it is because we brought these teachers in to 
show them what they could show these kids and to show these 
kids that they could go to the moon, that they could design the 
next, most fuel efficient vehicle, whatever it may be. And so 
to see what more we can do in each of these areas where we can 
have these public/private collaborations and make sure that we 
are making these investments in our kids such that you have the 
workforce that you need to continue to build upon the programs 
and successes that you have brought forward.
    So I appreciate your earnest attention to these areas and 
look forward to working closely with you, Madam Chair in each 
of these areas. Thank you.
    Ms. Giffords. Thank you, Mr. Lujan. The Chair will now 
recognize Mr. Griffith.

       Effect of Delaying or Indecision on Constellation Project

    Mr. Griffith. Thank you, Madam Chair. I appreciate the 
effort in the educational community. It has been a discussion 
going on for I think three decades. The space program however 
will be either successful or unsuccessful within the next 16 
months. The verbal expression of commitment to the space 
program is basically inadequate without national commitment of 
money and tangible enthusiasm from the executive branch. We 
will send a message of confusion and indecision to our 
scientific community. Mr. Augustine said it best when he said, 
get in or get out. It is unfair to the astronauts, it is unfair 
to the scientific community, and it is unfair to those children 
who have an interest in science that we are trying to attract 
into this absolutely vital, vital part of not only our economy 
but the development of science for science's sake.
    I appreciate the concept that maybe we could use this as a 
diplomatic effort, and I would love to see this as a sideline. 
But basically, this is research and development. America 
represents five percent of the world's population. Ninety-five 
percent live somewhere else. We have seen the benefits of NASA, 
human spaceflight. It has been proven to us over and over again 
that this has to be a national commitment, and leadership has 
got to come out of the executive branch. We are in fact in a 
space race to the moon with the Chinese, and we have not 
decided to put a team on the court yet.
    What better opportunity than a successful launch of Ares I-
X to segue into a national announcement that we are now 
committed to the moon in 2020, 2019, 2018? What better 
opportunity have we had to say to America's children, science 
and math is cool? What better opportunity? Imagine had we spent 
the time that we have spent on cap-and-trade, stimulus, 
healthcare, had we spent that on science education and the 
development of our human spaceflight program. We would be 
sitting here today feeling very good. Today, we are very, very 
anxious.
    I must tell you that my district is Marshall Space Flight 
Center. I am an oncologist. I took care of many of the 
pioneers, and I have seen firsthand in medicine all of the 
things that NASA has done, the development of these unusually 
specific and special little instruments that we are now able to 
not only save lives but reduce morbidity and increase early 
diagnosis.
    So there is no question that the scientific community has 
benefited the rest of America and the rest of the world 
greatly. We can no longer discuss this. This needs to be a 
commitment from the executive branch and the leadership of 
Congress. If we delay it, we are playing into the hands of our 
competitors, and we, as America, want to win. We are winners.
    I might ask this one question. If we delay this 
Constellation Project, if we--you know, no decision and 
indecision is in fact is in fact a decision. So if we are 
making a decision to either delay or not make a decision, what 
is the effect of this on our community and the culture that we 
have developed in human spaceflight in America over the last 
four decades?
    Anybody can----
    Dr. Aubrecht. Let met take that. A very specific example, 
they said we are right in the middle of starting to execute the 
contracts that we have on the Constellation program. We have 
hired about 100 new engineers and technicians in Buffalo to 
support this program. If there is a break in the program, we 
are going to have to lay off the substantial majority of those 
people. So what message does that pass? It passes the message 
along is that we are not serious about doing this, and trying 
to hire other people on later on, people would not be 
interested.
    So I think as I said at the end of my testimony, you are at 
a very, very critical decision point, probably more critical 
than it has been in the last 15 or 20 years because the 
decisions that have been made in the last 15 or 20 years have 
been, we kind of work on it a little and we delay it. We work 
on it a little more and we delay it, and you have come to the 
end with the Space Shuttle in terms of what you can safely fly. 
So it is now or never. This is the time.
    Mr. Griffith. Thank you. Thank you, Madam Chair.
    Ms. Giffords. Thank you, Mr. Griffith. Next we will hear 
from Mr. Grayson.

        Impact of Previous Decisions on Current Status of Human 
                      Spaceflight and Loss of Jobs

    Mr. Grayson. Thank you, Madam Chairman. We seem to have 
reached something resembling a dead end in the space program 
right now, and it is going to take us years to figure out how 
to go in a different direction. I think the Augustine Report is 
an effort to try to simply figure out what direction that ought 
to be. And I am wondering how we reach this point. Sometimes 
the best way to figure out how to go forward is to take a look 
back. So I am going to ask each of you this question. The 
question is, what should we have been doing for the last 35 
years in the space program that would have led us to a better 
position than we are in right now, a position where we are 
looking at the loss of thousands of jobs in Central Florida and 
the loss of important skills that will be difficult to replace? 
Mr. Thompson?
    Mr. Thompson. That is a very tough question. I would point 
out that despite the challenges that we face today, the path 
that the country has followed over the last several decades in 
the human spaceflight are a has led to a much broader space 
industry than existed in the 1960s and the 1970s, so much so 
that today, using financial and employment metrics as a means 
of comparison, NASA can be congratulated for having spawned a 
commercial and national security space sector which 
collectively are much larger than our civil space sector.
    So while the programs of the past with the benefit of 
today's hindsight may not have been ideal, they were effective 
at developing the applications of space technology originally 
pioneered by NASA during the 1960s such that space today 
influences the everyday lives of virtually every American, 
whether it takes the form of the timing signals on an automatic 
teller machine when we go to the bank or credit card 
verifications at the gas station or directions navigating us 
through traffic from satellites, much of the underlying 
technology in these devices that we now take for granted traces 
its origins back to investments made several decades ago by 
government space programs. And so while the path perhaps hasn't 
been ideal, it has produced unexpected benefits for the economy 
and for the everyday lives of virtually all Americans.
    Mr. Grayson. Dr. Aubrecht?
    Dr. Aubrecht. Yeah. The Space Shuttle was only supposed to 
fly for about ten years. If you will go back and look at the 
original program of the Space Shuttle, it was only to fly for 
ten years. It was then to be replaced by a next generation 
manned space vehicle, and that should have happened by 1990. We 
participated in the study programs and the design of the 
preliminary design of those vehicles. It came along to a 
certain point and then again, the decision was made in the 
Congress that, well, the Shuttle is still flyable, NASA can get 
on with it. We don't have to fund this new program because it 
was going to be a very large incremental funding in order to be 
able to do this next generation vehicle. And the same thing 
happened again in the mid- to late-'90s. There was another 
study program that went on and again, the same decision. We are 
going to walk away from it.
    So in terms of looking, your question, looking at the past, 
I would suggest that both of those were just gigantic mistakes. 
The Shuttle is 1960s technology. You look at any of the things 
that is in there, and it is incredible that it has had as few a 
problems that it has had. It should have been replaced a long 
time ago. That was the fundamental error that was made with 
just not replacing it at the ten-year cycle when it was 
originally slated for.
    Mr. Grayson. Mr. Young?
    Mr. Young. Yeah, I will make three comments. One is when we 
look back, we should not under-recognize there have been some 
enormous successes, and you know, things are flying throughout 
the solar system right now that are mind-boggling.
    But more relevant to your question, I think there are 
really two areas in which we have dropped the ball. One is we 
transitioned from one system to another system. It is true in 
national security. Every one of our national security programs 
is facing a gap. It is true in our weather satellites. We are 
facing gaps. And it is true here. So why have we done that? And 
I think it is fundamentally, you know, driven by inadequate 
budgets and trying to get 10 pounds to 5-pound bag. 
Fundamentally, a whole new business or enterprise has developed 
called gap-fillers, and you know, there are programs that you 
hear about every day, a gap-filler for communications, a gap-
filler for this, a gap-filler for the other. So I think that is 
it.
    The third item I would add is we really have fallen back as 
I try to mention on miracle solutions. And my biggest worry is 
that we are going to latch onto another miracle solution to 
solve this problem as we go forward.
    Mr. Grayson. Thank you. My time is up.
    Ms. Giffords. Thank you, Mr. Grayson. We have time for one 
final question. Ms. Johnson.

                Importance of Science R&D and Education

    Ms. Johnson. Thank you very much. As I sit here and listen 
to the same information every year, this is my 17th year, I am 
increasingly concerned about how we do look after our 
scientific research for the future. We are a Nation that is 
beginning to spend less than developing nations on it, and yet, 
space exploration has offered us more than any other type of 
scientific research that we have in the world. With all of the 
products and the healthcare products, I do get concerned about 
the plan for the future because we know that we cannot do this. 
We cannot do it without good minds, and my concern is I have 
sat here and listened. In my State of Texas we have the nucleus 
of space exploration, and a lot of aerospace industry, and I 
see the involvement with some of the students. You must know 
that in Texas the majority of the college-age students are 
minorities. And many of the programs that I have seen does not 
have that diversity. And that continues to concern me because 
that means that is going to be the brain power for the future. 
It is going to be the brain power, so we might as well let them 
in and do more for the embracement of their education. We are 
going to require really highly skilled workforce. And I have 
said this so much until I think everybody is probably tired of 
listening to it. But it is so essential. No nation will ever 
progress or remain free without this research.
    And so we have just really got to do it. If I had a choice 
today between food stamps and science, I would go with science 
because in the future, it will offer us so much that we might 
not even need food stamps. But I know each of you, and I know 
your passion and your interest, and I just want to pledge to 
you that I am going to do everything I can. I have seen right 
here in this room on this Committee people that don't have the 
appreciation because they don't know what it does. As a matter 
of fact, when I first came here, the person who fought NASA and 
space exploration is now the Chairman of this Committee.
    And so we have got a long ways to go inside, and I hope we 
can get there. Sometimes I feel like I have to preach this 
sermon, but our education must start with K through 12 in order 
to have a good background. And they have to be nurtured and 
monitored and encouraged to keep on their course. We have got 
to improve the talents of our teachers, and America COMPETES 
has some capacity to do that. I would like to see it in action 
because we certainly need it for our future.
    Thank you. I don't have any questions of this panel. And I 
ask unanimous consent to put my statement in the record.
    Ms. Giffords. Thank you so much, Ms. Johnson. As we have 
heard, votes have been called, and so I would like to thank 
again our panelists for coming and testifying today. Today's 
hearing is not going to be the last time that we look at these 
issues, but it is an important time. It is the last time for 
the members of the Full Committee and the Subcommittee to 
really get a better feel of what you all are facing out there 
on the front lines of this national decision, and frankly, I 
believe it is a national crisis.
    We have had a chance to pick your brains. We have had a 
chance for you to provide us information. I would like to state 
that the record will remain open for two weeks for additional 
statements from members, also for any answers of questions that 
the Committee may ask of witnesses. But I also understand some 
of the panelists will have additional information that they 
would like to provide to the Committee, and we would welcome 
that information as well.
    With that, the witnesses are now excused, and the hearing 
is adjourned. Thank you very much.
    [Whereupon, at 12:00 p.m., the Committee was adjourned.]


                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Mr. David Thompson, President, American Institute of 
        Aeronautics and Astronautics

Questions submitted by Chairman Bart Gordon

Q1.  How would you characterize aerospace jobs in terms of skill 
levels, pay, and turnover as compared to jobs in other high-technology 
and research institutions? What are the key drivers for job growth or 
reductions in the aerospace workforce?

A1. Historically, many young people with an aptitude for technical 
subjects have been directly inspired by human spaceflight to pursue 
challenging engineering careers (as was demonstrated by the responses 
to the AIAA ``When did you know?'' campaign). Their imaginations were 
captured by the space exploration enterprise, providing a sustaining 
motivation for their career choices. A significant number of 
individuals so inspired became the aerospace professionals who enabled 
our nation to achieve its global technical lead in aerospace, which 
provided many international trade and security benefits to our nation. 
Other professions offer the opportunity for greater compensation than 
engineering. Human spaceflight provides evidence to many bright 
students that by being engineers, they can contribute to long-term 
goals that they may deem of such great importance that the opportunity 
to contribute to the achievement of those goals is more important than 
following a path that may offer greater personal wealth. In the long 
term, removal of the basis for such inspiration will reduce the number 
of young engineers entering the aerospace profession, who are needed to 
replace the current aging workforce. This will thereby impact critical 
national capabilities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Turnover industry-wide in the first five years of employment is 
about 20%. Skill levels are relatively high and require constant 
updating as new technologies are developed.
    The level of government spending is the key driver to aerospace job 
growth or shrinkage--in the human spaceflight area and across the 
board. Nearly three in five aerospace jobs are dependent on the federal 
government, through government spending on research and development, or 
through the government's role as a consumer of aerospace and aerospace-
related systems and components.

Q2.  The nation's space program and the aerospace workforce and 
industrial base that support it are critical elements of the nation's 
science and technology infrastructure. How important is the work that 
your companies and professionals perform on NASA projects as opposed to 
other projects to our national competitiveness and our capacity for 
innovation?

A2. First, NASA's projects tend to be highly visible and inspirational 
in nature. The ripple effects for American leadership by virtue of 
being first to put a human on the Moon are still being felt 
internationally. The Apollo-Soyuz mission also highlighted the 
potential of space in foreign affairs and tangibly eased tensions 
during a critical juncture of the Cold War. Skylab expanded the limits 
and capabilities of astronauts in space, as it conducted 2,000 hours of 
scientific and medical experiments, including eight solar experiments. 
The Viking missions to Mars awed a generation of schoolchildren and led 
them to wonder about the planets. Without question, many astronomers 
today can trace some of their initial professional impetus to the 
images beamed back from the Red Planet. Not much later, the debut of 
the Space Shuttle became the focal point of inspiration and aspiration 
for a generation of students and professionals. As our country seeks to 
attract more students into the ``STEM'' fields of science, technology, 
engineering, and mathematics, the type of headline projects that NASA 
historically has undertaken are indispensable.
    Second, since 1958 NASA's activities have produced countless 
technological transfers and commercial spinoffs that have boosted our 
standard of living. These have occurred in seven main areas: Health and 
Medicine (e.g., new polymer coats for implantable medical devices); 
Transportation (e.g., lithium battery power); Public Safety (e.g., 
space suit technologies that protect deep sea divers); Consumer, Home 
and Recreation (e.g., panoramic photography); Environmental and 
Agricultural Resources (e.g., web-based mapping); Computer Technology 
(e.g., integrated circuit chips to improve network efficiency); and 
Industrial Productivity (e.g., new technology to improve the welding 
process). NASA's activities in space almost inevitably contribute to 
our quality of life on Earth.

Q3.  What makes NASA's human spaceflight programs different from other 
NASA programs or other federally-sponsored research programs with 
respect to the workforce and industrial base that support it?

A3. It has been widely publicized that fewer American college students 
study engineering than in China or India, both in relative and absolute 
terms. The focus and inspiration that human spaceflight creates, as 
noted above, helps to ensure that more students at least consider a 
career in the STEM fields than would otherwise. Indeed, for over 50 
years, NASA's manned flight programs have provided a locus for the 
burgeoning scientific interest of America's youth. With 75% of NASA's 
workforce now at least 40 years old, it is important for the Agency to 
retain a powerful allure for younger scholars and professionals if it 
hopes to perpetuate a vibrant culture of innovation and achievement. 
Without a workforce of sufficient talent and size, other countries will 
find it increasingly easy to surpass the United States in space-related 
technology. Our country would lose a critical edge in both foreign 
affairs and the global economy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q4.  The aerospace workforce is described as a highly-skilled and 
highly-trained workforce. I'd like to get your insights, as leaders of 
this community, on what it means to develop this highly-skilled 
workforce? What is entailed in fostering a critical skill in this 
field? And, if decisions are made that disrupt the need for those 
skills and capabilities, how easy or difficult is it to bring those 
skilled workers back online?

A4. A successful career in aerospace engineering requires core 
competency in math and science, demands insight into the nuances of a 
broad range of technologies, benefits from an aptitude for problem 
solving, and needs frequent insights in how to overcome system 
integration challenges. Training for the personal mental discipline to 
develop these skills must begin at an early age (no later than middle 
school) and must be accompanied by goals tied to an external source of 
inspiration that can motivate the personal sacrifice associated with 
mastering those disciplines. Pre-college preparation, a suitable, 
specialized college education, and often additional graduate studies 
are needed to fully develop the knowledge and professional skills 
required of aerospace engineers. The full formulation of the applicable 
engineering skills during college and graduate studies must also 
include opportunities to tackle and solve relevant system design, test, 
and demonstration challenge problems, which necessitate access to 
suitable laboratories and sponsoring research initiatives.
    At all preparatory education levels, and especially at the start of 
an aerospace career, aspiring engineers need mentors that have already 
tackled and mastered design challenges. The mentors transfer the unique 
knowledge of practical experience, processes, and lessons learned from 
prior successes, and maybe more importantly, from prior failures. The 
young engineers then need the opportunity to apply themselves in 
programs where their full range of newly acquired skills can be tested 
and honed. Lengthy gaps in support of specific technical areas result 
in loss of painstakingly acquired knowledge and capabilities, and 
finite resources and time are subsequently needed to re-learn past 
lessons and to resurrect what was already done.
    There are several dimensions to that skilled aerospace workforce 
that one must consider; scientist/engineer is one level, technician is 
another.
    Technician--the workers who process launch vehicles, and work on 
the production floors for satellites and rockets, have unique skills 
that take either specialized training or on-the-job experience. An 
error in soldering or welding or fastening connectors can lead to a 
failure on launch or on orbit, so having qualified people in this part 
of the workforce is very important. There are certification programs 
available at several community colleges near aerospace facilities, and 
every company maintains a substantial training program. Because these 
are skilled, disciplined workers, they are often attractive to 
employers outside aerospace. In an area such as Florida, where there's 
the potential for the loss of thousands of jobs as the Shuttle is 
retired, it's likely to be difficult to attract these workers back if 
we need them for a program that starts flying 5-10 years in the future.
    Engineer--the people who design, develop, and oversee the 
production of aerospace systems, as has been mentioned, take far longer 
to achieve the skills necessary to be a productive worker. Virtually 
all have undergraduate degrees in a technical field, and many have some 
graduate education. For that to happen generally requires some emphasis 
on math and science in high school, so the ``pipeline'' to enter the 
profession is often at least 8-10 years. The evolution from an entry-
level engineer who is qualified to work on specific issues (structures, 
guidance, propulsion, etc.) to one who is capable of providing 
technical oversight for a major project, a satellite or launch vehicle, 
is a decades-long process. From one perspective, there are too few 
scientists and engineers entering the aerospace workforce to ensure the 
necessary population will be there 10 and 20 years in the future. 
However, because the number of programs has declined significantly 
across almost all areas of aerospace, there are enough scientists and 
engineers to fill current needs. The problem is that as some of those 
entering now leave for other jobs or other reasons, there is 
substantial risk that there will be a shortage of experienced engineers 
in the future. That's a problem that will be very difficult to solve 
because of the long time it takes to train and ``mature'' that part of 
the workforce.
    These are not simple programs that can start and stop without 
significant costs both in investment and in institutional knowledge. As 
you lose the existing workforce in any given program, it is very 
difficult to attract competent, willing professionals to pick up the 
pieces. There is then a lag time as those professionals have to piece 
back together the previous program and determine the best approach for 
moving forward. Without some certainty in this programs and this field, 
it is very difficult to maintain--much less grow--the pipeline of 
competent, competitive professionals to support this sector.
    Another facet to consider is that a relationship has existed 
between the aerospace industry and the auto industry that has provided 
a stopgap during program reductions and changes in vision. Between 
these two sectors, as one industry faced stagnation and reduction, the 
existing workforce had some ability to move into the other sector. This 
relationship has served to keep competent experienced individuals 
employed and increasing their skill sets, and often broadening their 
approach to overcoming engineering challenges within each discipline. 
However, with the current uncertainties in the short- and long-term 
health of the auto industry, there is not an apparent safety net for 
those aerospace professionals if there is a long- or even short-term 
reduction of existing programs and platforms to support.

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  Mr. Thompson, you noted that ``one danger . . . is that the levels 
of human capital needed to sustain a robust national human space 
program will drop below critical mass.'' How do we know when we've 
reached that critical point? How serious is this issue for what our 
nation can or cannot do in future human spaceflight and exploration?

A1. There are a number of specific technical disciplines needed to 
develop and integrate subsystems and systems associated with human 
spaceflight (encompassing launch vehicles, spacecraft, and the 
supporting research and operational infrastructure). Furthermore, there 
are the disciplines that are needed to support significant technical 
advances in human spaceflight, such as life sciences and microgravity 
research. Given this array of disciplines, an assessment can be made of 
the number of active professionals and managers with applicable skills 
at each of the major organizations involved with associated system 
developments (including both government and industry organizations). If 
these organizations have identifiable skill gaps that are not easily 
filled, or they have insufficient staff in any specific skill area that 
cannot be easily remediated to cover the projected program needs, then 
a critical mass does not exist to do the job, and the success of these 
development programs is at risk. In addition, the demographics of this 
workforce matters. If the available workforce to develop these systems 
is skewed toward too many who can retire soon, then the workforce 
critical mass is at risk of being lost soon. Furthermore, if the flow 
of students who are U.S. citizens into applicable college and graduate 
school curricula is insufficient to provide a pool of prospective 
capable replacements for impending retirees from the profession, then 
that is another indicator of impending loss of critical mass.
    Once the workforce critical mass is lost, programs either fail, or 
cannot go forward, which exacerbates the problem by pushing more 
experienced professionals out of the field, often permanently. 
Subsequently, trying to reestablish the workforce critical mass will be 
exorbitantly costly, will take years to accomplish, and will reduce our 
national capabilities in the field. This in turn may enable other 
nations to assume the role of the new aerospace and human spaceflight 
leaders.
    Much of the knowledge for engineering human spaceflight and 
exploration missions is experiential knowledge. When those 
professionals who have the experience leave the business, those years 
of important operational knowledge disappear as well. It would be very 
costly and take a long time to grow that operational knowledge in a new 
workforce, thus limiting what can be done with finite national 
resources for exploration.

Q2.  Aerospace organizations compete with other high-technology 
institutions for talented workers with education and experience in STEM 
fields. How easy or difficult is it to attract talent to aerospace 
positions?

A2. Almost no one comes into aerospace ``casually.'' The coursework at 
college is demanding, the compensation is generally below that of 
comparably educated, technical workers entering the job market, and 
there are more persons graduating with degrees in aerospace engineering 
than there are available entry-level positions. Therefore, the students 
in aerospace are usually there because they have a passion for it. 
Aerospace also attracts graduates from other disciplines that are 
critical to building aerospace systems--mechanical engineering, 
electrical engineering, computer science, physics, mathematics, 
chemistry, etc. Again, they enter aerospace because of the excitement 
of the area, and the downturn in new programs can't help but have a 
negative effect on our ability to attract the best and the brightest.
    The ability to capture the imagination and to inspire is countered 
by the lack of consistency in programs and the marketplace. Many of the 
high-tech fields, especially those in automation, computer sciences, 
and information technology, offer the excitement of entrepreneurial 
opportunities and quick success. That is the also part of the promise 
of the growth of commercial space. It offers that additional element 
that attracts this latest generation of STEM professionals.
    Cultural issues remain, however. Many from this new generation of 
STEM professionals list two specific facets as motivation: the desire 
to be an integral part of or to lead a research program, and the 
opportunity to work on something that is going to have a significant 
impact on the human condition. On that first point, aerospace is very 
challenging because as a mature technology sector there are generations 
of professionals who have earned leadership roles through experience, 
expertise, and achievement. On the second point, the green technology 
sector is capturing a lot of that exuberance on the edge of technology. 
The aerospace sector is likely to play an increasingly important role 
in this area, but it has yet to gain the necessary visibility to 
attract more of young professionals into aerospace.

Q3.  How are the knowledge and expertise gathered through our 
experience with the first fifty years of space activities, including 
the ability to design, develop, and operate a human lunar program and 
space transportation system, being passed on to the next generation of 
aerospace professionals? How perishable is this knowledge and 
expertise?

A3. Many of the young professionals who worked on the Apollo, Gemini, 
and Saturn programs are now in the waning years of their careers. 
However, if there is a silver lining to the current economic downturn, 
it is that many of these professionals are postponing retirement, 
providing an opportunity to capture their experiences and institutional 
knowledge to retain that knowledge base.
    That being said, within 10 years many of those remaining 
professionals will retire, and unless we seize this moment, that 
opportunity will be lost, and future aerospace professionals will not 
be able to gain from those experiences and lessons from those early 
programs.
    It has been decades since a vehicle such as the Shuttle was built, 
or propulsion systems of the size and complexity of the Space Shuttle 
Main Engine or the large Saturn V engines. On the other hand, new 
engines were developed for the Delta IV and the SpaceX Falcon series. 
Satellites far more complex than anything flown in the first 20 years 
of the space are ``routine'' products today. The people that designed, 
built, and operated the Mercury/Gemini/Apollo systems, or the early 
military or intelligence systems, had far less accumulated experience 
and available information than those who will design the next 
generation system. No question that it is important that we capture the 
experience of the past, but this is an ongoing process, done within 
every aerospace company and, I hope, within the government. In one 
sense, the worst thing we can do in terms of moving forward is to rely 
too heavily on those who built the systems 20, 30 and 40 years ago. We 
need to have them help guide the current generation of professionals, 
while allowing these extremely bright and innovative young people 
substantial freedom to try things, experiment, and occasionally fail, 
fix, and recover.

Q4.  Your organization represents over 36,000 aerospace professionals 
and students, as you note in your prepared statement. Given that AIAA 
membership includes students, early-career, mid-career, and senior-
level aerospace professionals, what issues are most important to each 
of those segments of the workforce and how can the needs of the 
different groups be balanced?

A4. Though there are differences among needs at different stages of 
professional development, what is similar among the groups is that they 
all draw inspiration to continue to achieve and continue to invest 
their talents from the continuation of an exciting set of spaceflight 
programs.

Questions submitted by Representative Pete Olson

Q1.  In your testimony you talk about the gap that existed between the 
end of the Apollo program and the beginning of the Shuttle program. You 
said NASA's early Mercury, Gemini, and Apollo programs attracted young 
individuals into the aerospace workforce, and some of those who 
remained in the workforce formed the core expertise behind the 
development of the Space Shuttle and later the International Space 
Station programs. As a result, today's aerospace workforce is generally 
older than the Apollo workforce was in the 1970's, and a significant 
percentage is eligible to retire over the next ten years. How does this 
older workforce make today's situation more problematic and complicated 
than in the 1970's? What should be done to minimize the loss of 
critical skills?

A1. As you point out, in the Apollo era we were starting the 
development of a skill set of doing lunar missions from square one. At 
that time, we had a comparatively large resource base to invest in the 
endeavor, and could afford the building up of a skill set starting from 
scratch. What's different today is that we indeed do have the people 
currently in the workforce who have the experiential knowledge to help 
us go back to the Moon and we need to retain the investment in them 
that this country has already made. In addition, we do not find 
ourselves in an era of large budgets for space exploration, as was the 
case in Apollo. We cannot afford to spend additional money re-learning 
the lessons of Apollo that could instead be retained simply by keeping 
the current knowledge base employed.
    Today's aging aerospace workforce poses at least two problems: 1) 
There is a need to replace these workers with younger engineers, and to 
capture and transfer the experienced engineers' knowledge and lessons 
learned for use by those younger engineers; 2) The fresh perspective 
and thinking provided by young engineers that helps to find novel 
solutions to the problems at hand is less prevalent when the workforce 
demographics and/or hiring gaps limit the number of young engineers 
involved in the profession. To mitigate those problems, programs are 
needed that justify and motivate hiring young engineers combined with 
incentives to retain the older engineers in organized mentoring and 
knowledge capture activities. In parallel, programs are also needed to 
better prepare students for analytical thinking and technical careers 
at all educational levels. From an engineering workforce perspective, 
the gap between Apollo and the Shuttle is very different than the gap 
that will likely exist between the Shuttle and the next generation 
transportation system, or capability. The important ``gap'' between 
Apollo and Shuttle was between the development times. The first Saturn 
I rocket was launched in 1961. The first Apollo-capable Saturn V was 
launched in 1967.
    The first Shuttle launch was in 1981, fourteen years later. It is 
now almost thirty years since the first Shuttle launch, and we are 
still many years away from the first launch of a Saturn or Shuttle-
class heavy lift vehicle.
    Not only can we not rely on the Apollo/Shuttle era workforce to 
produce the next generation systems, it would be foolish to do so. 
Space transportation needs to work toward the same kind of incredible 
advancements that we've seen in the satellites that the rockets carry 
to space. In 1963 a Delta rocket placed a communications satellite in 
geosynchronous orbit. In 2003 a Delta II--an upgraded version of 
essentially the same rocket with solid rocket boosters--launched the 
now famous Mars Rovers. In December last year, the same rocket launched 
NASA's Wide field Infrared Survey Explorer. A Delta engineer, seeing 
the three rockets, would have known exactly what they were and how they 
would perform. An engineer from the SYNCOM-era would find the Mars 
Rovers to be almost inconceivably complex and capable. The same would 
be true if he or she saw any of the communications satellites that are 
flowing down our production line today. It is time to turn the clock 
forward, not backwards, on space transportation. We need to do the 
basic research and development so that in 20 or 30 years the United 
States is once again building and operating the finest space 
transportation vehicles in the world. To do that, we need to get young 
people engaged in exciting, new work. If we have that kind of challenge 
to put in front of them, they will come--just as they did for Mercury 
and Gemini and Apollo. It is not something that industry is able to do 
on its own--we are too constrained by short- and mid-term finances. 
Industry can do a great job delivering the payloads of the next decade 
or two, using vehicles that are flying now, or based on technology that 
is well in hand. But, that commitment to the future, to once again 
being the best in the world, is exactly the kind of thing that only the 
government was able to do in those earlier days, and that it can and 
should be doing again today.

Q2.  Norm Augustine suggested that his panel did not adequately address 
the erosion of the Industrial Base in their report. In your view, is 
this issue getting the appropriate level of attention from the 
Administration's decision-makers? What recommendations do you have for 
Congress to ensure that impacts to the industrial base are properly 
evaluated and addressed in the current process?

A2. When addressing the issue of a declining industrial base, there are 
many facets that one must consider beyond the ability to support the 
human spaceflight program. There are two specific topics that have been 
discussed at length before this committee in recent years that are 
having a tremendous effect upon the national aerospace industrial base. 
The first is inspiring, educating, and retaining a highly competent 
professional workforce that excels in an ever more competitive global 
marketplace. A second issue that has been identified by this committee 
is the impact that our current export control regime, and specifically 
the International Traffic in Arms Regulations, has had on our 
industrial base, while inadvertently helping create and assist the 
growth of industry competitors abroad.
    The Congress needs to continue to seek and invest resources into 
programs that encourage more young people to enter the STEM fields, 
equipping them with ample classroom and laboratory learning and 
training opportunities to foster interest and develop core 
competencies. This country currently lacks sufficient homegrown talent 
with the requisite proficiency to retain our competitive edge. It 
wasn't so long ago that the U.S. was able to attract the best and 
brightest students from around the world. However, many of those same 
students now have opportunities at home, and are finding a greater 
global marketplace to sell their talents. To bridge that growing gap of 
talent lost to global competitors, we must commit ourselves to 
developing our youth to support the needs of the next generation 
workforce.
    After several years of moving towards tightening and retaining 
export controls, there appears to be some recognition of the harmful 
effect that over-regulation is having on our industrial base, and thus 
on our national and economic security. The aerospace industry has 
already seen a dramatic decline in secondary and tertiary 
subcontractors. Both in Congress and in the Administration, we have 
begun to see a willingness to examine our current policies and consider 
changes that will help increase our competitiveness while retaining 
technological advantages critical to our national security. I believe 
it is going to require substantial leadership in this area if we are to 
see any meaningful changes. I see this as a major challenge to shoring 
up and hopefully growing our industrial base in the long term.
                   Answers to Post-Hearing Questions
Responses by Ms. Marion C. Blakey, President and Chief Executive 
        Officer, Aerospace Industries Association

Questions submitted by Chairman Bart Gordon

Q1.  The nation's space program and the aerospace workforce and 
industrial base that support it are critical elements of the nation's 
science and technology infrastructure. How important is the work that 
your companies and professionals perform on NASA projects, as opposed 
to other projects, to our national competitiveness and our capacity for 
innovation?

A1. The work on NASA projects is very important to our companies, large 
and small alike. For some of our larger companies, entire facilities 
are dedicated to developing space programs; for some smaller companies, 
NASA space programs are their main livelihood. As a result, cancelling 
NASA programs can affect the workforce of entire regions. In addition 
to economic impact, NASA programs are also valued by companies because 
they help drive innovation. The unique knowledge gained by working on 
space programs has contributed positively to companies' work in other 
areas and other industries, such as health and medicine. Research that 
provides cross-cutting benefits like NASA programs sustains our 
national competitiveness and capacity for innovation.

Q2.  How would you characterize aerospace jobs in terms of skill 
levels, pay, and turnover as compared to jobs in other high technology 
and research institutions? What are the key drivers for job growth or 
reductions in the aerospace workforce?

A2. As listed by the Bureau for Labor and Statistics, aerospace jobs 
are high-paying compared to other industries. For example, engineers in 
aerospace product and parts manufacturing earn $44.27 per hour compared 
to $42.58 in other industries. Mechanical engineers earn $39.01 per 
hour compared to $36.02 in other industries. Inspectors, testers, 
sorters, samplers and weighers earn $22.10 per hour compared to $15.02 
in other industries. Machinists in aerospace earn $19.49 compared to 
$17.41 in other industries.
    The proportion of workers with education beyond high school is 
larger in the aerospace industry than the average for all industries. 
In addition to training requirements and high skill-level, workers in 
defense-related aerospace companies often need to be able to obtain a 
security clearance. Aerospace jobs at the entry level for professional 
occupations primarily require a bachelor's degree in a specialized 
field such as engineering. At the ``production-level'' it typically 
requires a high school diploma and additional vocational training at 
community colleges and technical schools.
    AIA is in the process now of collaborating with other industry 
associations to compare data including turnover rates. Within our 
industry, the highest turnover for aerospace employees are those with 0 
to 5 year experience. Anecdotally, it is speculated that these 
employees are likely going to other industries such as IT.

Q3.  What makes NASA's human spaceflight programs different from other 
NASA programs or federally-sponsored research programs with respect to 
the workforce and industrial base that support it? What capabilities 
are most critical to retain in the aerospace workforce and industrial 
base to ensure we continue to maximize our odds of successful and safe 
human spaceflight?

A3. Making spaceflight programs safe for humans adds an additional, 
necessary component to human spaceflight programs. As we move towards 
retirement of the shuttle and development of a new vehicle it is 
critical that we have a workforce that is experienced in the 
development and systems integration of human-rated space vehicles. 
Workers with this type of skill set were most utilized during the 
Apollo era and development of the shuttle in the 70s. In recent times, 
the major activity at the agency has shifted from the development of 
human-rated vehicles to robotic vehicles. Given this focus, project 
managers and systems engineers with experience in developing human 
vehicles are rare and their numbers will continue to decrease. 
Utilizing this group's knowledge to develop our next vehicles and train 
new professionals in this skill set is necessary now.
    Additionally, the need to maintain our mission operations workforce 
is also critical. As we move towards a new human-rated vehicle, 
experienced mission operations personnel working on the shuttle could 
likely transfer their skill set to the new vehicle, but if there is a 
large gap between the retirement of the shuttle and the launch of this 
new vehicle there is a risk of losing these skilled individuals.

Q4.  In your written testimony, you note that ``when Lockheed Martin 
was hiring for CEV they had 10 high-qualified resumes for each job.'' 
That suggests that aerospace can attract high-quality talent. Once you 
get that talent, what is needed to keep them involved in aerospace as 
opposed to having them go off to other high-technology fields?

A4. AIA is currently coordinating with Aviation Week and NASA on a 
survey of young aerospace professionals and college students to address 
this question. The catalyst for this survey was a finding by Aviation 
Week that young professionals with 0 to 5 years of experience have the 
highest voluntary attrition rate (almost 16%) in the industry. We have 
anecdotal evidence that the key to retaining these young professionals 
is their feelings that they are: 1) doing exciting work, 2) feeling 
engaged and involved, and 3) contributing to work that will make a 
positive societal impact.
    At previous AIA & AIAA sponsored conferences, dedicated panels of 
young professionals have discussed programs at their workplace that 
have kept them involved. These programs involved teamwork, mentoring 
programs and working on projects where they are active participants and 
where they can see the results (e.g., an operationally responsive space 
project that requires a fast turnaround).

Q5.  The aerospace workforce is described as a highly-skilled and 
highly-trained workforce. I'd like to get your insights, as leaders of 
this community, on what it means to develop this highly-skilled 
workforce? What is entailed in fostering a critical skill in this 
field? And, if decisions are made that disrupt the need for those 
skills and capabilities, how easy or difficult is it to bring those 
skilled workers back online?

A5. Keeping an experienced incumbent workforce continuously engaged is 
critical especially in regards to human spaceflight safety (see also #3 
above). A gap in mission operations could lead to a decrease in 
practice of these valuable skills, which could jeopardize the safety of 
future missions. The current gap in development of human-rated vehicles 
(the last program was between Apollo and the space shuttle in the 70s) 
has already lead to a shortage of project managers and systems 
engineers who have experience with this type of work.
    Development of the future workforce is a concern because it takes 
several years for an aerospace professional to develop, whether they 
are a technician that requires additional vocational training after 
high school or an engineer that requires at least a bachelor's degree. 
Consequently, disruptions to inspirational projects could have a 
negative effect on the numbers of young people that pursue these types 
of careers. Additionally, the number of schools that offer training in 
these fields may decrease if enrollment in those programs falls.
    If decisions are made that disrupt the need for those skills and 
capabilities, it's not only a question of how easy it is to bring those 
skilled workers back online--it's very difficult--but also how long. 
The process of inspiring and training workers is decades-long.

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  To what extend do agencies such as the DoD count on the industrial 
base that supports NASA activities for defense-related programs? What 
are the implications for the DoD and national security actives if 
NASA's human spaceflight plans would no longer require certain 
industrial base capabilities?

A1. Our space efforts are deeply intertwined between commercial 
ventures, civil programs and national security space programs. Many of 
the same companies support all three ventures, sometimes with the same 
equipment. For example, the GPS program is administered by the 
Department of Defense, yet countless civilian and commercial 
applications render the system indispensable. Similarly, commercial, 
civil and national security payloads are often placed in orbit by the 
same types of launchers. Therefore, when one program is canceled or 
delayed, the impact can easily spread across our space industrial base.
    Reducing our civil space R&D effectively reduces the overall 
investment to our space industrial and technology base. Even though the 
space industry has the ability to move talent between programs, and to 
share resources (such as components for satellites, launchers or the 
solid fuel for launch systems which is provided by a single company for 
commercial, civil and national security projects), a reduction in any 
one aspect of R&D ultimately affects the entire resource pool.
    NASA's R&D is largely driven by developing or improving human-rated 
systems. A reduction in human exploration R&D would significantly 
reduce the overall pool of space R&D that benefits the nation.

Q2.  Your written statement talks about the importance of a space 
program that inspires younger people and attracts them to the aerospace 
workforce, especially as increasing numbers of that workforce become 
eligible to retire. How serious is this issue for what our nation can 
or cannot do in the future of human spaceflight and exploration? What 
economic impact on the aerospace industry if the required technical 
workforce is not there when you need it?

A2. The issue of a retiring workforce and attracting the future 
workforce is serious. According to the latest Aviation Week survey, 
17.3% of the engineering workforce will be eligible to retire by 2013. 
In research and development retirement eligibility will be 24.8%. Among 
engineering technicians, 22.1% will be retirement eligible. In touch 
labor, 19.5%. This equates to thousands of the aerospace workforce 
becoming eligible to retire in the next 3 years.
    As this workforce retires, attracting and retaining the future 
workforce is critical. The replacement costs for lost workers are 
extremely high. For example, replacing a young professional in an 
engineering or technical profession costs approximately 300% of that 
individual's base salary. Keeping a robust human spaceflight and 
exploration agenda will not only help retain critical skills in 
industry, but also help the private sector avoid having to replace 
workers at a high price.

Q3.  How are the knowledge and expertise gathered through our 
experience with the first fifty years of space activities, including 
the ability to design, develop, and operate a human lunar program and a 
space transportations system, being passed on to the next generation of 
aerospace professionals? How perishable is this knowledge and 
expertise?

A3. Knowledge management practices are critical for the industry due to 
complex nature of aerospace and defense programs. In Aviation Week's 
survey it was found that 70 percent of the industry uses ``Intranet 
Portals'' for knowledge management, followed by 65 percent who use a 
``Knowledge/Content management system'' and about 50 percent who 
utilize an ``apprenticeship'' model featuring subject matter experts 
who mentor young professionals. While a computer may be useful for 
maintaining knowledge, the hands-on learning that comes from an 
apprenticeship is paramount, especially in regards to spaceflight 
missions that require human safety. As mentors with these abilities 
disappear over the years, their knowledge and expertise perish with 
them.
                   Answers to Post-Hearing Questions
Responses by Mr. A. Thomas Young, Executive Vice President (Ret.), 
        Lockheed Martin Corporation

Questions submitted by Chairman Bart Gordon

Q1.  Having co-chaired a study on the space industrial base, are there 
finding from that assessment and should be brought to bear on the 
decisions being made on NASA's future and funding?

A1. The Space Industrial Base study was conducted in 2007. At that 
time, the space industrial base was considered healthy with some areas 
of concern being associated with second and third tier suppliers. 
International competition was cited as rapidly growing with U.S. 
preeminence in space under challenge in many areas.
    The space industrial base will continue to be healthy only if it is 
used to implement challenging programs. A gap in development challenges 
will result in significant loss in expertise that will take decades to 
recover at a very high cost. Decisions on NASA's future and funding 
must consider the impact upon the industrial base. While jobs are 
important the expertise of the base should be of primary consideration.

Q2.  To what extent do agencies such as the Department of Defense count 
on the industrial base that supports NASA activities for defense-
related programs? What are the implications for the DOD and national 
security activities if NASA's human spaceflight plans would no longer 
require certain industrial base capabilities?

A2. The DOD and NASA utilize and depend upon the same space industrial 
base. A change in direction in the programs of one organization can 
have significant adverse impacts on the other organization. When making 
major decisions on direction of the DOD or NASA space program, the 
impact on both organizations must be understood and considered. To 
assume proper coordination between national security and civil space 
programs, the U.S. needs a national space strategy and a Space Council 
to oversee the strategy's implementation.

Q3.  The nation previously experienced a gap in U.S-provided access to 
space between the end of the Apollo program and the first flight of the 
Space Shuttle. What did we do right and what did we do wrong with 
respect to the workforce and industrial base during that time? What 
lessons learned are most applicable to the current situation and the 
decisions on NASA's funding and human spaceflight plans that Congress 
and the White House must make?

A3. A significant difference exists between the end of Apollo gap and 
the end of the Space Shuttle gap. There was no operational requirement 
for space transportation as current exist with the space station. This 
will result in significant resources being used to acquire 
transportation to and from low earth orbit from Russia. Resources that 
will not be available to support the U.S. industrial base.
    There are also significant similarities in the respective gaps. 
Namely, both represent the end of a major program heavily involved in 
operations and the beginning of a development program. The result was 
and is the loss of technical operating jobs. A lesson learned is that 
critical expertise can be maintained if there is no significant 
technical gap. That is, the following program is initiated in parallel 
with the program which is being concluded. That is the course we were 
on with the Constellation program. While technical operating jobs would 
be lost, critical technical expertise would be maintained in NASA and 
industry.
    A significant gap in utilizing this technical expertise in program 
development will have a devastating effect on the space workforce.

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  In your prepared statement, you state that ``A detailed 
exploration plan with destinations, dates and implementation plans is 
needed.'' What, in your view, is involved in developing such a good 
plan?

        a.  What can be held up as a model?

        b.  What would you recommend Congress do in the absence of such 
        a plan from NASA?

A1. There are many examples of NASA programs with excellent plans. 
Apollo and the Mars robotic programs are two superb models. Most 
successful programs are characterized by detailed plans that focus the 
efforts of diverse organizations required to work together to 
accomplish a defined objective. A primary responsibility of leadership 
is to establish a detailed implementation plan with all the definition 
needed to provide program direction. Destinations, dates, etc. and 
required elements of the plan.
    Failure to provide a detailed implementation plan is a failure of 
leadership and will result in a failed or highly inefficient program.
    A budget without a detailed implement plan is an oxymoron. Congress 
should refuse to approve a budget without first having and approving a 
detailed implementation plan.

Q2.  As a seasoned aerospace professional who has led and overseen the 
development of many complex, expensive military and civilian 
spacecraft, what, from your perspective, are the most significant 
challenges in implementing NASA's proposed plan for purchasing 
commercial crew services for access to low-Earth orbit?

        a.  Does the administration's estimated price tag of $6 billion 
        and estimated 5-year time horizon to establish commercial crew 
        capabilities across multiple commercial providers make sense?

        b.  What further information would you want to see in order to 
        develop confidence in the proposed timeline and budget for this 
        type of development project?

A2. Space projects are hard. Even with the application of our best 
capabilities all are not successful. We have developed a methodology 
that maximizes the probability of success. This methodology utilizes 
NASA's extraordinary leadership and continuity of human spaceflight 
expertise and the implementation capability of industry which is second 
to none. This partnership is a model that is tested, proven and 
continuously improved. Why would anyone make a drastic, unproven change 
to this methodology? Risk of such a change are enormous and involve 
mission, schedule, cost, workforce and space program risks.
    I do not believe the $6B cost or 5 year schedule are realistic or 
supported by experience. I have seen no analysis that support these 
budget and schedule numbers.
    I would not approve commercial crew without extensive proof of 
capabilities with flight performance. Commercial cargo can be a first 
step followed by non-NASA commercial crew demonstrations. I do not 
believe this can be accomplished on a schedule that will allow 
repetitive commercial crew flights to space stations prior to 2020.

Q3.  The FY2011 request proposes $3.1 billion over five years for 
research in heavy-lift and propulsion technology. One of the areas this 
budget line is to emphasize is development of a first stage engine, and 
in particular, a hydrocarbon engine that would be used for a future 
heavy-lift vehicle. The congressional budget justification also 
indicates the projected level of funding is anticipated to lead to an 
operational engine by the end of the decade.

        a.  How important is the development of a new first stage 
        engine, and in particular a hydrocarbon engine to development 
        of a future heavy-lift vehicle?

        b.  Does the proposed budget and timeline make sense, in your 
        view?

A3. The budget and timeline do not make sense to me. I am a strong 
supporter of technology development and I believe a human spaceflight 
technology program with mission focus is needed. However, I believe we 
have the capability to start heavy-lift today. Heavy-lift is dependent 
upon funding authority not a 5 year technology program. The $3.1B would 
be better utilized to start the heavy-lift development.

Q4.  How will the absence of a specific exploration goal, timeline, and 
mission affect the advanced technology programs that the Administration 
is proposing?

        a.  Are there any lessons learned from previous technology 
        programs that Congress should consider?

        b.  In your statement, you noted that ``NASA, with appropriate 
        outside support, should define the required technology 
        program.'' What type of outside support would be involved and 
        from what institutions?

A4. A technology program without mission focus often results in an 
inefficient, ``hobby shop'' approach. The technology developed in such 
an environment results in technology that satisfies the technologist 
but not the mission need.
    The Mars robotic program has been a highly effective and focused 
technology endeavor. Rover, atmospheric entry, landing, electronics, 
etc., technology development have all supported a highly successful 
program.
    I believe the best source of outside support is the National 
Academies. The Academies National Research Council (NRC) has the 
capability to make available extraordinary individuals to conduct 
reviews of NASA's technology program. Emphasis should be given to 
individuals with space project experience to assure the focus factor is 
not lost. I should note, I am a member of the National Academy of 
Engineering and the NRC Space Studies Board.

Questions submitted by Representative Pete Olson

Q1.  You have noted that today's aerospace workforce is generally older 
than the Apollo workforce was at the time of the last major gap between 
the Apollo and Shuttle programs in the 1970's, and a significant 
percentage of the current workforce will be eligible to retire over the 
next ten years. How does this older workforce make today's situation 
more problematic and complicated than in the 1970's? What should be 
done to minimize the loss of critical skills?

A1. A healthy workforce requires the contemporary intellectual 
capability, exuberance and the belief that the impossible is achievable 
of youth and the experience, wisdom and appropriate respect for risk, 
represented by maturity. Today the aerospace workforce is somewhat 
unbalanced in the direction of maturity. While retirements will result 
in the loss of critical skills, this is reality and must be compensated 
for by attracting the ``best and brightest'' young professionals to the 
workforce. This can only be accomplished by having challenging and 
interesting work, the opportunity to work with and learn from 
extraordinary leaders and the privilege to work on projects of 
sufficiently short duration to allow individuals to see the impact of 
their contributions. If leadership will establish a program with the 
cited characteristics, the workforce challenges will solve themselves.

Q2.  Our subcommittee has received testimony that the funding 
instability in the Constellation program has complicated the challenges 
of managing workforce retentions, transitions, etc Dr. Ken Ford, chair 
of the NASA Advisory Council said, ``The current budget environment is 
jeopardizing the future of U.S. human space flight at a time when NASA 
has made significant progress toward development of the new Space 
Transportation Architecture.'' Assuming the President does not take an 
active leadership role in the issues facing NASA's human space flight 
program, with the likely result that OMB continues to starve NASA of 
funds in an effort to contain a runaway federal budget, how will a no-
growth budget environment affect the industry, the workforce and the 
Aerospace and Defense industrial base? How would the aerospace and 
defense supplier base be affected if the Ares 1 program were 
terminated?

A2. I have had the privilege to work at several levels in the public 
and private sector. This has included being Director of NASA's Goddard 
space Flight Center and President/COO of Martin Marietta.
    A common observation in each of these experience, is that the 
budget/financial entities are critically important to the success of 
the organization, but should not be the source of strategy or 
priorities. When the budget organization establishes strategy either by 
design or absence of leadership, mediocrity is typically the result.
    Leadership of organizations, the President, Corporate Executives, 
NASA Executives, etc. are responsible to define strategy. Budget 
entities such as OMB are responsible for funding the established 
strategy and performance monitoring.
    Impact of Ares I termination on the Aerospace and Defense supplier 
base depends upon the potential replacement program. If there is no 
replacement or a replacement is scheduled many years in the future, the 
termination will have a major adverse impact on our national 
capabilities.


                   Answers to Post-Hearing Questions
Responses by Dr. Richard Aubrecht, Vice Chairman of the Board, Vice 
        President, Strategy and Technology, Moog, Inc.

Questions submitted by Chairman Bart Gordon

Q1.  The aerospace workforce is described as a highly-skilled and 
highly-trained workforce. What does it mean to develop this highly-
skilled workforce? What is entailed in fostering a critical skill in 
this field? And, if decisions are made that disrupt the need for those 
skills and capabilities, how easy or difficult is it to bring those 
skilled workers back online?

A1. The vast majority of the aerospace workforce is engaged in highly 
specialized activities that require years of training and experience to 
be really effective and productive. There must be a zero tolerance for 
errors and so one needs an orientation and mind set not required to the 
same degree in producing other products.
    The skill set and culture is built over a period of years. If there 
is an interruption in an organization's involvement in a particular 
technology or activity, the skill is lost. The difference in the 
aerospace business is that it consists of thousands of relatively small 
elements, each of which is critical.

Q2.  What is your perspective on critical skills at the second tier 
levels of industry that should be high national priorities to retain?

A2. The first tier, prime contractors, are primarily responsible for 
the system designs and integration. They are supported by thousands of 
second and third-tier suppliers who have technical specialties. In many 
cases, there are only two-or-three really qualified suppliers of these 
technical specialties.

Q3.  How are the knowledge and expertise gathered through our 
experience with the first fifty years of space activities, including 
the ability to design, develop, and operate a human lunar program and a 
space transportation system, being passed on to the next generation of 
aerospace professionals? How perishable is this knowledge and 
expertise?

A3. The knowledge and expertise related to manned space is passed on 
through a mentoring process. The drawings, reports and test records 
provide the data, but data is not knowledge. The knowledge comes 
through a mentoring, experimental learning process. This knowledge is 
very perishable.

Q4.  In your testimony, you state ``Once the capability and reliability 
of the components are demonstrated on NASA projects, the commercial 
space suppliers are then confident in using these components on their 
vehicles.'' Isn't NASA in effect a force multiplier? What would be the 
impact on the commercial sector if NASA project work opportunities are 
reduced?

A4. NASA is a knowledge and technology multiplier, and a pioneer of new 
technologies. Much of the progress in the commercial aerospace sector 
would slow dramatically if the NASA projects were to be reduced. NASA 
projects push boundaries so new technologies must be developed to meet 
these challenges. The commercial aerospace companies cannot take the 
financial risk to push the boundaries.

Q5.  Congress and the Members of this Committee have been clear about 
the mismatch between NASA's programs and the funding requested to 
carryout those programs. What, if anything, does this mismatch mean for 
the 2nd and 3rd tier of the aerospace industry?

A5. The mismatch has a similar effect on Tier 1, 2 and 3 companies. It 
is very difficult to maintain the skill sets and knowledge base when 
funding is inconsistent. If funding is consistent, but not adequate, 
the programs are stretched out and eventually costs increase. There is 
a body of work that needs to be accomplished for any program and a pace 
at which the work can be efficiently done. Stretching out a program 
many times leads to very inefficient progress since people are often 
waiting around for someone else to complete a task or make a decision.

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  In your testimony, you said you were surprised that in several 
competitions, companies who had previously supplied specific 
technologies to NASA had either declined to bid because they no longer 
had the ability to design the required components, or had apparently 
submitted a weak technical proposal. You saw this as an indication that 
consistent NASA funding is required if the nation is to maintain and 
advance its aerospace technology capabilities. In your opinion, are 
these isolated examples or representative of what will be going on in 
the industry if consistent NASA funding is not provided?

A1. I do not believe our experience is an isolated example. Many of the 
NASA programs require unique technologies. It is expensive to maintain 
these technical capabilities. If NASA does continuously pursue programs 
and consistently fund the programs, companies cannot maintain the 
required capabilities. NASA must provide a consistent flow of projects 
if they want the suppliers to maintain the capabilities.

Q2.  In your prepared statement, you comment that your company's 
``technology plans have enabled us to develop a very clear 
understanding of the relationship between the technologies we develop 
for NASA projects and the growth in Moog's other aerospace business.'' 
Is there a way to quantify the growth that your company has leveraged 
from its NASA work in terms of the number of jobs created and 
percentage of new business that is generated?

A2. Currently, the sectors of Moog that produce NASA-related 
technologies are about $800 million of our sales. Of the $800 million, 
at least one-half is derived from our NASA experience. This $400 
million in sales needs about 2,000 employees in our facilities and I 
would estimate about another 2,000 at our suppliers.

Q3.  Your written statement talks about the importance of a space 
program that inspires younger people and attracts them to the aerospace 
workforce, especially as increasing numbers of that workforce become 
eligible to retire. How serious is this issue for what our nation can 
or cannot do in future human spaceflight and exploration?

A3. Attracting the best and brightest younger engineers is absolutely 
necessary for us and all the NASA suppliers to maintain our aerospace 
capabilities. NASA projects, especially the manned space projects, are 
really hard technical problems. To execute these at all, we all need 
the best and brightest talent. With experience on NASA programs, these 
engineers can then apply their knowledge and skills to commercial 
projects, but this talent pool needs to be constantly renewed.

Q4.  In your prepared remarks, you make a striking statement, ``On the 
one hand, you can decide to fully and consistently fund the 
Constellation Program and the USA can maintain its leadership position 
in aerospace technology. On the other hand, you can decide to select 
one of several seemingly lower cost options'' and lose leadership. What 
is it about the Constellation Program, as opposed to alternative 
options for human spaceflight, that you believe is so critical to 
America's leadership in aerospace technology?

A4. Over the past 50 years, NASA has created the culture, knowledge and 
experience to execute successful human space flight programs. Human 
space flight requires extreme attention to thousands of details and a 
zero tolerance for error. Tom Young gave some very illuminating 
examples of what has happened when NASA attempted to run a human space 
flight and other programs with a money-saving mentality. There were 
some very expensive and unnecessary failures and NASA ultimately spent 
at least the same amount of money as it would have spent if it had 
adequately funded the program from the beginning.
    At this point, some want to believe that commercial entities can be 
a lower-cost option for some of the human space flight requirements. I 
do not believe the commercial entities have the same orientation 
relative to risk and loss of life that NASA has. From what I have seen, 
the cost-saving decisions made by the commercial entities have led to 
failures of their launches. So far, these have been test vehicles and 
some satellites, and not human space flight vehicles. The culture in 
the commercial entities is willing to trade-off the potential loss of 
life against cost. This value set is likely to lead to expensive 
failures and ultimately higher costs than if NASA were to run the 
program.

Questions submitted by Representative Pete Olson

Q1.  Our subcommittee has received testimony that the funding 
instability in the Constellation program has complicated the challenges 
of managing workforce retentions, transitions, etc. Dr. Ken Ford, chair 
of the NASA Advisory Council said, ``The current budget environment is 
jeopardizing the future of U.S. human space flight at a time when NASA 
has made significant progress toward development of the new Space 
Transportation Architecture.'' Assuming the President does not take an 
active leadership role in the issues facing NASA's human space flight 
program, with the likely result that OMB continues to starve NASA of 
funds in an effort to contain a runaway federal budget, how will a no-
growth budget environment affect the industry, the workforce and the 
Aerospace and Defense industrial base?

A1. If the Administration ``continues to starve NASA of funds'', it 
will not be possible to make adequate progress on the ``new Space 
Transportation Architecture''. Any Space Transportation Architecture 
will be a very complex system of interacting subsystems and components, 
all of which need to be developed in a parallel set of design and 
development activities. Without adequate funding to achieve a critical 
mass of NASA engineers, prime contractors and several levels of 
subcontractors, the likely result will be the same as what happened in 
the past NASA efforts to develop a Shuttle replacement. That is, there 
will be several years of paper designs, a minimal amount of hardware 
built and tested, after which the program will be cancelled.
    As was stated by all the panel members in the hearing, the funding 
needs to be sized to the needs of the program; not the other way 
around.

Q2.  The NASA Administrator has emphasized that the Administration 
would utilize space exploration for diplomatic purposes by encouraging 
greater cooperation with foreign nations. Assuming this cooperation 
means utilizing the technical and industrial capabilities from other 
nations and having them play larger roles in supplying hardware and 
services, what potential negative consequences could this policy have 
America's capabilities and workforce? What recommendations do you have 
for Congress to ensure that policies designed to increase foreign 
cooperation do not have adverse consequences for American industry?

A2. Involving foreign nations in the space program can be beneficial. 
With the Space Station, foreign nations developed high-level modules 
that had relatively few and well-defined interfaces to the Station. 
These modules could be developed mostly with their own in country 
technologies. Therefore, there was not a significant amount of leading-
edge USA-based technologies needing to be transferred.
    This model is not likely to be applicable to the Constellation 
Program because it is a highly integrated system. In this case, there 
would have to be a very significant amount of technology transfer to 
the foreign suppliers for them to design their modules and components. 
With the current export control regulations, processes, and resources, 
the program delays would be intolerable.

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
